<html>
<title> - OVERSIGHT HEARING: REVIEW OF VETERANS' DISABILITY COMPENSATION</title>
<body><pre>[Senate Hearing 110-467]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-467
 
    OVERSIGHT HEARING: REVIEW OF VETERANS' DISABILITY COMPENSATION--
                        REHABILITATING VETERANS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 5, 2008

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                     U.S. GOVERNMENT PRINTING OFFICE
41-914 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                   Daniel K. Akaka, Hawaii, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Patty Murray, Washington             Arlen Specter, Pennsylvania
Barack Obama, Illinois               Larry E. Craig, Idaho
Bernard Sanders, (I) Vermont         Kay Bailey Hutchison, Texas
Sherrod Brown, Ohio                  Lindsey O. Graham, South Carolina
Jim Webb, Virginia                   Johnny Isakson, Georgia
Jon Tester, Montana                  Roger F. Wicker, Mississippi
                    William E. Brew, Staff Director
                 Lupe Wissel, Republican Staff Director


                            C O N T E N T S

                              ----------                              

                            February 5, 2008
                                SENATORS

                                                                   Page
Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........     1
Tester, Hon. Jon, U.S. Senator from Montana......................     2
Webb, Hon. Jim, U.S. Senator from Virginia.......................    43

                               WITNESSES

Fanning, Ruth A., Director, Vocational Rehabilitation and 
  Employment Service, Veterans Benefits Administration, U.S. 
  Department of Veterans Affairs; Accompanied by Kristin Day, 
  LCSW, Chief Consultant, Care Management and Social Work, 
  Veterans Health Administration, U.S. Department of Veterans 
  Affairs........................................................     5
    Prepared statement...........................................     6
    Response to written questions submitted by:
      Hon. Daniel K. Akaka.......................................    11
      Hon. Richard Burr..........................................    19
        Addendum.................................................    23
    Response to questions arising during hearing.................    24
Hardy, Dorcas R., Former Chair, VA Vocational Rehabilitation and 
  Employment Task Force..........................................    30
    Prepared statement...........................................    32
      Addendum...................................................    37
        Attachment A.............................................    38
    Response to written questions submitted by Hon. Daniel K. 
      Akaka......................................................    40
Lancaster, John, Executive Director, National Council on 
  Independent Living.............................................    44
    Prepared statement...........................................    46
Carmon, Douglas B., Assistant Vice President, Military and 
  Veterans Initiatives, Easter Seals, Inc........................    47
    Prepared statement...........................................    49
    Response to written questions submitted by Hon. Daniel K. 
      Akaka......................................................    56
Daley, Richard, Associate Legislative Director, Paralyzed 
  Veterans of America; Accompanied by Theresa Boyd, PVA 
  Vocational Rehabilitation Consultant...........................    60
    Prepared statement...........................................    62
Linda Winslow, Executive Director, National Rehabilitation 
  Association; Accompanied by James Rothrock, Commissioner, 
  Virginia Department of Rehabilitative Services.................    64
    Prepared statement of Linda Winslow..........................    65
    Prepared statement of Jim Rothrock...........................    68


    OVERSIGHT HEARING: REVIEW OF VETERANS' DISABILITY COMPENSATION--
                        REHABILITATING VETERANS

                              ----------                              


                       TUESDAY, FEBRUARY 5, 2008

                               U.S. Senate,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:29 a.m., in 
Room 562, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.
    Present: Senators Akaka, Tester, and Webb.

     OPENING STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. Aloha and welcome to the second in a series 
of oversight hearings regarding the issue of veterans' 
disability compensation.
    This morning, we focus on the rehabilitation of disabled 
veterans, including VA's Vocational Rehabilitation and 
Employment Program (VR&E). VR&E addresses the unique and 
specific needs of veterans with service-connected disabilities. 
The goals are to help these veterans transition to civilian 
life, overcome effects of disabilities, become employable, 
obtain and maintain suitable employment, and maximize 
independence in daily living.
    As more veterans from Operations Iraqi Freedom and Enduring 
Freedom return from combat with debilitating conditions such as 
Traumatic Brain Injury and PTSD, the demand for services will 
continue to grow. It cannot be overstated. VR&E is essentially 
charged with providing the most critical of services to our 
highest category of veterans. It should, therefore, rank among 
the highest priorities of the Department. VR&E should be a 
touchstone of excellence within the Department. Unfortunately, 
that is not always the case.
    The role of vocational rehabilitation in the 21st century 
is an important part of what we will be reviewing in these 
hearings.
    When the concept of vocational rehabilitation for those 
injured in battle began and through the 1960s, the goal was 
that a veteran be able to return to work in a shop, factory, 
farm, or other manual labor field. This may have been a valid 
perception at that time. Today, we live in the information age. 
Couple that change with all the positive changes made through 
the Americans with Disabilities Act and other laws, and 
veterans with very serious disabilities are able to reenter a 
vastly different workforce.
    This new reality must be reflected in VA's program of 
rehabilitation. The committee must begin to examine the 
relationship between disability compensation and vocational 
rehabilitation. To the extent that the current disability 
schedule is based on an average loss of earnings capacity, the 
question arises to whether an individual who completes a 
program of vocational rehabilitation has had the capacity at 
least partially restored and whether, therefore, the level of 
compensation should be reevaluated. This leads directly to the 
need to look carefully at the distinction between compensation 
for lost earnings and compensation for quality of life.
    This morning, we start to explore the role of the VR&E 
program in the overall rehabilitation and reintegration of 
seriously disabled veterans. We need to understand how the VA's 
medical care and vocational rehabilitation professionals 
interact with each other. We also need to understand how VR&E 
is part of the larger rehabilitation process. In addition, we 
need a great deal more information about the services offered 
to those enrolled in the program of independent living services 
and the coordination of those services with the medical side of 
the house.
    There have been a number of important reviews completed on 
this program. In 2004, a VA task force conducted a 
comprehensive study of the VR&E program and issued a report 
with more than 100 recommendations. Both the Dole-Shalala 
Commission and the Veterans Disability Benefits Commission 
looked at the VR&E program and made recommendations echoing 
those of the task force, particularly for increased staffing 
and better data analysis.
    There are many other issues that I will not enumerate on at 
this time. It is more important that we get to work on this 
critical program and the many issues that it involves. I have a 
longer statement available at the table that will appear in the 
hearing record.
    [The prepared statement of Senator Akaka follows:]

         Prepared Statement of Hon. Daniel K. Akaka, Chairman, 
                        U.S. Senator from Hawaii

    Aloha and welcome to today's hearing, the second in a series of 
oversight hearings dealing with the issue of veterans' disability 
compensation. This morning, we will be focusing on matters dealing with 
the rehabilitation of disabled veterans, including, specifically, VA's 
Vocational Rehabilitation and Employment Program--VR&E.
    The mission of the VR&E is defined in chapter 31 of title 38 quite 
clearly. It is to provide the services and assistance necessary to 
enable veterans with service-connected disabilities to achieve maximum 
independence in daily living and, to the maximum extent feasible, 
become employable and obtain and maintain suitable employment. The 
program addresses the unique and specific needs of veterans with 
service-connected disabilities in order to help them transition to 
civilian life, overcome the effects of disabilities, become employable, 
obtain and maintain suitable employment, and maximize independence in 
daily living. The need for VR&E services is well documented by 
continuing increases in the number of applications for assistance and 
the number of individuals approved for participation. As more 
Operations Iraqi Freedom and Enduring Freedom veterans return from 
combat with serious and debilitating conditions--such as Traumatic 
Brain Injury and PTSD--the demand for services will continue to grow.
    It cannot be overstated: VR&E is essentially charged with providing 
the most critical of services to our highest category of veterans--
those with service-connected disabilities. It should rank among the 
highest priorities of the Department and be a touchstone of excellence 
within the structure of benefits and services administered by the 
Department. Unfortunately, that is not always the case.
    The role of vocational rehabilitation in the 21st Century is an 
important part of what we will be reviewing. The current chapter 31 
program had its original roots in the War Risk Insurance Act of 1914. 
When the concept of vocational rehabilitation services for those 
injured in battle began, and through the 1960's the dominant notion was 
that vocational rehabilitation was designed to help an individual 
regain the ability to return to work in a shop, factory, farm or other 
manual labor field. This may have been a valid perception at the time, 
but in the information age and with all the positive changes realized 
through the Americans with Disabilities Act and other progressive laws, 
veterans with very serious disabilities are able to reintegrate back 
into a vastly different workforce with increased levels of 
productivity. This new reality must be reflected in VA's program of 
rehabilitation.
    This morning, we start to explore the role of the VR&E program in 
the overall rehabilitation and reintegration of seriously disabled 
veterans. We must begin to examine the relationship between disability 
compensation and vocational rehabilitation. To the extent that the 
current disability schedule is based on an average loss of earnings 
capacity, a question arises as to whether an individual who completes a 
program of vocational rehabilitation has had the capacity at least 
partially restored and whether therefore the level of compensation 
should be re-evaluated. This leads directly to the need to look 
carefully at the distinction between compensation for lost earnings and 
compensation for quality of life.
    There have been a number of important reviews completed on this 
program. In 2004, a VA task force conducted a comprehensive study of 
the VR&E program and issued a report with more than 100 
recommendations. Chief among those were that limited data and analysis 
hindered effective management of the program and that there was need 
for a more aggressive approach to serving veterans with serious 
employment handicaps. The task force recommended placing a priority on 
services to veterans who have the most serious disabilities that impact 
quality of life and employment. It also recommended that the system 
eliminate the need for service connection as a prerequisite for 
receiving services so as to allow as many disabled veterans as possible 
to receive services, especially transitioning servicemembers who are 
found ``unfit for duty.''
    Both the Dole-Shalala Commission and the Veterans Disability 
Benefits Commission looked at the VR&E program and made recommendations 
echoing those of the task force--particularly for increased staffing 
and better data analysis. The Dole-Shalala Commission recommended that 
education, training and work-related benefits should be initiated early 
in the rehabilitation process. In this regard, I intend to explore the 
role of the VR&E program in the overall rehabilitation and 
reintegration of seriously disabled veterans. We need to understand how 
the medical care professionals and those in the vocational 
rehabilitation program interact with each other and how a program of 
vocational rehabilitation is part of the larger rehabilitation process. 
In addition, I am interested in learning a great deal more about the 
services offered to those enrolled in a program of Independent Living 
Services and the coordination of those services with medical care 
professionals.
    The Veterans Disability Benefits Commission, based on the task 
force's report and finding that ``VR&E should provide more complete 
vocational assessments to assist in disability and vocational decisions 
. . . [and] specifically, perform a functional capacity evaluation that 
would identify what work a veteran could do in the paid economy despite 
his or her disabilities,'' agreed with a 2005 Government Accountability 
Office (GAO) review that VR&E should screen veterans who file for 
compensation based on individual unemployability.
    A good veterans' disability benefits package does not just 
compensate veterans for what they have lost. It also helps them 
rehabilitate and reintegrate themselves, focusing on their strengths, 
and mindful of their wounds. This is what we must deliver.

    Chairman Akaka. I welcome everyone to our hearing and look 
forward to a productive session.
    Now, I would like to call on Senator Tester for any remarks 
he has.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. I want to thank you, Mr. Chairman, for 
holding this hearing on vocational rehabilitation and 
employment. I want to thank the panelists for testifying here 
today.
    I regrettably have to preside on the floor at 10:00, so I 
am only going to have about 15 minutes. I will make my comments 
as short as possible, and I don't say that to minimize this 
issue. I think this is a critically important issue for our 
veterans throughout the Country.
    You know, last year, this committee spent a lot of time on 
the health care side of things--helping servicemembers 
transition from the military to the VA--and we've got more work 
to do on that front, but we've got a good start. Now we are 
able to turn our attention to rehabilitation: to help the VA 
help our veterans get on with their lives; to move from the 
wounded warrior standpoint to someone who is skilled and 
trained; to find employment in the private sector in the 
workplace.
    But, we have our challenges here, too--not enough 
resources, a cap on the new vocational rehabilitation 
employment cases at 2,500 a year, and I hope you can address 
that. It seems a bit arbitrary and insufficient, so I am 
curious. That would be one of the questions I would ask, and 
maybe it is one of the things you will address in your 
statements, but I am curious as to why it was set at 2,500 when 
we have 200,000 men and women deployed in Iraq and Afghanistan. 
It seems to me to be a bit arbitrary. At any rate, if you could 
answer it, that would be great--in your testimony or at the 
end.
    The bottom line is: we need more coordination across the 
VA. Doctors and therapists who treat our patients on the health 
care side appear to have little or no input into the vocational 
rehabilitation and education side of veterans' care. 
Communication is critical in this day and age. And with the 
outstanding electronic record keeping that the VA has, I see no 
reason why we can't do more to improve the care for veterans 
and improve their rehabilitation.
    Finally, the VA continues to be slow to address the needs 
of today's returning veterans. Shop trades and manual labor 
training that characterized the vocational rehabilitation 
program years ago is insufficient for today's wounded warrior, 
who very often deal with the most advanced in technology that 
is available to mankind. The VR&E program can do a better job 
of training veterans to continue to use the skills that they 
acquired in the military.
    With that, Mr. Chairman, I am going to stop. I have got 
about 15 or 20 minutes maximum that I can listen to the 
testimony. I apologize for that, but I will be reading your 
testimony and look forward to really working with you folks, 
with the rest of the Committee, and with you, Mr. Chairman, to 
help address the issues of vocational rehabilitation and 
training. So, thank you.
    Chairman Akaka. Thank you very much, Senator Tester.
    This morning, we will begin with Ruth Fanning. She is the 
Director of the Vocational Rehabilitation and Employment 
Service with VBA. She is accompanied by Kristin Day, Chief 
Consultant, Care Management and Social Work with VHA. I want to 
welcome you to the hearing this morning and ask you to begin 
with your statement. Thank you.

      STATEMENT OF RUTH A. FANNING, DIRECTOR, VOCATIONAL 
   REHABILITATION AND EMPLOYMENT SERVICE, VETERANS BENEFITS 
     ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
   ACCOMPANIED BY KRISTIN DAY, LCSW, CHIEF CONSULTANT, CARE 
  MANAGEMENT AND SOCIAL WORK, VETERANS HEALTH ADMINISTRATION, 
              U.S. DEPARTMENT OF VETERANS AFFAIRS

    Ms. Fanning. Thank you. Mr. Chairman and members of the 
committee, thank you for inviting me to appear before you today 
to discuss VA's Vocational Rehabilitation and Employment 
Program. My testimony will provide an overview of VR&E with 
specific emphasis on Independent Living services and the Five-
Track Employment Process. I will discuss VR&E services provided 
to veterans and servicemembers, including members of the Guard 
and Reserves, and the importance of VR&E's relationships with 
the Veterans Health Administration, the Department of Labor, 
and the Department of Defense in carrying out VR&E's role in 
the recovery and rehabilitation of servicemembers and veterans 
with serious injuries. I will address recommendations from the 
President's Commission on Care for America's Returning Wounded 
Warriors and the Veterans Disability Benefits Commission.
    I am pleased to be accompanied by Ms. Kristin Day, Chief 
Consultant, Care Management and Social Work, Veterans Health 
Administration.
    VR&E provides service-disabled veterans and servicemembers 
awaiting medical discharge from active military duty with the 
necessary services to assist them to prepare for, obtain, and 
maintain suitable employment, or to achieve independence in 
their daily living. Veterans with service-connected 
disabilities are provided with a full range of services that 
include vocational planning, case management, training to build 
job skills, and job placement assistance.
    In response to recommendations made by the VR&E Task Force 
in 2004, VR&E Service implemented the Five-Track Employment 
Process. This process standardizes the VR&E program orientation 
practices, integrates veterans, counselors, and employment 
professionals through a comprehensive evaluation phase, and 
places emphasis on employment early in the rehabilitation 
process. The Five-Track Employment Process enables veterans to 
make informed choices through one of five employment options 
that include reemployment, rapid access to employment, self-
employment, employment through long-term services, and 
independent living. Independent living services are provided to 
help veterans reach the point where a vocational goal may be 
pursued and to assist veterans to become as independent as 
possible in daily living within their families and communities.
    When a servicemember or veteran experiences a traumatic or 
serious injury, every aspect of his or her life is potentially 
affected. Medical services dominate at the onset of a serious 
injury, and as stabilization and recovery progress, other 
transition needs emerge. Many severely-wounded veterans and 
active duty servicemembers are initially treated in a VA 
Polytrauma Rehabilitation Center. Younger veterans particularly 
benefit from an approach to rehabilitation that emphasizes a 
return to employment and independent living from the very 
beginning of the treatment process.
    VR&E program specialists and rehabilitation specialists 
with Spinal Cord Injury, Traumatic Brain Injury, Polytrauma 
programs, and the Compensated Work Therapy Programs work 
together to provide vocational services. After the intensive 
medical rehabilitation phase, VR&E services continue as an 
integral part of seriously disabled servicemembers' or 
veterans' adjustment and reintegration into their communities. 
To ensure timely VR&E services to the most seriously disabled 
servicemembers and veterans, each regional office has 
designated a VR&E OEF/OIF Case Coordinator.
    Another tool used to assist the injured servicemember or 
veteran is the Coming Home to Work Program. Coming Home to Work 
provides opportunities for eligible servicemembers during 
medical transition to obtain work experience, determine the 
suitability of potential careers, and make the transition into 
competitive employment.
    VR&E provides additional outreach to National Guard and 
Reserve members to ensure their awareness of available benefits 
and to expedite their enrollment and participation in the VR&E 
program. Outreach is also conducted through the TAP and DTAP 
programs.
    The Veterans Disability Benefits Commission recently 
reviewed VA benefits and made several recommendations to 
enhance services for transitioning disabled OEF/OIF veterans. 
Many of these recommendations would impact VR&E services 
provided to servicemembers and veterans, and several would 
require legislative changes. We are currently in the process of 
evaluating the Commission's recommendations and formulating 
responses or actions, as appropriate. We are not prepared to 
discuss such matters at today's hearing.
    VR&E also received recommendations from the President's 
Commission on Care for America's Returning Wounded Warriors. 
The Commission recommended financial support for VR&E 
participants through a system of transition payments and 
payment of an incentive to encourage program completion. The 
Commission also recommended that VA conduct a six-month study 
to address several recommendations, including administration of 
transition payments. VBA worked with the VA Office of Policy 
and Planning to contract for the study and VA has advanced a 
legislative proposal to implement the recommendations made by 
the Commission on Care for America's Returning Wounded 
Warriors.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions from you or any of the other 
Members of the Committee.
    [The prepared statement of Ms. Fanning follows:]

      Prepared Statement of Ruth A. Fanning, Director, Vocational 
 Rehabilitation & Employment Service, Veterans Benefits Administration

    Mr. Chairman and Members of the Committee:

    Thank you for inviting me to appear before you today to discuss 
VA's Vocational Rehabilitation and Employment (VR&E) program. My 
testimony will provide an overview of VR&E with specific emphasis on 
Independent Living services and the Five-Track Employment Process. I 
will discuss VR&E services provided to veterans and servicemembers, 
including members of the Guard and Reserves, and the structure and 
importance of VR&E's relationships with the Veterans Benefits 
Administration (VBA), Veterans Health Administration (VHA), the 
Department of Labor (DOL), and the Department of Defense (DOD) in 
carrying out VR&E's role in the recovery and rehabilitation of 
servicemembers and veterans with serious injuries. I will also address 
how recommendations from the President's Commission on Care for 
America's Returning Wounded Warriors and the Veterans' Disability 
Benefits Commission would impact VR&E. I am pleased to be accompanied 
by Ms. Kristen Day, Chief Consultant, Care Management and Social Work, 
Veterans Health Administration.

                            OVERVIEW OF VR&E

    VR&E provides service-disabled veterans and servicemembers awaiting 
medical discharge from active military duty with the necessary services 
to assist them in preparing for, finding, and maintaining suitable 
employment or achieving independence in their daily living. Veterans 
with service-connected disabilities are provided a full range of 
services including vocational planning, case management, training to 
build job skills, and job placement assistance.
Five Tracks to Employment
    In response to recommendations made by the VR&E Task Force in 2004, 
VR&E Service implemented the Five-Track Employment Process. The Five-
Track Employment Process standardizes the VR&E program orientation 
practices; integrates veterans, counselors, and employment 
professionals through a comprehensive evaluation phase; and places 
emphasis on employment early in the rehabilitation process. The Five-
Track Employment Process enables veterans to make informed choices 
through one of five employment options, including re-employment with a 
previous employer, rapid access to employment through job-readiness 
preparation and incidental training opportunities, self-employment for 
those who wish to own their own businesses, employment through long-
term services that include formal training and education programs 
leading to a suitable employment goal, and services to maximize 
independence in daily living for veterans who are currently unable to 
work or participate in other programs of vocational rehabilitation.
    In 2005, VR&E Service stationed 72 employment coordinators at VA 
regional offices across the country. Over the past 2 years, the number 
of employment coordinators has increased to 83. The primary function of 
the employment coordinator is to provide veterans with services to 
enhance job-readiness skills and to offer job referral and placement 
services. The employment coordinator also works closely with the 
Department of Labor-funded Disabled Veterans Outreach Program 
Specialists and Local Veterans' Employment Representatives.
    Additionally, VR&E Service established Career Resource Centers--
``job labs''--within each regional office and developed an on-line 
employment Web site on the Internet at www.VetSuccess.gov. VR&E Service 
developed working partnerships and signed memoranda of understanding 
(MOUs) with Federal, State, and private-sector employers who have 
agreed to train and hire veterans participating in the VR&E Program. 
These resources and initiatives have provided vital vocational and 
employment support to program participants, enabling them to make 
positive training and employment decisions leading to successful 
employment outcomes.
    VR&E also continues to partner with the Department of Labor VETS 
program to assist veterans to achieve their employment goals. As 
recommended by the 2004 Task Force, VR&E and DOL entered into an MOU in 
2005 and moved forward to establish a joint work group to standardize 
procedures, develop joint reporting and performance methods, and 
implement a national model for enhanced collaboration. At the end of 
January, a joint demonstration project was launched in eight offices to 
move forward with implementation of all joint work group 
recommendations.

Independent Living
    VR&E may initiate programs of independent living (IL) services to 
eligible veterans for whom achievement of a vocational goal is not 
currently reasonably feasible. Independent living services are intended 
to help veterans reach the point when a vocational goal or 
participation in an extended evaluation is reasonably feasible or 
assist veterans to become more independent in daily living within their 
families and communities.
    Independence in daily living translates to the ability of a veteran 
to live and function within family and community either without the 
services of others or with a reduced level of those services. Services 
are tailored to each veteran's needs and may include a discrete service 
or a comprehensive program of services necessary to achieve maximum 
independence in daily living.
    Some of the independent living services that VA provides include 
training in activities of daily living, training in skills needed to 
improve an individual's ability to live more independently, attendant 
care during a period of transition, transportation when special 
arrangements are required, peer counseling, housing integral to 
participation in a program of special rehabilitation services through 
an approved independent living center or program, training to improve 
awareness of rights and needs, assistance in identifying and 
maintaining volunteer or supported employment, services to decrease 
social isolation, and adaptive equipment that increases functional 
independence.
    As examples of some of the IL services provided in collaboration 
with VHA, I would like to highlight four programs: The Home 
Improvements and Structural Alterations (HISA) and Specially Adapted 
Housing (SAH) grant programs, VA's Automobile Adaptive Equipment 
program, and the Visually Impaired Services Team (VIST) program.
    Benefits and services related to housing through the Independent 
Living Program may include adaptations that VA is unable to provide 
under the HISA or SAH grant programs. The Vocational Rehabilitation 
Counselor works closely with the Veterans Health Administration (VHA) 
and/or the SAH agent to conduct assessments and procure services and 
equipment to address housing-related independent living needs. VHA can 
provide HISA grants up to $1,200 for nonservice-connected veterans or 
up to $4,100 for service-connected veterans who need modifications to 
their homes to facilitate entry and provide access within the home. The 
Specially Adaptive Housing (SAH) program provides assistance to 
veterans with specific loss or loss of use of upper and lower 
extremities, and blindness when accompanied by loss, or loss of use, of 
an extremity. The SAH grant can be used up to three different times as 
long as the total does not exceed $50,000. Additionally, a veteran can 
use a ``temporary residence'' grant of up to $14,000 if a family member 
owns the home.
    VA's Automobile Adaptive Equipment (AAE) program helps veterans or 
servicemembers who are service-connected for the loss or loss of use of 
one or both feet or hands, or who have service-connected ankylosis of 
one or both knees or one or both hips. Veterans with severe burns 
resulting in a rating of loss of use of their extremities also qualify. 
AAE allows veterans with serious disabilities to live more 
independently and pursue employment by permitting eligible disabled 
persons to enter, exit, or operate a motor vehicle. The program can 
provide, among other things, power steering, brakes, windows, doors, 
mirrors, seats, automatic transmission, van lifts, wheelchair and 
scooter lifts, shipping costs, and other special equipment necessary to 
the individual.
    VA's VIST offers a wide variety of services, including visual 
exams, devices to assist with daily living, and computer provision and 
training, to veterans with visual impairments. VA also offers an array 
of prosthetic devices and services for patients based upon such factors 
as enrollment, medical evaluations, and prescriptions. VA assumes 
responsibility for repairs to the equipment provided. As a result of 
VIST services, veterans with serious visual impairments are able to 
work and live more independently.

       SERVICES TO SERIOUSLY WOUNDED SERVICEMEMBERS AND VETERANS

    When a servicemember or veteran experiences a traumatic or serious 
injury, every area of his or her life is potentially affected. Serious 
disabilities, including amputations; burns; spinal cord injuries; 
traumatic brain injuries; and associated mental disorders, require 
extensive care and often prolonged recovery periods. Medical services 
dominate at the onset of an injury, and other transition needs emerge 
as stabilization and recovery progresses. Adjustment to disabilities 
due to the traumatic or serious injuries is multifaceted and highly 
individual. Adjustment issues may include changes in personal 
relationships, social and economic status, vocational status, and 
adaptation to the physical changes associated with disability.
    Many severely wounded veterans and active-duty servicemembers are 
initially treated at a VA Polytrauma Rehabilitation Center (PRC). 
Vocational rehabilitation is often an important component of services 
provided for those treated within the Polytrauma System of Care. 
Younger veterans particularly benefit from an approach to 
rehabilitation emphasizing a return to employment and independent 
living from the very beginning of the treatment process. VR&E program 
specialists and rehabilitation specialists with Spinal Cord Injury, the 
Traumatic Brain Injury (TBI)/Polytrauma programs, and/or the 
Compensated Work Therapy (CWT) programs, collaboratively provide 
vocational services, including vocational counseling services and 
educational support regarding benefits. CWT is a program in which 
veterans are placed in jobs, and then receive treatment to help them 
keep these positions. It is integrated with other components of 
treatment. Most veterans receiving CWT services have mental health 
diagnoses, but may also have Traumatic Brain Injury.
    After the intensive medical rehabilitation phase, VR&E services 
continue as an integral part of seriously disabled servicemembers' or 
veterans' adjustment and reintegration into their communities. Working 
together with military treatment facilities, the Department of Labor, 
VHA, and other VBA personnel, VR&E provides an optimal program of 
vocational rehabilitation and employment services to assist with 
seamless transition from military to civilian life.

                           EARLY INTERVENTION

    Early intervention services for a seriously disabled OEF/OIF 
servicemember or veteran begins with a VR&E Vocational Rehabilitation 
Counselor directly contacting the individual to inform him or her about 
available benefits. This initial contact may occur while the 
servicemember is receiving treatment at a military treatment facility 
(MTF), a VA Medical Center, or the individual's home. VHA Social Work 
Case Managers help coordinate meetings between patients, families, and 
VBA counselors to begin the application process for veterans. Active 
duty servicemembers can also benefit from applying for housing grants, 
vehicle modifications, and VR&E benefits. VR&E staff is equipped to go 
anywhere necessary to deliver the initial orientation and provide 
assistance to the wounded warrior and his or her family. Each PRC also 
has a VBA representative assigned to the program who visits patients 
and families on a regular basis.
    This initial contact allows for the vocational rehabilitation 
process to begin earlier, during medical rehabilitation, and enables 
the veteran to make the transition quickly to work or to a program of 
employment services after he or she is discharged and ready to pursue 
vocational goals. This early intervention also gives hope to veterans 
as they adjust to their disabilities and plan for their futures. 
Research indicates that veterans realize better employment outcomes 
when vocational rehabilitation is provided in the context of an overall 
mental or behavioral health treatment plan.
    Once the eligible servicemember or veteran completes the initial 
orientation and the vocational assessment, a plan of services is 
developed to assist in meeting the individual's vocational or 
independent living goals. In developing the rehabilitation plan, VR&E 
staff work closely with MTF and VHA personnel, communicating with 
medical teams to obtain current information about the veteran's 
physical capacities and projected recovery timelines. Working in 
collaboration with VHA, the Vocational Rehabilitation Counselor obtains 
specialized assessments, including functional capacity evaluations, 
neuropsychiatric evaluations, and psychiatric evaluations to ensure 
rehabilitation planning takes disability issues fully into account. 
Throughout the planning and rehabilitation phase of veterans' VR&E 
programs, VHA is a vital partner in providing ongoing medical, dental, 
vision, and mental health care, as well as meeting specialized 
prosthetic needs. VR&E and VHA also partner to provide ongoing in-
service training to staff to maintain VR&E counselors' awareness of 
current medical trends and to provide ongoing program updates to both 
VR&E and VHA.
    Direct vocational counseling services address the vocational or 
independent living needs of the veterans and active duty 
servicemembers. These services are available at PRCs through the 
Polytrauma Vocational Rehabilitation Program, the VR&E program, and the 
VHA CWT program, and include: vocational evaluation, career 
exploration, functional assessment, vocational counseling, education 
about available resources, training, job placement assistance, and 
compensated work therapy placements. Working collaboratively, the 
Polytrauma Vocational Rehabilitation Program and the local CWT program 
provide linkage to VR&E benefits for both independent living program 
services and education training/employment services, and VR&E refers 
veterans for services through the CWT program when appropriate. 
Vocational services for patients with TBI, spinal cord injuries, burns, 
polytrauma, and other serious injuries are effectively coordinated 
through VBA and VHA programs to achieve a coordinated course of care, 
treatment, and rehabilitation.
    Outreach to servicemembers is also provided through the Transition 
Assistance Program (TAP) and Disabled Transition Assistance Program 
(DTAP) at the time servicemembers with disabilities are leaving the 
military. Through the TAP program, servicemembers are informed about 
the broad range of VA benefits available to them, including VR&E 
benefits. DTAP provides more detailed benefits information geared 
toward servicemembers with disabilities, including a detailed 
orientation about VR&E and all available services. The goal of DTAP is 
to encourage and assist potentially eligible servicemembers to make 
informed decisions about VA's vocational rehabilitation and employment 
benefits. Full DTAP information is also available on VR&E's Web site, 
www.VetSuccess.gov. This site includes all orientation materials from 
DTAP and the standard VR&E Five Tracks to Employment orientation.
    VR&E will collaborate with the new Federal Recovery Coordinators to 
ensure seamless and timely delivery of services. The Federal Recovery 
Coordinators provide seriously injured veterans or servicemembers with 
the opportunity to consult a VR&E counselor. The results of this 
discussion will be included in the veteran's or servicemember's Federal 
Individual Recovery Plan (FIRP), which describes the objectives and 
resources needed to assist him or her in achieving lifelong needs and 
goals through recovery, rehabilitation, and reintegration.
    Eligible servicemembers who have been determined by VA to have a 
disability of at least 20 percent are entitled to an evaluation of VR&E 
benefits regardless of their expected discharge date. Vocational 
rehabilitation services are introduced to servicemembers during VA 
educational and vocational counseling available to servicemembers 
anticipating discharge from the military for any reason. While a 
servicemember cannot participate in VR&E services until VR&E 
eligibility is determined, educational and vocational counseling 
services provide an opportunity to begin the counseling and evaluation 
process, allowing vocational rehabilitation and employment services for 
disabled servicemembers and veterans to progress more quickly once 
eligibility for the VR&E program has been established.

OEF/OIF Priority Services
    To ensure timely services, each regional office has designated a 
VR&E OEF/OIF case coordinator to track all OEF/OIF claims and implement 
priority processing of their vocational rehabilitation claims. Within 
one business day of receiving an OEF/OIF VR&E application, the assigned 
office contacts the servicemember or veteran by phone to offer an 
initial appointment within five business days. If the servicemember or 
veteran cannot be reached by phone, the office schedules an appointment 
within ten business days by mailing an appointment letter to the 
servicemember or veteran.
    For servicemembers and veterans who are recovering from 
catastrophic disabilities and who need independent living services in 
addition to planning for their vocational goals, an extended evaluation 
period may be needed. Individuals who are so severely disabled that a 
decision cannot be made about whether an employment goal is currently 
feasible may be provided an extended evaluation of more than the basic 
12 months. VR&E Service has authorized field managers to approve 
extended evaluations for OEF/OIF servicemembers and veterans up to a 
total of 18 months.
    Another tool to assist the injured servicemember or veteran is the 
``Coming Home to Work'' (CHTW) initiative. The CHTW initiative began in 
September 2004 as a VA Office of Human Resources pilot at Walter Reed 
Army Medical Center. In November 2005, responsibility for CHTW was 
transferred to VR&E Service and became an integral part of VR&E's early 
intervention and outreach efforts to OEF/OIF servicemembers. CHTW was 
initially established at eight major MTFs and later expanded to 13. 
CHTW has provided opportunities for eligible servicemembers to obtain 
work experience, develop skills needed to make the transition to 
civilian employment, determine the suitability of potential careers, 
and make the transition into competitive employment positions.
    The need for early VR&E outreach through CHTW extends beyond the 
major MTFs. DOD assigns injured servicemembers pending medical 
separation to health care facilities across the country. In order to 
meet the increased need for early VR&E outreach, CHTW is now being 
expanded to all VR&E field offices. This expansion involves developing 
a solid working relationship with the military chain of command, 
government agencies, and the VA local service delivery team. Close 
coordination and collaboration are vital to the success of VR&E early 
outreach efforts for disabled servicemembers and veterans.

             SERVICES TO NATIONAL GUARD AND RESERVE MEMBERS

    National Guard and Reserve members receive the same VR&E benefits 
as all other servicemembers and veterans with a VA-rated disability, 
but VR&E provides additional outreach to these groups to ensure their 
awareness of available benefits and to expedite their enrollment and 
participation in the VR&E program.
    Outreach includes participation in various welcome home events for 
Guard and Reservists; coordination with the National Guard Transition 
Assistance Advisors; and forming partnerships with Warrior Transition 
Units (WTUs) to provide outreach and early access to VA benefits. We 
also provide regular briefings to the Army Community Based Health Care 
Organizations, Navy personnel, Navy Physical Evaluation Board Liaison 
Officers (PEBLOs), and Army Medical Hold transition services personnel.

                       COMMISSION RECOMMENDATIONS

Veterans Disability Benefits Commission
    The Veterans Disability Benefits Commission recently reviewed VA 
benefits and made several recommendations to enhance services for 
transitioning disabled OEF/OIF veterans. Many of these recommendations 
would impact VR&E services provided to servicemembers and veterans, and 
several would require legislative changes. We are currently in the 
process of evaluating the Commission's recommendations and formulating 
appropriate responses or actions, as appropriate, but are not prepared 
to discuss such matters at today's hearing.
president's commission on care for america's returning wounded warriors
    VR&E received additional recommendations from the President's 
Commission on Care for America's Returning Wounded Warriors. This 
commission's recommendations included extending the maximum number of 
months that a veteran may participate in a VR&E program to 72 months. 
The extension was recommended to accommodate part-time attendance or 
temporary suspension of participation in a rehabilitation program. 
Current program regulations allow part-time attendance up to 96 months.
    The Commission recommended financial support for VR&E participants 
through a system of transition payments and payment of an incentive to 
encourage program completion. The Commission also recommended that VA 
conduct a 6-month study to address several recommendations, including 
administration of transition payments. VBA worked with the VA Office of 
Policy and Planning to contract for this study. VA has advanced a 
legislative proposal to implement the recommendations made by the 
Commission on Care of America's Returning Wounded Warriors.

    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions from you or any of the other Members of the 
Committee.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Daniel K. Akaka to VA

    Question 1. The Veterans Disability Benefits Commission stated in 
no uncertain terms that despite repeated efforts at reform throughout 
the years, VR&E is failing in its primary goal. Would you please 
respond to this basic finding and briefly address their recommendations 
aimed at elevating the outcomes of VR&E?
    Response. We believe the Vocational Rehabilitation and Employment 
(VR&E) program is succeeding in its mission of assisting veterans in 
obtaining and maintaining suitable employment and achieving greater 
independence in daily living. Last year, approximately 11,000 disabled 
veterans were successfully rehabilitated through the VR&E program, with 
over 8,250 veterans reentering employment and earning aggregate annual 
salaries of approximately $271 million. In support of its vital 
mission, VR&E has redesigned its program to incorporate the five tracks 
to employment model and other recommendations of the Secretary's VR&E 
task force in 2004. The Veterans Disability Benefits Commission 
recommendations include adding staff, improving performance 
measurement, expanding eligibility, and offering incentives for 
completing rehabilitation plans. The recommendations are addressed 
below.

  Recommendation 6.9: Access to vocational rehabilitation should be 
        expanded to all medically separated servicemembers.
    Public Law 110-181 enacted in January 2008 extended entitlement to 
    vocational rehabilitation services to members of the Armed Forces 
    with a serious injury or illness incurred in the line of duty that 
    may render the member medically unfit to perform his or her duties. 
    All servicemembers medically separated prior to the enactment of 
    this law are eligible to apply for a Department of Veterans Affairs 
    (VA) service-connected disability rating (or memorandum rating if 
    not yet discharged) in order to establish eligibility for 
    vocational rehabilitation.

  Recommendation 6.10: All service disabled veterans should have access 
        to vocational rehabilitation and employment counseling 
        services.
    All veterans with a VA service-connected disability rating (or 
    memorandum rating) are currently eligible to apply for vocational 
    rehabilitation and employment benefits and services under Title 38, 
    United States Code, Chapter 31. During the scheduled initial 
    evaluation and counseling process, veterans are found either 
    entitled or not entitled to Chapter 31 benefits. Counseling is 
    provided to assist veterans in identifying vocational goals.

  Recommendation 6.11: All applicants for Individual Unemployability 
        should be screened for employability by vocational 
        rehabilitation and employment counselors.
    VA has formed a work group to explore ways to integrate VR&E 
    counselors in the individual unemployability (IU) evaluation 
    process.

  Recommendation 6.12: The administration of the Vocational 
        Rehabilitation and Employment Program should be enhanced by 
        increased staffing and resources, tracking employment success 
        beyond 60 days, and conducting satisfaction surveys of 
        participants and employers.
    VR&E program staffing has been increased and is now above the level 
    recommended by the VR&E task force. A counselor to veteran case 
    load ratio of 1 to 125 was recommended; our current ratio is 1 to 
    120.
    VR&E is developing methods to track employment success for at least 
    12 months. This will include coordination with the Department of 
    Labor's (DOL) Veterans Employment and Training Service (VETS) to 
    track employment retention and wages following entry into suitable 
    employment. This tracking will also include direct follow-up with 
    veterans to assess needs and address barriers to success.
    VR&E is resuming satisfaction surveys of participants and 
    employers.

  Recommendation 6.13: VA should explore incentives that would 
        encourage disabled veterans to complete their rehabilitation 
        plan.
    VA has advanced a legislative proposal that includes the 
    authorization of incentives to encourage the completion of 
    rehabilitation plans. This proposal was developed in response to 
    the recommendations of the President's Commission on Care of 
    America's Wounded Warriors.

    Question 2. The former Chair of the task force will testify that 
even with VA's efforts to implement their many recommendations, VR&E 
outcomes are not much different than they were five years ago. The 
primary approach taken by VR&E still seems to first promote a process 
of education and when completed, to address employment options. She 
asks the question, which I pass along to you: ``Do we have the best 
model for achieving vocational rehabilitation and successful employment 
for disabled veterans in the 21st Century?"

    Response. Yes. The Five-Track Employment Process enables veterans 
to make informed choices through one of four employment options, 
including reemployment with a previous employer, rapid access to 
employment through job-readiness preparation and incidental training 
opportunities, self-employment for those who wish to own their own 
businesses, and employment through long-term services that include 
formal training and education programs leading to a suitable employment 
goal. Veterans who are participating in employment through long-term 
services require retraining to obtain suitable employment. Many of the 
veterans in the Chapter 31 program have skills that are outdated or are 
not compatible with or competitive in today's labor market. In today's 
knowledge-based economy, most occupations require a degree for hire 
into entry-level positions. VR&E's goal is to assist these veterans in 
obtaining suitable employment that is consistent with their interests, 
aptitudes and abilities.

    Question 3. To the extent that the current disability schedule is 
based on an average loss of earnings capacity, a question arises as to 
whether an individual who completes a program of vocational 
rehabilitation has had the capacity at least partially restored, and 
whether, therefore, the level of compensation should be re-evaluated. 
Do you believe that an individual who completes a program of vocational 
rehabilitation should have their level of compensation reviewed to 
account for any earnings capacity that has been restored?

    Response. The VA rating schedule is designed to compensate for 
average earnings loss and specifically to not penalize those who pursue 
rehabilitation to mitigate or overcome their disabilities. As 
recommended by the President's Commission on Care of America's 
Returning Wounded Warriors, VA has contracted for a study to provide 
information on the appropriate levels of compensation necessary to 
compensate for any loss in earnings capacity caused by service-incurred 
or service-aggravated conditions. The contract was awarded in January 
2008, and the contractor is scheduled to provide its findings in 
August. VA looks forward to being informed by the results of this 
study.

    Question 4. A program of vocational rehabilitation and employment 
must be viewed as a part of a much larger effort. Indeed, many suggest 
that offering vocational rehabilitation and employment counseling 
sooner in the rehabilitation process could be beneficial. From a 
medical care perspective, could you describe when it is most 
appropriate to begin discussion of vocational rehabilitation? Along 
those same lines, is an individual required to complete an application 
for the program before meeting with a VR&E counselor?

    Response. Research supports early intervention as the key to 
successful vocational rehabilitation and return to work. Some of the 
predictor variables for improved return to work include age, education, 
time of injury to referral, and mandated vocational rehabilitation. The 
VR&E program provides early intervention services by partnering with 
other health and rehabilitation professionals at VA polytrauma sites 
and military treatment facilities. VR&E counselors stationed within 
these locations provide early outreach to servicemembers and veterans. 
Through these early contacts, servicemembers are given hope and vision 
for future employment, which assists them in adjusting to their new 
disabilities. An individual is not required to submit an application 
prior to speaking with a VR&E counselor.

    Question 5. There are concerns that the VR&E program selects the 
most easily rehabilitated individuals, pays for their college education 
in full, and marks the file closed when the individual finds a job. 
This raises a question about whether that veteran was truly in need of 
rehabilitation in the first place. Did the veteran simply access the 
rich benefits available under Chapter 31 via his or her service-
connected disability? In the meantime, resources for more one-on-one 
guidance, counseling, and assistance are diluted. Could you comment on 
this concern?

    Response. A total of 8,252 veterans were rehabilitated in suitable 
employment during fiscal year (FY) 2007. Of these, 3,581 had a serious 
employment handicap. As this data reflects, nearly half of the veterans 
rehabilitated in suitable employment in FY 2007 had a serious 
employment handicap. VA guidance defines ``serious employment 
handicap'' as a significant impairment of a veteran's ability to 
prepare for, obtain, or retain employment consistent with such 
veteran's abilities, aptitudes, and interests. A large number of 
veterans with serious employment handicaps obtain suitable employment 
each year because of the counseling, one-on-one guidance, and training 
services provided through VR&E programs.

    Question 6. The 2004 Task Force made 110 recommendations for 
improvements in the VR&E program. It is my understanding that 89 of 
them have been implemented and another 12 are planned for 
implementation. I further understand that the eight remaining 
recommendations will not be implemented for various reasons. Could you 
please briefly describe the recommendations you have rejected and the 
reasons for deciding not to implement them?

    Response. The task force recommendations and reasons for not 
implementing them are addressed below.
  Recommendation P-1.2: Remove the limiting periods for use of Chapter 
        36 counseling benefits.
    Counseling services under Chapter 36 are currently available to all 
    servicemembers 6 months prior to separation from service and to 
    veterans for 1 year after separation. The service believes these 
    time frames provide adequate lead-time for a servicemember to 
    receive an evaluation and begin preparation for the transition to 
    civilian employment.
  Recommendation P-1.3: Establish a system to accelerate the delivery 
        of rehabilitation services to veterans in most critical need by 
        changing the definitions of U.S.C. 3101 and 3102.
    The task force recommended entitlement to VR&E services should be 
    based solely on the disability rating and the requirement to 
    establish an employment handicap be eliminated. VR&E service 
    believes that the determination of an employment handicap is an 
    important component of the VR&E program.
  Recommendation O-1.1: Provide the VR&E Service Director greater line-
        of-sight authority over VR&E field staff and operations, 
        resources and personnel evaluation, selection, assignment, and 
        promotion.
    Under the Veterans Benefit Administration (VBA) organizational 
    structure, the VR&E service director provides input and advice to 
    the Office of Field Operations, which has responsibility for 
    managing the day-to-day operations of the regional offices (RO). 
    This structure holds RO and area directors accountable for on-site 
    management and communications/coordination with stakeholders within 
    their jurisdiction. This structure also allows VR&E to focus on 
    national policy and procedures; quality assurance, including 
    oversight of benefits delivery; new initiatives; and enhancements 
    to training programs and support systems.
  Recommendation WP-3.2: Provide RO VR&E staffs maximum flexibility to 
        specialize their staff resources.
    Allowing maximum flexibility is contrary to efforts to improve the 
    quality and consistency of benefits delivery nationwide. VR&E 
    service believes that standardization and consistency in 
    organization, policy, and procedures are fundamental to the 
    provision of high quality services to veterans.
  Recommendation IC-2.3: Change the current methods used to measure 
        VR&E claim timeliness so that the ``timeliness clock'' starts 
        when the VR&E Division gets the Form 1900 application and a 
        service-connected disability rating from the Veterans Service 
        Center.
    Performance measures that direct attention and resources to 
    providing quality rehabilitation services to disabled veterans have 
    been developed. It is important that timeliness be tracked from the 
    date of application to VA to expedite services for veterans.
  Recommendation IC-2.5: Implement a new C&P performance measure for 
        veterans' service center memo rating timeliness; incorporate 
        this measure in the performance evaluation criteria for Service 
        Center managers.
    VR&E officers and service center managers have established strong 
    working relationships. This has resulted in expedited memo ratings, 
    shared information on veterans with service-connected disabilities, 
    and coordination of services and benefits for Operation Enduring 
    Freedom/Operation Iraqi Freedom (OEF/OIF) severely injured 
    veterans. We do not believe that a performance standard is required 
    at this time.
  Recommendation IC-4.2: Hire a systems integration contractor to 
        provide sustaining support to the VR&E Service for process and 
        requirements analysis, technology assessments and 
        recommendations, assistive technology consultation and project 
        management.
    The Assistant Director for Project and Program Management and the 
    enhanced program management staff meet this need.
  Recommendation IC-4.5: Provide VR&E Service contractors training on 
        the use of WINRS and access to WINRS for data entry and 
        reports.
    Enhancements to CWINRS are required to meet current security 
    standards for contractor access to the system. As VR&E moves toward 
    a web-enabled environment in the future, the necessary changes will 
    be incorporated.

    Question 7. In response to many recommendations and findings 
relating to lack of information and data on those who discontinue 
participation in the program, it is my understanding that VA is 
currently conducting a survey which is scheduled for completion in 
September. Could you please give the Committee a brief overview of this 
survey and how you believe it will give you a better understanding as 
to why individuals discontinue participation in the VR&E program?

    Response. The veterans employability research survey (VERS) is 
designed to determine why veterans discontinue their VR&E programs at 
various points. Results will be used to develop procedures to improve 
program retention and rate of completion.
    The target population for VERS consists of five cohort groups of 
5,000 veterans as listed below:

    <bullet> Veterans who applied to the VR&E program, were found to be 
eligible, but did not show up for an initial appointment.
    <bullet> Veterans who had to temporarily interrupt the evaluation 
and planning phase of the VR&E program, and dropped out rather than 
returning to the program.
    <bullet> Veterans who continued into the evaluation and planning 
phase of the VR&E program, but dropped out before a plan was developed.
    <bullet> Veterans who completed the evaluation and planning phase 
of the VR&E program, began a plan of rehabilitation, but dropped out or 
were otherwise discontinued from the program.
    <bullet> A control group of veterans who successfully completed the 
VR&E program.

    Question 8. A December VA Inspector General (IG) Report found that 
performance reporting for the Chapter 31 program needed improvement 
because the methods used to determine program performance did not 
accurately reflect the number of participants. For example in FY 2006, 
VA reported a rehabilitation rate of 73 percent by excluding veterans 
who participated in the Chapter 31 program but who discontinued 
participation and failed to complete a rehabilitation plan. When those 
veterans are taken into account, the rehabilitation rate drops to a 
dismal 18 percent. Do you concur with the IG's findings and, if not, 
why?

    Response. The Inspector General (IG) report noted the confusing 
wording in the rehabilitation rate calculation. Both the IG and VBA 
agreed that the definition published for the rehabilitation rate was 
unclear. VBA agreed to expand the definition/methodology for the 
calculation of the rehabilitation rate to fully explain the procedures 
and formula used in capturing this data. VBA and IG consider this 
recommendation corrected and closed.
    The current rehabilitation rate is based upon those veterans who 
have participated in a program of rehabilitation services leading to 
employment or independent living goals. The rate is derived by dividing 
the number of veterans who exit from a plan of services after 
accomplishing their rehabilitation goals by the total of all those who 
left the program (including those who did not meet the goals outlined 
in their rehabilitation plans). We do not believe it appropriate to 
compare successful rehabilitations to the total of all current 
participants, as such a measure would re-count participants from one 
fiscal year to the next--include veterans who choose not to pursue a 
VR&E rehabilitation program--as unsuccessful, and count veterans in the 
midst of the counseling, entitlement, and rehabilitation phases as 
``unsuccessful.'' By measuring the rehabilitation rate based only upon 
those veterans exiting the program after involvement in a 
rehabilitation plan developed to assist them to achieve employment or 
independent living goals, an accurate picture of success is obtained.

    Question 9. The IG echoed another of my deep concerns that the 
annual cap of 2,500 on the number of new participants in the 
Independent Living Services program may limit VA's ability to provide 
such services to very seriously disabled veterans in need of help. This 
is important in terms of returning OEF/OIF veterans who have sustained 
debilitating injuries in battle and who need timely services. Do you 
believe that the time has come to eliminate this cap?

    Response. In a recent survey of field staff, it was found that the 
legislative cap did not impede the ability of VR&E counselors to 
provide independent living services to veterans with severe 
disabilities.

    Question 10. An Independent Living Services program would, by its 
nature, seem to involve a great deal of medical rehabilitation. Could 
you discuss how VBA and VHA coordinate efforts when it comes to dealing 
with the needs of an individual receiving Independent Living Services?
    Response. VR&E counselors work with the Veterans Health 
Administration (VHA) staff both during the evaluation of independent 
living needs and when an independent living plan of services is 
developed. During the evaluation process, counselors examine reports of 
medical treatment; may request assessments by specialized VHA medical 
staff such as neuropsychologists, occupational therapists, or physical 
therapists; and consult with medical providers to determine how 
potential VR&E services may facilitate, enhance, and support other 
treatment goals. The recommendations of the primary care provider are 
considered when determining the services included in an individualized 
independent living plan. Also, ongoing feedback from VHA providers is 
used to determine the success of independent living goals and 
substantiate the achievement of independent living objectives.

    Question 11. How do you handle this case: a veteran with an 
employment handicap applies for a program and it is determined that 
reemployment with a previous employer is an option. The veteran, 
however, wants to pursue a program of higher education leading, for 
example, to a law degree. Is that veteran permitted to pursue that goal 
using Chapter 31 benefits?

    Response. The decision to support a veteran's reemployment with a 
prior employer must also be categorized as a suitable vocational 
rehabilitation goal to be pursued by a veteran and sponsored by VR&E. 
The four sub-elements of ``suitability'' must be addressed to determine 
if a specific vocational goal is appropriate for consideration in the 
vocational rehabilitation process:

    <bullet> Is the vocational goal consistent with the veteran's 
interests, aptitudes and abilities;
    <bullet> Does the intended goal aggravate the veteran's 
disabilities;
    <bullet> Will the vocational goal be stable and continuing;
    <bullet> Does achievement of the vocational goal require reasonably 
developed skills.

    Instructions have been published reminding VR&E field staff that a 
veteran's stated interest alone should never be the sole factor 
considered in establishing a vocational goal. As such, a veteran's 
unsubstantiated desire to pursue a law degree would represent an 
incomplete and insufficient basis upon which to select and develop this 
as a vocational rehabilitation goal.

    Question 12. There has never been any kind of long-term study of 
the VR&E program. We do not have data on the number of veterans who 
fail to complete the program and the reasons for those failures. We do 
not have data on the long-term success of individuals who complete a 
program. It is, therefore, extremely difficult to draw any firm 
conclusions about the success of the overall program. This is an area 
in which additional research and resources could be helpful. What 
efforts is VA taking to explore such an evaluation?

    Response. VR&E is contracting for an outcome-based assessment of 
the VR&E program. It is anticipated that this study will identify 
factors that contribute to the success of veterans receiving VR&E 
services and help identify barriers that affect retention. The Veterans 
Employability Research Survey (VERS) will also assist VR&E in 
developing strategies to improve retention and success rates.

    Question 13. It has been recommended that individuals who are 
filing for compensation on the basis of Individual Unemployability be 
screened by VR&E. Do you have any thoughts on this proposal and what 
would be involved in terms of increased staffing and resources if this 
were to be implemented?

    Response. The Veterans Benefit Commission has recommended that the 
IU claims decision process include vocational evaluation by VR&E 
counselors. To further study this recommendation, VA has formed a work 
group to explore ways to integrate VR&E vocational rehabilitation 
counselors into the IU process.

    Question 14. The 2004 Task Force noted that the service-connected 
diagnosis that was most prominent in the Independent Living population 
was Post Traumatic Stress Disorder. Please describe the type of 
independent living services that might be appropriately provided to an 
individual with this diagnosis.

    Response. An individualized independent living plan developed with 
a veteran with Post Traumatic Stress Disorder (PTSD) may include 
several objectives and services. For example, to improve socialization, 
a counselor may coordinate a volunteer placement in the community or 
with a service organization. To improve medication compliance, 
assistive devices such as a medication reminder may be purchased for 
the veteran. To improve coping skills and effective ways of managing 
the manifestations of this disability, the counselor may coordinate 
with VHA to provide psychotherapy and monitor the veteran's attendance 
at these sessions. When appropriate and necessary to facilitate the 
achievement of rehabilitation goals, the veteran's family may be 
provided therapy of short duration. Family participation in a support 
group for relatives or friends of individuals with PTSD may also be 
encouraged.

    Question 15. One of the concerns identified by the task force was 
that the relationship between the VR&E program and the Veterans Health 
Administration be strengthened to include a ``team approach.'' 
Specifically, in the area of Independent Living Services, the task 
force recommended that VHA and VR&E initiate projects to formalize and 
standardize the processes and administration for improved delivery of 
services to veterans. Please provide an update on efforts in this area.

    Response. VR&E employees work collaboratively with VHA staff to 
provide needed prosthetic devices, home improvements and structural 
alterations, and other therapeutic services to veterans who are 
receiving independent living services. Under the home improvements and 
structural alterations (HISA) program, disabled veterans may receive 
assistance for home improvements necessary for the continuation of 
treatment or for access to the home, lavatory, or sanitary facilities. 
The VR&E case manager refers veterans who are in need of these services 
to VHA, and then works with VHA staff and the veteran to ensure that 
required services are provided and the veteran's needs have been met.

    Question 16. The task force also made recommendations focusing on 
the integration of VR&E with State Vocational Rehabilitation Services 
and others within the wider world of vocational rehabilitation. What 
specific initiatives have been made in this area and what is planned 
for the future?

    Response. A memorandum of understanding (MOU) was developed to 
expand and improve employment opportunities for disabled veterans. The 
MOU was signed by the Director of VR&E service and the President of the 
Council of State Administrators of Vocational Rehabilitation (CSAVR). 
VR&E and CSAVR committed to coordinating and implementing quality 
services for disabled veterans. It was agreed that State rehabilitation 
offices and VA regional offices would be encouraged to establish 
cooperative agreements to provide services to veterans identified as 
common clients.
    Sharing costs, exchanging information, coordinating activities, 
assisting with carrying out services, and supporting objectives are 
specific examples of what is occurring at the local level between VR&E 
offices and State offices.
    VR&E and the Rehabilitation Services Administration are working 
collaboratively to study ways to further enhance partnerships and 
effective collaboration. These topics will be discussed in a 
Rehabilitation Services Administration panel at the upcoming VR&E 
Leadership Conference.

    Question 17. With the current conflicts in Iraq and Afghanistan, a 
younger generation of veterans is potentially going to be re-entering 
the workforce. What can be done to improve the outreach to these 
younger veterans, so that they are aware that the VR&E programs exist 
as benefits to them?

    Response. Early intervention is the key. Federal recovery 
coordinators, disabled transition assistance program (DTAP) 
representatives and VR&E liaisons are readily available and coordinate 
services designed to meet the needs of these veterans and their 
families. The Coming Home to Work program also provides early 
intervention assistance. These programs help servicemembers transition 
from military to civilian life by providing tools and support to 
acclimate to the world of work, develop confidence, make sound career 
decisions, and re-enter the workforce.

    Question 18. In testimony submitted by Easter Seals, they raise a 
number of concerns and instances where they believe VA is not utilizing 
invaluable resources and experiences of community-based organizations 
to respond not only to the growing needs of returning servicemembers 
but also to those who may not have easy access to VA medical 
facilities. Please comment on this, especially in the context of their 
Veterans with Traumatic Brain Injury Project?

    Response. Our VR&E offices partner with community service providers 
in the provision of evaluation, assessment, rehabilitation planning, 
and placement services for eligible VR&E participants. Many community-
based assistance programs located close to veterans' residences are 
used to provide valuable services to veterans and their families. For 
example, if a veteran with Traumatic Brain Injury needs community-based 
services as a part of his/her overall VR&E rehabilitation program, the 
Easter Seals organization can be used to meet this need through its 
cognitive rehabilitation program that includes supportive services both 
to participants and their families. Working within our established 
contracting parameters and procurement regulations, VR&E field offices 
contract with organizations such as Easter Seals to meet these 
specialized needs.

    Question 19. Easter Seals also raises concerns related to VA's 
National Acquisition Strategy (NAS). For the record, please respond to 
the issues raised by Mr. Carmon about the structure of the application 
and the delays that have been encountered. Please also respond to his 
comments about the requirement that applicants were to respond only if 
they could provide a broad range of vocationally-related services 
across a large geographic area and the implications of that for 
veterans in geographically remote areas and on the Easter Seals 
affiliates that had previously been able to work with VR&E locally as 
in the past.

    Response. Based on recommendations from VA's IG, the Government 
Accountability Office, and the VR&E task force, we are reducing the 
number of contracts nationwide to address challenges in administration, 
costs, and efficiencies in managing our contract providers. The new 
national acquisition strategy (NAS) uses a nationwide ``sub-area'' 
approach, providing VR&E services in 26 sub-areas.
    VA conducted a pre-proposal conference in July 2007 for potential 
offerors. This conference, held in Washington DC, was announced on the 
Federal Business Opportunities Web site concurrently with the 
solicitation for NAS services. All interested parties were invited to 
attend. Over 150 potential offerors attended this conference. A joint 
venture workshop was held at this conference, hosted by VA's Office of 
Small and Disadvantaged Business Utilization, which covered sub-
contracting opportunities and methodologies for smaller companies to 
enter into joint ventures to meet the requirements of the NAS 
solicitation for one or more sub-areas.

    Question 20. What efforts has VA made to make veterans aware of the 
``job resource labs''?

    Response. Field offices provide written materials highlighting the 
availability of the job labs, not only to Chapter 31 participants, but 
to all veterans. Our rehabilitation counselors and employment 
coordinators provide information about the job labs during initial 
orientation and when veterans begin their job search. The public 
contact and outreach employees at each RO also advise veterans of the 
availability of the job lab resources when they conduct outreach and 
transition assistance briefings. Additionally, DOL employment 
representatives throughout the country, who work together with VA staff 
in assisting veterans find suitable employment, actively promote the 
job labs to the veterans they are serving. VR&E offices provide trained 
support staff to assist veterans in using the computer and other tools 
to search for employment opportunities.

    Question 21. How would you personally rate the success of the Five-
Track Employment Process?

    Response. The Five-Track Employment Process rates high marks. 
Veterans and servicemembers become empowered through understanding all 
the possible employment options available. The Five-Track Employment 
Process integrates veterans, counselors, and employment professionals 
through the evaluation and places greater emphasis on employment 
options early in the rehabilitation process. We continue to work to 
enhance the delivery of employment options within the Five-Track 
Employment Process through expansion of internship opportunities and 
non-paid work experience and development of employment partners.

    Question 22. While I can certainly see the need for VA to provide 
services and programs that enhance job readiness, I can also see the 
need to avoid duplication of the Department of Labor's Veterans' 
Employment and Training Service--specifically in terms of offering job 
referral and placement services. To what extent do you believe 
duplication is occurring?

    Response. We continue to partner with DOL's VETS program to assist 
veterans in achieving their employment goals. As recommended by the 
2004 task force, VR&E and DOL entered into a MOU in 2005 and moved 
forward to establish a joint work group to standardize procedures, 
develop joint reporting and performance methods, and implement a 
national model for enhanced collaboration. At the end of January 2008, 
a joint demonstration project was launched in eight offices to move 
forward with implementation of the joint work group recommendations.
    Working together, the VR&E program and DOL's VETS program provide 
services to veterans with disabilities that enhance job-readiness 
skills and offer job referral and placement services. The employment 
coordinators within VR&E work closely with DOL's disabled veterans 
outreach program specialists and local veterans' employment 
representatives in this endeavor. Services provided by VR&E and the DOL 
VETS program provide a collaborative team approach to assisting 
veterans in achieving employment goals.

    Question 23. You note in your testimony that benefits and services 
provided under the VR&E program relating to housing may include 
adaptations that VA is unable to provide under the Home Improvements 
and Structural Alterations or the Specially Adapted Housing grant 
programs. Could you please supply a specific example of such a benefit 
or service?

    Response. Home modification needs are addressed by the home 
improvements and structural alterations or specially adapted housing 
grant program. Working collaboratively with these programs, VR&E 
counselors provide supportive services related to veterans' individual 
independent living needs. For example, VR&E may provide a home 
communications system that enables a veteran with mobility impairments 
to open doors, operate equipment, and communicate with visitors via the 
use of electronic adaptive equipment.

    Question 24. Are functional capacity evaluations (FCEs) conducted 
for each individual who is determined to be eligible for the VR&E 
program and, if not, how is a determination made as to who receives 
such an evaluation? Are there instances where multiple FCEs are 
conducted, for example, for a veteran participating in the independent 
living program or a servicemember receiving medical rehabilitation 
services?

    Response. Functional capacity evaluations (FCE) are useful tools 
during the vocational evaluation and case management phases. A FCE may 
be required when: injuries impact employment opportunities, medical 
contradictions exist, functional abilities and limitations need to be 
identified, or an individual's goals appear to be unrealistic. FCEs 
assist our rehabilitation counselors in determining an applicant's 
rehabilitation potential, ability to transition into the workforce, 
level of functioning, level of independence, vocational needs, and 
independent living needs. A veteran may benefit from an additional FCE 
if his/her disability worsens. The need for an FCE is determined on a 
case-by-case basis by a qualified vocational rehabilitation counselor. 
Veterans receiving services to achieve the maximum in independence of 
daily living will not require an FCE, but may benefit from an in-home 
assessment to determine the possible need for home modifications. A 
servicemember actively receiving medical treatment may provide medical 
documentation from his/her doctor, listing employment limitations in 
lieu of a FCE. Vocational rehabilitation counselors are trained to 
understand the vocational implications of disabilities and to evaluate 
medical records. Based on this training, they are equipped to evaluate 
when FCEs are necessary in the rehabilitation process and when adequate 
data is available to proceed without burdening the veteran with 
unnecessary medical testing.

    Question 25. There appears to be increasing concern that the amount 
of information given to servicemembers through the Transition 
Assistance (TAP) and, especially, the Disabled Transition Assistance 
Program (DTAP) is often overwhelming and difficult to process given the 
challenges and changes involved with leaving the military. Has any 
thought been given to offering a ``refresher'' DTAP briefing--for 
example, 30 or 60 days after the individual is discharged?

    Response. All DTAP attendees receive a CD and Quickbook which 
explain and describe all potential VR&E benefits. We will examine 
whether an additional refresher DTAP presentation would be beneficial.

    Question 26. You noted that the new ``Federal Recovery 
Coordinators'' will provide seriously injured veterans or 
servicemembers with the ``opportunity'' to consult a VR&E counselor. 
Why would this consultation not be ``required''?

    Response. VR&E counselors will work closely with the federal 
recovery coordinators (FRC) to provide outreach to seriously injured 
servicemembers and veterans and encourage them to apply and pursue VR&E 
services. VR&E counselors will personally coordinate with the FRCs to 
determine when outreach should be conducted to deliver the right 
service at the right time.

    Question 27. You have indicated that the Coming Home to Work (CHTW) 
program has now been expanded to all VR&E field offices. How has that 
changed participation and workload for VA?

    Response. The CHTW program started as a pilot program at eight 
military treatment facilities served by seven regional offices: San 
Diego, Seattle, Denver, Houston, Waco, Atlanta, and Washington, DC. The 
primary focus of CHTW pilot was providing non-paid work experiences to 
servicemembers who were pending medical discharge at military treatment 
facilities. In February 2008, we expanded the CHTW program to all field 
offices. The scope and mission of the CHTW program have broadened to 
provide comprehensive outreach, early intervention, and vocational 
rehabilitation services in addition to non-paid work experiences. Four 
additional full-time CHTW coordinators will assist the field in 
providing early intervention and outreach services. These four new 
coordinators will be based Honolulu, Oakland, Montgomery, and Roanoke. 
All regional offices have designated a vocational rehabilitation 
counselor to coordinate the CHTW program for their office. We will 
continue closely monitor and assess the program to determine the affect 
of the CHTW program on veteran participation and workload.

    Question 28. With respect to the recommendations of the Dole-
Shalala Commission, you note that ``legislation would be required to 
remove the requirement that the servicemember must be rated as having a 
service-connected disability to establish VR&E eligibility.'' Can you 
give an example of an individual who is medically separated who does 
not later establish a service-connected disability?

    Response. Veterans who are medically separated and choose not to 
apply for VA disability compensation benefits are not eligible for the 
VR&E program.

    Question 29. I am not aware of the specifics of the proposal that 
VA has advanced for an incentive model that would promote vocational 
rehabilitation. Could you provide more detail for the record?

    Response. VA developed a legislative proposal in support of the 
recommendations of the President's Commission on Care of America's 
Returning Wounded Warriors that includes incentive payments to promote 
the completion of vocational rehabilitation programs. Incentives would 
be paid to veterans at agreed upon milestones marking progress toward 
the completion of their rehabilitation program.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Richard Burr to VA

    Question 1(a). In 2004, the VA Vocational Rehabilitation and 
Employment Task Force made over 100 recommendations on how to improve 
VA's VR&E program. For each of these recommendations, would you please 
rate on a scale from 1 to 10 the extent to which the recommendation has 
been implemented (with 10 indicating that they have been fully 
implemented)?

    Response. The VR&E program has completed 90 recommendations and 
would rank all of them 10, the 8 recommendations not planned to be 
implemented are ranked 0, and the remaining 12 recommendations are 
ranked as indicated on the attached document. (See Table 1.)

    Question 1(b). For those recommendations that are not yet fully 
implemented, would you please provide a brief description of the status 
of the recommendation?

    Response. The attached document includes a worksheet on 
recommendations in progress which identifies the current status of each 
recommendation. (See Table 1.)

    Question 1(c). For the recommendations that have been fully or 
partially implemented, what impact have the changes had on the outcomes 
for veterans? For example, has there been an increase in the number or 
percentage of veterans rehabilitated each year?

    Response. The majority of the task force recommendations were 
related to the development of an updated rehabilitation model, the 
Five-Track Employment Process model. This model has received high marks 
for successfully delivering a standardized message to all program 
participants embarking on service within the VR&E program. Because the 
recommendations that have been partially or fully implemented are 
intertwined and implemented during the same or similar timeframes, we 
are unable to attribute changes in program outcomes such as 
``successful rehabilitations'' to individual recommendations. However, 
since 2004, the rehabilitation rate has increased from 65 percent to 73 
percent. The rehabilitation calculation was also modified to account 
for veterans who achieved ``maximum rehabilitation gain'' as a result 
of program participation. Program changes include increased focus on 
veteran choice, comprehensive orientation about program tracks, 
increased collaboration with DOL VETS and employers, training, and 
increased emphasis on services to enhance job readiness and employment.

    Question 2(a). At the hearing, Hon. Dorcas Hardy testified that 
``it is not yet clear that the focus of the program has dramatically 
changed to career development and employment'' and that ``most of the 
participants in the VR&E program are still in some kind of formal 
training, e.g., higher education.'' Since the Five-Track Employment 
Process was rolled out nationally, what percent of program participants 
have opted to participate in each of the five tracks?

    Response. 16,284 veterans have entered a program track since 2007 
(when data collection techniques were implemented). Of those entering 
job tracks, 8.3 percent entered the independent living track, 84.3 
percent entered the employment through long-term services track, 5.1 
percent entered the rapid access track, 1.7 percent entered the 
reemployment track, and .5 percent entered the self-employment track.

    Question 2(b). What is the average length of time spent in the 
program for veterans entering each track and what are the 
rehabilitation rates for veterans in each track?

    Response. We do not yet have data-tracking systems in place to 
report average time in each program track or to compute rehabilitation 
rates for only the subgroup of veterans entered into a program track 
since 2007, when data collection techniques were implemented.

    Question 2(c). Currently, what percent of VR&E participants are 
enrolled in an undergraduate program of education and what percent of 
VR&E participants were enrolled in undergraduate programs over the past 
five years?

    Response. At the end of FY 2007, 74 percent of VR&E participants in 
planned services were enrolled in undergraduate programs. In FY 2005 
and 2006, 76 percent were enrolled in undergraduate programs. In FY 
2003 and 2004, 77 percent were enrolled in undergraduate programs.

    Question 3(a). Ms. Hardy also testified that VR&E has executed a 
national agreement between VA and the Council of State Administrators 
of Vocational Rehabilitation, but that ``to be successful, each State 
Agency needs to tailor its own Agreement with VR&E in order to work 
together to fill the service delivery gaps that one or the other 
program encounters when working with the same veteran.'' Would you 
please describe any collaborative efforts that are underway with State 
Vocational Rehabilitation agencies at a local level?

    Response. A MOU was developed to expand and improve employment 
opportunities for disabled veterans. The MOU was signed by the Director 
of VR&E Service and the President of the Council of State 
Administrators of Vocational Rehabilitation (CSAVR). VR&E and CSAVR 
committed to coordinating and implementing quality services for 
disabled veterans. It was agreed that State rehabilitation offices and 
VA regional offices would be encouraged to establish cooperative 
agreements to provide services to veterans identified as common 
clients.
    Sharing costs, exchanging information, coordinating activities, 
assisting with carrying out services, and supporting objectives are 
specific examples of what is occurring at the local level between VR&E 
offices and State offices.
    VR&E and the Rehabilitation Services Administration are working to 
further enhance partnerships and effective collaboration. This topic 
will be discussed in a Rehabilitation Services Administration panel at 
the upcoming VR&E Leadership Conference.

    Question 3(b). What steps, if any, does VR&E plan to take to expand 
its efforts to work with State Vocational Rehabilitation agencies?

    Response. We will continue to foster working relationships with 
State offices across the country to increase employment opportunities. 
In January and February of this year, VR&E staff members were in 
contact with the Director of Business Relations for CSAVR, and we plan 
to continue to actively work with CSAVR. VR&E will attend the CSAVR 
spring conferences in Alexandria, VA and Bethesda, MD. The conferences 
will feature VR&E's partnership with CSAVR and will provide the 
opportunity to speak about VR&E's program to a wide audience of 
potential partners.

    Question 4(a). Regarding the self-employment track of the Five-
Track Employment Process, Ms. Hardy testified that ``promotion of self-
employment continues to be a challenge for VR&E'' and that ``there are 
several successful private firms that could be of assistance to VR&E 
employment coordinators.'' Would you please describe current policies 
or practices guiding when self-employment may be an option for a VR&E 
program participant?

    Response. Veterans found eligible for the VR&E program attend a 
group orientation which explains all VR&E services potentially 
available, including self-employment. Each veteran participates with a 
vocational rehabilitation counselor in a comprehensive evaluation of 
his/her interests, aptitudes, abilities, work history, and medical 
situation. If it is determined that self-employment is potentially a 
viable vocational goal, the veteran is assisted by his/her counselor in 
developing a business plan.
    Veterans are frequently referred to small business development 
centers in their local area, where one-on-one assistance with writing a 
business plan is available. Additionally, VA's Center for Veterans 
Enterprise (CVE) in Washington, DC, has intergovernmental affairs 
officers available to personally assist veterans with their specific 
questions. CVE also has a Web site (www.vetbiz.gov) with a plethora of 
information about starting a business.
    VR&E has a number of counselors and employment services staff 
members in headquarters who work directly with counselors and veterans 
in the field. Business plans are reviewed, recommendations made, and 
referrals to local agencies for additional assistance are offered to 
veterans across the country. VR&E personnel work closely with CVE for 
expert advice and assistance with business plan reviews.

    Question 4(b). Would you please describe any efforts to coordinate 
with other public and private organizations to promote self-employment 
where appropriate?

    Response. VR&E works directly with the CVE and the Small Business 
Administration. Both organizations assist VR&E participants expressing 
an interest in self-employment with the development of a viable 
business plan. Information about VR&E's self-employment program is 
provided in printed form as part of the Quickbook series to all 
separating servicemembers attending DTAP briefings. Self-employment 
information is also provided in video format to all VR&E applicants 
during the orientation process. Veterans and servicemembers with 
Internet access can learn about the self-employment process at 
www.vetsuccess.gov.

    Question 5(a). Last year, the Government Accountability Office 
(GAO) issued a report on disabled veterans' employment, containing the 
following findings:

    Officials in some states we visited raised concerns about the 
ability of employment programs--including the Five-Track Program--to 
address the needs of severely disabled program participants returning 
from recent conflicts in Afghanistan and Iraq. According to VA 
officials, many recently returning veterans have multiple and severe 
disabilities, such as speech, hearing, and visual impairments as well 
as loss of limbs and brain injuries, and behavioral issues due to the 
stress of combat. Additionally, veterans from recent conflicts are 
surviving with more of these serious injuries that would have been 
fatal in past conflicts, a fact that can present major challenges to 
providing training and securing appropriate job placements. What 
specific steps have been taken by VR&E to address the needs of this 
population of severely disabled veterans and what additional steps 
should be taken to ensure that their needs are met?

    Response. VR&E has established collaborative relationships with VA 
Polytrauma Rehabilitation Centers (PRCs) and the Spinal Cord Injury 
service. When appropriate, an initial evaluation, extended evaluation, 
and rehabilitation or independent-living services are provided while 
the veteran or servicemember is in the PRC. The vocational 
rehabilitation counselor is included in the regularly scheduled case 
reviews for each PRC patient and in polytrauma patient discharge 
planning. Because of the longer recovery periods for severely disabled 
servicemembers and veterans, VR&E revised the policy on extended 
evaluation plans to enable counselors to develop an initial plan of 
services for 18 months (previously limited to 12 months).
    VR&E provides regular training to update and increase the knowledge 
of VR&E field staff. Recent training addressed the needs of OEF/OIF 
veterans with severe disabilities, including topics such as Traumatic 
Brain Injury (TBI), blast injury, cognitive assistive devices, and 
independent living. Training on amputation was held in March. To 
improve the quality of rehabilitation planning for veterans with TBI, 
VR&E initiated a project to provide 10 vocational rehabilitation 
counselors with graduate certificate training in brain injury from 
George Washington University. Those selected for this training will 
serve as subject matter experts for other VR&E staff members.
    Guidance has been provided on the use of independent living 
services to meet the needs of veterans for whom achievement of a 
vocational goal is currently not reasonably feasible. These services 
may be a precursor to employment after independent living needs are 
addressed and medical stabilization is achieved.
    VR&E is monitoring the expansion of VHA's supported-employment 
program for disabled veterans, the compensated work therapy (CWT) 
program. The CWT program has proven highly effective for veterans with 
mental illness, and a current pilot program is being conducted for 
veterans with TBI. Should this pilot yield positive results, VR&E 
counselors will use the CWT program for veterans with TBI.

    Question 5(b). How many veterans from the conflicts in Iraq and 
Afghanistan with these types of severe injuries have applied to 
participate in a VR&E rehabilitation program; how many were determined 
to be entitled to services; how many received services; and how many 
have been rehabilitated?

    Response. As of March 2008, there were 18,802 active OEF/OIF 
participants in the VR&E program, including 1,746 in applicant status. 
Current OEF/OIF participants include 980 veterans rated 100 percent 
disabled. OEF/OIF veterans who participated in the VR&E program and 
were rehabilitated total 1,881, including 65 veterans rated 100 percent 
disabled.

    Question 5(c). Does VR&E have counselors who specialize in handling 
cases involving veterans with these types of severe disabilities? If 
so, how many of these specialists are there currently and what areas of 
the country do they serve?

    Response. There are 732 counselors in the VR&E program nationwide, 
all of whom have the expertise and qualifications to address the needs 
of severely disabled veterans. Vocational rehabilitation counselors 
provide and coordinate a wide range of rehabilitation counseling and 
case management services for disabled veterans.

    Question 5(d). In providing a program of rehabilitation for these 
severely disabled veterans, to what extent does VR&E rely on services 
provided by other public and private providers, such as State 
Vocational Rehabilitation agencies?

    Response. VR&E counselors use all appropriate resources to 
facilitate the rehabilitation of veterans with severe injuries. These 
resources may include private for-profit and non-profit providers, 
contractors, VHA, and State vocational rehabilitation agencies.

    Question 6(a). At the hearing, a representative from Easter Seals 
testified that VA's National Acquisition Strategy has ``resulted in 
significant frustration for community-based organizations that want to 
be involved in providing the much needed services to veterans as they 
seek new employment, but are blocked by bureaucratic processes'' and 
that the prerequisite that entities must be able to provide ``a broad 
range of vocationally related services across a large geographic 
region'' has resulted ``in application criteria which very few entities 
could meet.'' Would you please provide an overview of the current 
policies that local offices must follow to obtain contract services?

    Response. The National Acquisition Strategy (NAS) supplements and 
complements services performed by VR&E professional staff. VR&E 
published and distributed guidance and instructions for the mandatory 
use of the NAS contracts to our VR&E field organization, which 
standardize procedures for obtaining contractor services. If a NAS 
contractor is not available to provide the required services, VR&E 
offices may obtain approval to contract locally for required services.

    Question 6(b). What impact are these policies having on the ability 
of local offices to provide the appropriate services to veterans 
participating in the VR&E program? Do current policies allow sufficient 
flexibility for local offices to take full advantage of community-based 
organizations?

    Response. These policies provide a standardized and streamlined 
method of acquiring VR&E services for veterans. The VR&E guidance 
mentioned above provides instructions on procuring services locally in 
the event the NAS contractors are unable to provide the required 
services. Community-based organizations have the opportunity to contact 
the NAS awardees to inquire about entering into sub-contracting 
arrangements to provide the vocational rehabilitation and employment 
services available through the NAS. They also may submit proposals to 
meet local contract requirements posted on the Federal Business 
Opportunities Web site (a mandate for requirements over $25,000) or 
publicly solicited via other communication media, i.e., e-mail or 
telephone.
                                Addendum
       Table 1.--Remaining 12 Recommendations and Their Rankings

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
       Response to Questions Arising During Hearing Addressed to 

          Ms. Ruth A. Fanning (VBA) and Ms. Kristin Day (VHA)
    Question 1. What is the biggest deficiency in the VR&E program?

    Response. Many improvements have been made to the VR&E program as a 
result of implementing the task force recommendations. One of the 
challenges VR&E faces is the lack of post-placement data for veterans 
beyond 60 days. To address this gap, VR&E is currently developing 
procedures to provide follow-up for up to 1 year. This additional 
follow-up will allow a provision of additional services when needed and 
will enhance data available to assess any additional program 
enhancements needed.

    Question 2. It has been recommended that individuals who are filing 
for compensation on the basis of Individual Unemployability be screened 
by VR&E. Do you have any thoughts on this proposal and what would be 
involved in terms of increasing staffing and resources if this were to 
be implemented?

    Response. The Compensation and Pension Service has formed a work 
group with VR&E Service to explore ways to increase the role of VR&E 
input into the IU evaluation process. If VA were required to implement 
screening and vocational assessment of IU applicants using VR&E staff, 
it is estimated that an additional 106 FTE would be needed. If VA 
managed these assessments through contract services, it is estimated 
that $19,000,000 in contract funding would be needed.

    Question 3. Research and report on how VR&E collaborates with 
Easter Seals and other community based organizations in assisting 
returning servicemembers, especially in the context of the Veterans 
with Traumatic Brain Injury Project.

    Response. Our VR&E offices partner with community service providers 
in the provision of evaluation, assessment, rehabilitation planning, 
and placement services for eligible VR&E participants. Many community-
based assistance programs located close to veterans' residences are 
used to provide valuable services to veterans and their families. For 
example, if a veteran with Traumatic Brain Injury needs community-based 
services as a part of his/her overall VR&E rehabilitation program, 
services of a public or private rehabilitation may be required. Working 
within our established contracting parameters and procurement 
regulations, VR&E field offices contact with organizations such as 
Easter Seals to meet such specialized needs.

    Chairman Akaka. Thank you very much, Ms. Fanning, for your 
statement.
    Knowing how busy Senator Tester is, let me ask Senator 
Tester to ask questions first and I will follow.
    Senator Tester. Mr. Chairman, you are too kind. Thank you 
very much. I don't know if I am any busier than you are; I just 
have a conflict here.
    I will go back to the question I had in my opening 
statement on the 2,500 cap. Can you give me any reason for it, 
and what your recommendations would be; if you think it is 
adequate; and if it is not adequate, where should it be?
    Ms. Fanning. Well, the Veterans Education and Benefits 
Expansion Act of 2001 increased the statutory cap from 500 to 
2,500 new IL cases per year. So the cap is statutory. We are 
monitoring that, and in fiscal year 2007 had approximately 
2,200 new cases developed during the year.
    Senator Tester. So you are at about 2,200 right now, is 
that what you said?
    Ms. Fanning. We had 2,200 new cases enter into independent 
living in fiscal year 2007.
    Senator Tester. Is that gross, or is that after they have 
been weeded out--the 2,200? Is that everybody who has applied?
    Ms. Fanning. That is everyone who entered into a new plan 
of independent living during the year.
    Senator Tester. So what you are telling me here today--and 
I don't want to put words in your mouth, you can disagree if 
you want-- but what you are saying is that cap is adequate?
    Ms. Fanning. I am saying that we have not approached that 
cap in the last two years, but we are monitoring closely to 
ensure that we stay within the cap because it is a statutory 
limit.
    Senator Tester. Okay. And your program--are you making 
projections, because things have changed a lot since 2001. They 
are going to change some from last fiscal year. Do you have the 
ability to make projections out two, three, four, five years 
from now? Because, if it is statutory, that means we need to 
change it if, in fact, we don't want to be behind the curve on 
it. So do you have those projections? Are you able to make 
those projections?
    Ms. Fanning. I am not able to make those projections at 
this time. I can tell you that we are monitoring closely. I 
know that we have about 700 cases in the process of being 
developed currently, so each month we are looking at what cases 
have been developed for the year and what is in progress to 
make sure that every seriously-injured veteran does receive 
those services as needed.
    Senator Tester. Okay. If you were going to do a self-
evaluation of the program as you see it, what is the biggest 
deficiency you have right now? [Pause.]
    When I was on the school board, we interviewed a basketball 
coach and he said the biggest deficiency he ever had is, he 
never had a big man. [Laughter.]
    So, you've got to have a deficiency in the program. Or, 
maybe you don't, but it would seem to me that logically there 
are some needs there. The whole idea--from my perspective on 
this Committee, because I deal with a lot of veterans in the 
State of Montana--is for us to help you do your job better. So, 
if there are things out there--I don't want to get you in 
trouble with your supervisor or wherever you are in the food 
chain--but just let me know. If you want to think about it, you 
can and come back in writing with it, if you want.
    Ms. Fanning. I will come back in writing with it. [This was 
addressed as Question 1 following the 2-page chart.] I can say 
that many improvements have been made to the program as a 
result of the task force recommendations. I think the biggest 
challenge we face right now is doing as much outreach as we can 
and increasing that even further so that we are bringing as 
many individuals into the program as possible.
    Senator Tester. Okay. Thank you very much, Mr. Chairman. I 
appreciate your flexibility.
    Chairman Akaka. Thank you very much, Senator Tester.
    Ms. Fanning, we have been concerned about some of the 
reports that we received about your mission. The Veterans 
Disability Benefits Commission stated, in no uncertain terms, 
that despite repeated efforts at reform throughout the years, 
VR&E is failing in its primary goal. So will you please respond 
to this basic finding and briefly address their recommendations 
aimed at evaluating the outcomes of VR&E?
    Ms. Fanning. VR&E rehabilitated over 11,000 veterans last 
year. As I mentioned, we are very much engaged in doing 
aggressive outreach to get as many veterans and servicemembers 
engaged in the program as possible. We have focused over the 
last three years, since the task force recommendations were 
released: to put in place the Five-Track Employment Process; to 
focus all of our counselors, as well as the veterans we serve, 
on employment as the primary outcome goal of our program. I 
think we have made tremendous progress in that arena.
    I am focused--and, as you know, I am new in my position--on 
taking an overall look at all of the recommendations that have 
been put in place, evaluating the effectiveness of those and 
how we can continue to make those improvements to help even 
more veterans become employed.
    Chairman Akaka. Now, this statement was made by the 
Veterans Disability Benefits Commission throughout the years, 
and at this point in time we are worried about the mission and 
with how close we are to accomplishing that, and would 
certainly like to see progress in that area.
    The former chief of the task force will testify that even 
with VA's efforts to implement their many recommendations, VR&E 
outcomes are not much different than they were five years ago. 
The primary approach taken by VR&E still seems to first promote 
a process of education, and when completed, address employment 
options. She asks the question, which I pass along to you, ``Do 
we have the best model for achieving vocational rehabilitation 
and successful employment for disabled veterans in the 21st 
century?''
    Ms. Fanning. As you noted in your opening remarks, we are 
in a knowledge-based economy, which has transitioned greatly 
over the last number of years. We are training veterans to 
enter careers, and just to give you some data: over 80 percent 
of those veterans who are rehabilitated are employed in career 
fields--professional, technical, and managerial fields. So, we 
are focused on making sure that our services equip veterans not 
only for a job that is transitional, but for a career that they 
can grow in and continue to excel in over the course of their 
own careers.
    Chairman Akaka. From what we gather, it appears that the 
present veterans or the latest veterans are concerned not only 
with reemployment, but also on the quality of life in the 
future, and that is becoming a little louder than before. So it 
is something that we need to bear in mind as we set up models 
of programs for them.
    It has been recommended, Ms. Fanning, that individuals who 
are filing for compensation on the basis of individual 
unemployability be screened by VR&E. Do you have any thoughts 
on this proposal, and what would be involved in terms of 
increased staffing and resources if this were to be 
implemented?
    Ms. Fanning. We are in the process of studying this 
proposal and I would like to take that question for the record 
so that I can go back and provide more detailed information. 
[which she has]
    Chairman Akaka. Well, many things will have to be 
reevaluated. The number of veterans who are returning from Iraq 
and Afghanistan and other areas is increasing. We are looking 
at the need for staffing as well as other programs.
    One of the concerns identified by the task force was that 
the relationship between the VR&E program and the Veterans 
Health Administration needs to be strengthened to stress a team 
approach, specifically in the area of independent living 
services. The task force recommended that VHA and VR&E initiate 
projects to formalize and standardize the processes and 
administration for improved delivery of services to veterans. 
Please provide an update on efforts in this area.
    Ms. Fanning. VR&E is working very closely with VHA, and as 
I noted in my opening remarks, with the CWT program; with the 
polytrauma programs; with the VIST program that serves veterans 
with visual impairments; and many others--prosthetics; HISA. We 
have a presence at VHA in order to conduct early intervention 
and early outreach to servicemembers during that medical 
treatment phase. We have partnered with VHA to do an extensive 
amount of training for our staff, and we have also provided 
training to VHA's staff, so that we are jointly aware of 
improvements and changes in our programs, so that we can 
provide a more collaborative approach to rehabilitation.
    Chairman Akaka. Ms. Day, please describe the type of 
independent living services that might be appropriately 
provided to an individual with this diagnosis.
    Ms. Day. Good morning, sir. Our Polytrauma Centers each 
have an independent living apartment on-site so that our 
servicemembers, as they move through the rehabilitation 
process, can actually practice at the center. Many SCI centers, 
many blind rehabilitation centers have these types of 
independent living facilities--apartments, if you will--on-
site, so that the individual can work closely with the team, 
identify barriers and challenges to independent living, and 
resolve those in place before they go out into the community, 
to maximize their success.
    Chairman Akaka. Ms. Fanning, in testimony submitted by 
Easter Seals, they raise a number of concerns and instances 
where they believe VA is not utilizing invaluable resources and 
experiences of community-based organizations to respond not 
only to the growing needs of returning servicemembers, but also 
to those who may not have easy access to VA medical facilities. 
Please comment on this, especially in the context of their 
Veterans with Traumatic Brain Injury Project.
    Ms. Fanning. I will need to research the collaboration that 
we have with Easter Seals and respond more formally to that 
portion of your question. [which she has, Q3] I can say that 
this year we funded a comprehensive analysis of our independent 
living program to determine where opportunities exist for us to 
collaborate more with community agencies such as Easter Seals, 
and also with VHA. So, as we complete the study, we will be 
looking at where there are gaps and where we need to reach out 
even further into the community. We understand that provision 
of rehabilitation services is really a collaborative effort. We 
need to maximize the resources that are available in the 
community.
    Chairman Akaka. Well, I am glad to hear that. While I can 
certainly see the need for VA to provide services and programs 
that enhance job readiness, I can also see the need to avoid 
duplication of the Department of Labor Veterans' Employment and 
Training Services, specifically in terms of offering job 
referrals and placement services. My question to you is, to 
what extent do you believe duplication is occurring?
    Ms. Fanning. As with provision of independent living 
services, I believe that providing job-ready services and job 
placement services is a team effort with Department of Labor. 
Currently, we are working with Department of Labor to even 
further strengthen our relationship. We have just launched a 
demonstration project in eight sites around the country to look 
at how we are defining our combined mission, how we are looking 
at performance metrics together, and how we can have a more 
integrated model so that we can avoid any duplication of 
services.
    Chairman Akaka. Ms. Day, a program of vocational 
rehabilitation and employment must be viewed as a part of a 
much larger effort, and I am glad to hear the team approach 
coming forth. Indeed, many suggest that offering vocational 
rehabilitation and employment counseling sooner in the 
rehabilitation process could be beneficial. From a medical care 
perspective, could you describe when it is most appropriate to 
begin discussion of vocational rehabilitation? Along those same 
lines, is an individual required to complete an application for 
the program before meeting with a VR&E counselor?
    Ms. Day. Yes, sir. VHA has over 5,500 social workers--
masters' prepared social workers--that work in virtually every 
clinical environment of the facility. They are trained and 
educated about VR&E.
    The answer to when is the optimal time to introduce the 
concept is two-fold. It is important that all veterans 
understand their benefits and that they all know very early on 
that this is something that they are entitled to if, in fact, 
that is the case. But, we have taken a multi-tiered approach to 
supporting them because oftentimes the most severely injured 
are not ready to look at their educational benefits very early 
on. They are struggling with their body image issues and their 
family relationships and maybe it will take them a little bit 
more time through their rehabilitation experience to begin to 
focus on education.
    That said, there are many veterans that come home ready to 
get out the gate and start working on their future and 
rebuilding a new life, since maybe they aren't going to be in 
the military service anymore. So, we have a couple of programs 
that we have put into place. Every VA medical center has an 
OEF/OIF Case Management Team. It consists of: VA clinicians, 
nurses, and social workers; a Transition Patient Advocate who 
serves as a peer counselor; as well as a VBA partner, and that 
is unprecedented. We are very proud of that. We have a member 
of our team that can make direct links to VR&E for those people 
that are ready, especially since we are meeting and greeting 
them when they come to the VA on their very first visits.
    In addition, as mentioned before, we have experts for the 
more severely injured, and Spinal Cord Injury, in VIST, and our 
various programs in polytrauma. And, now we are adding to the 
team the new Federal Recovery Coordinator, who will, over the 
course of a lifetime, work with the individuals severely 
injured. So, if they are not ready in the very early stages of 
their rehabilitation to address their vocational and career 
opportunities, hopefully they will be as time goes on, when 
they tap into their resilience and they become stronger. It is 
a lifelong process and there are going to be peaks, if you 
will, opportunities to assist somebody in taking that leap into 
education or into a new career, and the Federal Recovery 
Coordinator will be there as a partner throughout their 
lifetime to support that.
    Chairman Akaka. Thank you for that. Ms. Fanning, do you 
have any further thoughts on that?
    Ms. Fanning. I agree with what Ms. Day said. I think our 
program is very much individualized to the individual 
servicemember or veteran's needs. Many times, the first contact 
is at bedside, but we need to be sensitive and we work with VHA 
to know when the appropriate time to intervene is. Many times, 
the first contact may be with a family member just to educate 
them about services that are available--to provide hope--so 
that, as their loved one progresses through the rehabilitation 
process, they know what to plan for.
    Chairman Akaka. Well, our country has been great over the 
years--and when I say over the years, we can even go back to 
World War I--in helping veterans in rehabilitation. Over the 
years, of course, we always expect to see progress made in this 
up to the present time. And so, we are taking this route of 
holding hearings in a series in this area to try to move our 
programs, our models, forward to also increase the team 
approach that you mentioned and, of course, increase our 
resources and staffing to meet the needs of our veterans today.
    So, I want to thank you so much for your responses. We may 
have further questions and we will submit them for the record 
with your responses.
    Ms. Fanning. Thank you, sir.
    Chairman Akaka. I thank you so much for your participation 
today. Thank you.
    Our next panelist is a person who has been working in this 
area over the years. We will hear from the Honorable Dorcas 
Hardy, the former Chair of VA's Vocational Rehabilitation and 
Employment Task Force in the year 2004. We look forward to your 
statement and ask you to begin. Thank you.

   STATEMENT OF DORCAS R. HARDY, FORMER CHAIR, VA VOCATIONAL 
            REHABILITATION AND EMPLOYMENT TASK FORCE

    Ms. Hardy. Thank you, Mr. Chairman. It is a pleasure to be 
here to speak with you today about the Department of Veterans 
Affairs VR&E program. As you are aware, I served as the 
Chairman of the VR&E Task Force and its report to Secretary 
Principi, ``The VR&E Program for the 21st Century Veteran.'' I 
am also a former Commissioner of Social Security and was 
Chairman and CEO of a rehab technology firm in the 1990s.
    When the VR&E Task Force began its work nearly five years 
ago, a major concern was how best to achieve the stated goals 
for returning injured men and women to vocational 
rehabilitation and employment. The primary approach of the 
Veterans' Affairs' Vocational Rehabilitation and Employment 
program is a sequential process of formal education, and when 
completed, to address employment options. Even with the Five-
Track Employment Process recommended by our task force now in 
place, the VR&E employment outcomes are not significantly 
different than they were when we began. The task force believed 
in and supports the VR&E program. However, as you stated 
earlier, perhaps one should ask: Now, five years later, do we 
have the best model for achieving successful employment for 
disabled veterans in the 21st century?
    Utilizing the 2004 Task Force report, VR&E has made 
progress in modernizing its operations. Most of the task force 
recommendations have been addressed in one way or another by 
the very supportive staff in VR&E. However, significantly 
improved employment outcomes remain elusive, and last year, of 
the approximately 90,000 program participants, only 9,000 
became employed. This number is similar to earlier years. It 
appears that many of the program operations are the same as in 
the past, and the program and its processes still take far too 
long.
    I would like to quickly mention three VR&E issues which I 
think need more attention. Eligibility determination and 
assessment: The current comprehensive eligibility determination 
process is still time-consuming and extensive, and still takes 
as long as 50 days. If an individual is job-ready, or nearly 
so, and presents to the VR&E, there is no reason to be denied 
services for as long as two months. The counselors should be 
able to make an immediate referral to an employment coordinator 
or a private contractor skilled in job placement, such as 
Manpower, Inc.
    Vocational assessment of participants may indeed be too 
late in the entire post-discharge process and should be 
integrated into the DOD and VA disability medical determination 
and case management processes. We all know that return-to-work 
discussions should occur at the earliest appropriate point in a 
disability process, yet VR&E is at the end of the line, only 
after disability ratings and cash benefits are determined.
    Additionally, as the task force discussed, Functional 
Capacity Evaluation technology, known as FCE, can be used to 
determine and match individual abilities with required job 
skills, thereby facilitating discussions of future 
opportunities for employment. But use of such proven technology 
has not been integrated into any part of the vocational 
rehabilitation process.
    I understand that the number of new entrants to VR&E has 
decreased by about 8,000 persons. With the increase in the 
amount of the GI Bill stipend, which is now larger than the 
VR&E stipend, I suggest that the application decrease is due to 
many veterans using their VA education benefits, not VR&E, to 
pursue higher education, especially if a State provides free 
tuition to a State-supported institution. Another question here 
which I think is very important is, why do we need two separate 
programs for attainment of a college degree? How can we work 
toward an approach that integrates the GI Bill with the 
education track of VR&E? The counseling and employment 
opportunities could and should be available to all applicants 
in either program.
    Regarding employment itself: The new VR&E employment 
coordinators have been hired, but employment results are not 
much greater than before. The new VR&E computer job labs in 
regional offices and Memoranda of Agreement with major 
corporations, such as Home Depot, have not resulted in any 
significant number of job placements. Suggested improvements 
include more robust partnerships with other Federal and State 
programs as well as the private sector. There need to be more 
Memoranda of Agreement in place between VR&E, VBA, and all the 
State vocational rehabilitation agencies to provide more 
employment options and supports for veterans. I have submitted 
to your staff such a model agreement from the State of Alabama.
    VA and DOL need to consider merging the DOL VETS program 
and VR&E to better promote employment opportunities. As you may 
recall, the Service Member Transition Commission chaired by 
former VA Secretary Principi in the late 1990s made a similar 
recommendation.
    Additionally, self-employment, customized employment, and 
supportive employment must be clearly recognized as effective 
options for program participants. For severely disabled 
veterans, independent living, at least in the short term, may 
be the appropriate goal before employment, and additional VR&E 
outreach to the private nonprofit sector could be useful to all 
independent living veterans. Local representatives of the 
Centers for Independent Living organization are here today to 
talk with you.
    Additionally, the many new community-based organizations 
that have sprung up to provide supports for newly-injured 
servicemembers should become VR&E partners: Wounded Warriors; 
America Supports You; Families of the Wounded Fund; and many 
others. If VR&E just compiled and distributed a list of 
resources and community-based services for all veterans in each 
State, I am confident this would result in new independent 
living services and employment partnerships, which benefit the 
severely-impaired veteran.
    In closing, Mr. Chairman, the issues involved with 
implementing a modern disability rehabilitation and employment 
system are not unique to the VA's VR&E program for disabled 
veterans. According to the GAO, there are 192 Federal programs 
designed to provide supports to persons with disability at an 
annual cost of more than $120 billion. Eighty-eight percent of 
those Federal dollars are spent by Social Security and VBA, but 
only two percent were spent on employment-related programs. 
This is an uncoordinated stovepipe approach and it is a major 
part of the problem of disability determination, including 
ratings schedules, case management, recovery plans, medical and 
VR services and supports. Your committee has certainly looked 
at many of these issues.
    The entire disability adjudication and support processes, 
and the related public programs, need to be modernized and we 
need to demand integrated approaches, better management, and 
better outcomes. Persons with disabilities should receive early 
and timely assessments and coordinated access to supports they 
need for maximizing their capability.
    I still believe the VR&E can become the model public sector 
rehabilitation and employment program, but they are not there 
yet, and it is nearly four years since they began their 
transformation. The VR&E task force report was a blueprint for 
change. Much of the infrastructure is in place. VR&E needs to 
continue to make course corrections as they proceed and they 
need a greater sense of urgency.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Hardy follows:]

  Prepared Statement of Hon. Dorcas R. Hardy, President of DRHardy & 
   Associates, Former Chairman of the Vocational Rehabilitation and 
      Employment Task Force of the Department of Veterans Affairs

    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to speak with you today about the Department of Veterans 
Affairs' Vocational Rehabilitation and Employment Program (VR&E).
    As you are aware, I served as Chairman of the Vocational 
Rehabilitation and Employment Task Force of 2004 and its report to 
Secretary Principi: The Vocational Rehabilitation and Employment 
Program for the 21st Century Veteran. I am also a former Commissioner 
of Social Security and was Chairman and CEO of a rehabilitation 
technology firm in the 90s.
    The United States is at war. At this time there is no more 
important mission for the Department of Veterans Affairs than enabling 
our injured soldiers, sailors, and other veterans with disabilities to 
experience a seamless transition from military service to successful 
rehabilitation and on to suitable employment. For some severely 
disabled veterans, this success will be measured by their ability to 
live independently, achieve the highest quality of life possible, and 
realize the hope for employment given advances in medical science and 
technology.
    Current efforts of the Departments of Defense and Veterans' Affairs 
Steering Committee are focused on seamless transition through case 
management, utilizing Recovery Plans and Recovery Coordinators. 
Numerous government agencies and private sector commissions have also 
contributed ideas and plans to enhance the wounded warriors' 
transition, compensation determination and employment opportunities.
    Even when the task force began its work nearly five years ago, a 
major concern of the task force was how best to achieve these goals for 
returning injured men and women. As we began our work, it became clear 
that the primary approach being taken by the Veterans' Vocational 
Rehabilitation and Employment Program was to promote a sequential 
process of formal education and when completed, to address employment 
options. Even with the Five-Track Employment Process now in place, the 
VR&E outcomes are not significantly different than they were then.
    Now five years later, one should ask: Do we have the best model for 
achieving vocational rehabilitation and successful employment for 
disabled veterans in the 21st Century?
    Utilizing the 2004 Task Force Report, VR&E has made progress in 
modernizing its operations. During the last four years, the Veterans 
Benefits Administration has increased its support of VR&E and tried to 
integrate its services into the many efforts that are being directed to 
disabled veterans returning from Afghanistan and Iraq. While most of 
the task force recommendations have been addressed in one way or 
another, I do not know if one can declare they have comprehensively 
addressed all the issues.
    After many pilot projects, the Five-Track Employment Process and 
Integrated Service Delivery System appear to be in place, all 
Vocational Rehabilitation Counselors have been trained, Disabled 
Transition Assistance Programs (DTAP) briefings have been standardized 
and include Five-Track system information, a new orientation video for 
group intake is available, and new employment coordinators and job 
resource labs are available.
    Despite this emphasis, significantly improved outcomes remain 
elusive and it appears that much of the program operations are the same 
as in the past. The program and its processes still take far too long.
    Today, I would like to focus my comments on several important and 
outstanding issues which I believe need considerably more attention:

    <bullet> Eligibility Determination;
    <bullet> Assessment and participation in the Vocational 
Rehabilitation and Employment program;
    <bullet> Employment Focus (both jobs and careers); and
    <bullet> Independent Living.

                      DETERMINATION OF ELIGIBILITY

    I continue to believe that the VR&E program employment and ``life 
cycle'' transitions counseling should be available to all veterans, in 
particular all disabled veterans at any stage in their post-military 
careers without regard to the number of years that have passed since 
they separated from the military.
    One might want to establish a priority ranking system for services 
based on severity of disability. However, any veteran, especially the 
disabled veteran, who is ready for employment should not be subject to 
a time-consuming and extensive eligibility determination process which 
takes more than 50 days. If an individual is job-ready or nearly so, 
and presents to the VR&E, there is no reason to be denied access for 
almost two months to the Rapid Employment Track. The VR counselor 
should be able to make an immediate referral to an employment 
coordinator or a private contractor skilled in job placement, such as 
Manpower Inc. (I believe any shortened assessment process may require a 
statutory change.)
    Assessment of program participants continues to be much of the core 
of the program. Perhaps a first time extensive vocational assessment by 
VR&E is too late in the entire post-discharge process. Currently both 
the Department of Defense and VA are working to better coordinate and 
integrate a disability medical determination and case management 
process. They are piloting new Recovery Plan processes and using DOD 
Transition Patient Advocates and new VA Recovery Coordinators.
    It is well known that a discussion of employment at the earliest 
point in any rehabilitation process is critical to a successful Return 
to Work effort. Vocational Rehabilitation Counselors should be 
integrally involved in early discussions with veterans. I do not mean a 
cursory discussion of all VA benefits; an early discussion about 
returning to employment and significant participation in society is 
essential (recognizing that medical rehabilitation is obviously 
paramount). Yet VR&E is ``at the end of the line'' after disability 
ratings and cash benefits are determined.
    Additionally, as the task force discussed, functional capacity 
evaluation (FCE) technology can be very helpful in determining and 
matching individual abilities with required job skills, thereby 
facilitating discussions of future opportunities for employment. The 
task force recommended that FCE testing be an integral part of the 
disability determination process and conducted as early as possible in 
any assessment (DOD or VA) process. A recommended functional capacity 
evaluation pilot project to determine the best means to apply this 
proven technology in the disability determination and VR&E process has 
not been conducted.

                               APPLICANTS

    In addition to offering VR&E counseling, employment and career 
transition services to all veterans, at whatever point in time the 
services may be needed, VR&E service should have a better understanding 
of the reason for a veteran entering their program. The task force 
found that most applicants wanted a college education.
    I have no data to suggest that request has changed. However, I 
understand that the number of new entrants to VR&E has decreased (about 
8,000 persons). My suspicion is that the increase in the GI Bill 
stipend, which is now larger than the VR&E stipend, has caused many 
veterans to use their VA Education benefits to pursue higher education, 
especially if a State provides tuition to a state-supported 
institution. Why do we need two separate programs for attainment of a 
college degree? How can we work toward an approach that integrates the 
GI Bill with the education option of VR&E--the counseling and 
employment opportunities would be available to all applicants in either 
program.
    The question that one must ask is: Why do we need two separate 
programs for attainment of a college degree? How can we work toward an 
approach that integrates the GI Bill with the education option of 
VR&E--the counseling and employment opportunities would be available to 
all applicants in either program.

                               EMPLOYMENT

    It is not yet clear, despite VR&E's addition of 50 or so employment 
coordinators, that the focus of the program has dramatically changed to 
career development and employment. Annually, of the more than 90,000 
active VR&E cases, no more than 9,000 veterans are ``placed'' into 
employment. This result has been steady for many years.
    This is just not good enough if we say that the program focus is 
employment. And there is no information about how long (beyond 60 days) 
a newly employed veteran stays in the workforce, nor if these veterans 
have been places in employment through the Rapid Employment Track in 
the Five-Track Employment Model. Additionally, once a veteran is 
placed, there is minimal follow-up with the employer as to whether the 
new job is a correct fit with the veteran's skills and needs; whether 
any additional accommodations may be needed; or if further placements 
are available.
    Most of the participants in the VR&E program are still in some kind 
of formal training (e.g., higher education). The obvious challenge is 
how to move them through to employment. Perhaps employment coordinators 
should work under incentives based on successful placements. If the 
number of employment outcomes does not increase, VR&E should revisit 
the discussion of contracting out all employment activity and only 
provide vocational counseling.
    Part of the new approaches to motivating program participants to 
focus on employment has been the introduction of Job Labs at most of 
the VR&E offices. With many other federal programs, such as Department 
of Labor One Stop Centers also offering computer labs for job searches, 
it would be very useful to know if such new equipment has made a 
difference in successful job search and placement. Contracting with 
professional employment search firms or working with specific companies 
to develop appropriate jobs throughout an entire Region would appear to 
be much more cost beneficial.
    Memoranda of Understanding regarding available jobs have been 
created with large employers (e.g., Home Depot). Apparently the number 
of placements from VR&E has not been large, if at all. There needs to 
be more communication about the type of applicants that VR&E trains and 
the kinds of skills they can offer to such companies. An employer needs 
to understand the skills of VR&E participants (FCE could be used), as 
well as any necessary accommodations. Success requires employment 
coordinator outreach to many more companies, and much more interaction 
with professional employment agencies.
    The task force suggested adoption of a National Agreement between 
Veterans Benefits Administration/VR&E with the Council of State 
Vocational Rehabilitation Agencies. This was executed in 2005. But to 
be successful, each State Agency needs to tailor its own Agreement with 
VR&E in order to work together to fill the service delivery gaps that 
one or the other program encounters when working with the same veteran. 
VR&E has not followed up to initiate more than a few Agreements; State 
partners could be extremely helpful if a more formal process of service 
delivery were in place. I have submitted to your Staff a model 
agreement between the State of Alabama Department of Rehabilitation 
Services and VBA/VR&E. Such a simple yet useful document should be in 
place in every State. Please note: only the most relevant portions of 
the model Memorandum of Understanding with the Alabama Department of 
Veterans Affairs to direct and facilitate services for veterans are 
included. (See Addendum) The complete document and additional 
information may be obtained from Ms. Peggy Anderson, Alabama Department 
of Rehabilitation Services.
    The Ticket to Work Program of the Social Security Administration 
and VR&E have begun conversations regarding how Employment Networks of 
the Ticket Program can assist with training and placement of disabled 
veterans. Though the Ticket Program has not yet been as successful as 
had been envisioned, I expect that new regulations which will be issued 
this spring will have a significant impact upon development of a far 
more successful program of job training and employment.
    Another Federal employment program at the Department of Labor also 
works closely with VR&E. It appears to me that both agencies could 
claim great success if the DOL VETS program (DVOPs: Disabled Veterans 
Outreach Program and LVERs: Local Veterans' Employment Representatives) 
were merged with VA's VR&E program. You may recall that the 
Servicemember Transition Commission chaired by former VA Secretary 
Principi in the late 1990s made a similar recommendation. Better 
employment referrals and opportunities, increased communication with 
the public and private sectors, and an integrated jobs placement team 
should surely result.
    Promotion of self-employment continues to be a challenge for VR&E. 
There are several successful private firms that could be of assistance 
to VR&E employment coordinators. Additionally there are many business 
persons who, if asked, could assist directly by working with veterans 
to develop and critique their business plans. Self-employment, 
customized employment options, and supportive employment (such as the 
VHA program for TBI and PTSD veterans) especially for severely disabled 
veterans, must be an integral part of the training of VR&E staff and 
options for veterans.

                        INDEPENDENT LIVING (IL)

    For many severely disabled veterans, independent living, not full 
employment, becomes the outcome. Within the allowable four years that a 
person can utilize IL services, the goal should still be employment, to 
the best of the ability of the disabled veteran. Individuals may not 
achieve full employment but many persons can participate in some kind 
of activity that provides financial remuneration. In cases of Traumatic 
Brain Injury or severe PTSD, it is recognized that considerable 
supports may be needed. At this point in the process, the Supportive 
Employment VHA program should be used as a bridge to full employment.
    In such cases, VR&E Counselors often become case managers as 
opposed to rehabilitation counselors. Consideration should be given to 
forwarding the cases of severely impaired IL individuals to the 
caseload of the new VA position of Recovery Coordinators, with monthly 
or quarterly reports to the originating VR Counselor. Often care and 
support services are more appropriate at one time than another; 
veterans need to receive correct services for their current situations. 
However, the goal should still be rehabilitation to the greatest 
extent, and hopefully, some kind of economic participation in society. 
Regardless of which position, VR&E Counselor or Recovery Coordinator 
has the responsibility, management should consider introduction of a 
case weighted performance measure for IL counselors.
    The private non-profit sector, through Centers for Independent 
Living, can also be extremely helpful to IL veterans. The Centers are 
located nationwide, understand local communities and provide supports 
and services, accommodations, and knowledge of future opportunities for 
severely impaired persons. It is not clear that they are being fully 
utilized to assist disabled veterans.
    Since servicemembers began returning from Iraq and Afghanistan, 
many non-profit, community-based organizations have developed 
throughout the country to provide supports for injured servicemen. VR&E 
should be known to all of these organizations: Wounded Warriors, 
America Supports You, Families of the Wounded Fund and many other 
family-support groups who want to assist with transition and employment 
needs. If VR&E compiled and distributed a listing of resources and 
community-based services for all veterans in each State, I am confident 
the result would be new service and employment partnerships which 
benefit the veteran.
    Mr. Chairman, I would like to close my remarks with some 
observations about the greater World of Disability, of which the 
Veterans Benefits Administration is one part--a very large part.
    GAO found 192 different programs operated or overseen by some 20 
different federal departments or independent agencies that are designed 
to provide supports for people with disabilities. In FY 2003, more than 
$120 billion in federal funds were spent on programs serving people 
with disabilities. Eighty-eight percent (88%) of those federal dollars 
were spent by the Social Security and Veterans Benefits 
Administrations. It is especially noteworthy and disheartening that 
only two percent was spent on employment-related programs.
    This uncoordinated ``stove pipe'' approach is itself a major part 
of the problem of disability determination, including rating schedules, 
case management, Recovery plans, and services and supports. To develop 
a 21st century system for persons with disabilities, there should be a 
new, single and integrated center of responsibility that can offer 
people with disabilities a clear and uniform path to finding the 
support they may need to pursue a path to independence and self-
support. The entire disability adjudication and support processes in 
public programs need to be modernized. We need to demand integrated 
approaches to these issues, better management and better outcomes. 
Persons with disabilities should receive early and timely assessments 
and coordinated access to the supports they need to maximize their 
capabilities.
    In a 2006 report from the Social Security Advisory Board (of which 
I am a member) entitled ``A Disability System for the 21st Century'' we 
stated:
    On the disability cash benefit side, we currently have a uniform 
structure; on the employment support side we have something close to 
chaos. There are of course, many different kinds of supports including 
training, medical care and therapy, assistive technology, counseling 
and more. A variety of providers reflecting different disciplines will 
need to be involved, but persons with disabilities should have a single 
point of entry that can help them, as needed, attain and stay on the 
path to the supports they need.
    Our Nation's policymakers need to acknowledge that the current 
disability programs, though well-intentioned, are badly fractured and 
disjointed. A unifying point of vision, oversight, and management is 
desperately needed. To rectify this, consideration should be given to 
the creation--by the Administration and the Congress--of an entity or 
entities that can develop and implement detailed legislative proposals 
for managing and integrating the supports available to people with 
disabilities in a way that truly offers a coordinated path to achieving 
community inclusion, independent living, and economic self-sufficiency.
    Detailed legislative proposals to build a 21st century system could 
include, where appropriate, a realignment of functions and 
responsibilities that are currently carried out by numerous entities. 
It is now a decade and a half since our Nation declared its adherence 
to a disability policy that encourages and supports people with 
disabilities in their quest to achieve independence and self-support 
that is within their capabilities. It is time to begin to make the 
necessary administrative and statutory changes that can make that 
policy a reality . . . the difficulty of that task, while daunting, 
must not be viewed as a reason for avoiding action.
    The issues involved with implementing a modern disability 
rehabilitation and employment system are not unique to the Vocational 
Rehabilitation and Employment program for disabled veterans. I still 
believe that VR&E can become the model public sector rehabilitation and 
employment program. But they are not there yet; and it is nearly four 
years since they began their transformation. They need a greater sense 
of urgency, as well as greater vision.

    Mr. Chairman, thank you for the opportunity to address these 
issues. I will be glad to answer any questions you may have.
                                 ______
                                 
                                Addendum
 DEPARTMENT OF REHABILITATION SERVICES AND U.S. DEPARTMENT OF VETERANS 
       AFFAIRS, VOCATIONAL REHABILITATION AND EMPLOYMENT SERVICES

    This agreement is entered into between the Alabama Department of 
Rehabilitation Services, hereafter referred to as ADRS, and the 
Department of Veterans Affairs, Montgomery Vocational Rehabilitation 
and Employment Services, hereafter referred to as VA-VRE.

I. Purpose
    In order to advance, improve and expand the work opportunities for 
veterans with disabilities, ADRS and VA-VRE herein commit themselves to 
working cooperatively in implementing the objectives set forth in this 
agreement.

II. Statement of Need
    ADRS and VA-VRE believe that quality employment outcomes for 
veterans with disabilities can be increased and improved through a 
closer working relationship between ADRS and VA-VRE.

III. Terms of Agreement
    Through collaboration and cooperation in the development of 
individualized plans for employment, delivery of planned services, and 
activities related to either return to work or obtaining employment, 
ADRS and VA-VRE staff will avoid the duplication of services to 
eligible veterans with disabilities. Attachment A describes the 
referral and service delivery process that will be followed by ADRS and 
VA-VRE staff. The ADRS and VA-VRE will share information and coordinate 
activities, as appropriate and in accordance with applicable statutes, 
to carry out and support the objectives of this cooperative agreement. 
These activities, services and records shared will be provided in a 
timely and accurate manner.

IV. Authority
    Title I and Title VII of the Rehabilitation Act of 1973, as 
amended.
    Title 38 United States Code, as amended.
    This agreement does not in itself authorize the expenditure or 
reimbursement of any funds. Nothing in this agreement shall obligate 
the parties to expend appropriations or other monies, or to enter into 
any contract or other obligation. Further, this agreement shall not be 
interpreted to limit, supersede, or otherwise affect either party's 
normal operations or decisions in carrying out its mission, statutory 
or other regulatory duties. Nothing in this agreement shall be 
interpreted as altering eligibility requirements for any ADRS or VA-VRE 
program authorized under Title 38 United States Code, as amended or 
Title I or Title VII of the Rehabilitation Act of 1973 as amended.

V. Effective Date and Termination
    This agreement shall become effective when signed by both parties 
listed below and shall remain in effect until either party chooses to 
discontinue. This agreement may be terminated at any time upon 30 days 
advance notice by one party to the other, and may be amended by the 
written agreement of both parties, and/or their designees.

                                   Steve Shivers
                                           Commissioner, ADRS

                                   Ricardo F. Randle
                                           Director, Montgomery VA 
                                               Regional Office

                                   Richmond H. Laisure
                                           VRE Officer

Attachments:
[Attachment A is included. Attachments B-E, listed below, may be 
    obtained from Ms. Peggy Anderson, Alabama Department of 
    Rehabilitation Services.]
A: Referral and service delivery process
B: ADRS Liaison to VRE Contact Map
C: VA-VRE Referral Forms
   C1--Cover letter
   C2--Data sheet
D: ADRS Forms for Information Sharing
   D1--Confirmation to VRE of Assigned VR Counselor
   D2--Referral & Feedback Form on VRE Referral
E: ADRS Referral Form to VRE
                                 ______
                                 
            Memorandum of Agreement Between ADRS and VA-VRE
                              Attachment A
                 REFERRAL AND SERVICE DELIVERY PROCESS

General Information
    Under the ADRS and VA-VRE Memorandum of Agreement, both entities 
will coordinate resources to maximize vocational rehabilitation 
services to veterans with disabilities, in order to facilitate their 
return to work or their entrance into competitive employment.
Referral and Eligibility
VA-VRE Process
    A VA-VRE counselor determines eligibility for Chapter 31 vocational 
rehabilitation services to veterans with service connected 
disabilities.

    <bullet> If the veteran is eligible for VA-VRE services and seeking 
employment, that veteran will be referred to the appropriate ADRS 
liaison counselor (see Attachment C). If the veteran is also determined 
eligible for ADRS services, the VRE rehabilitation plan, as described 
below, will be shared with the appropriate ADRS liaison counselor.
    <bullet> If the veteran is ineligible for VA-VRE services, but 
appears to need ADRS services, the veteran will be referred to the 
appropriate ADRS liaison counselor and VA-VRE will close the case.

ADRS Process
    Referrals from VA-VRE will be made to the designated ADRS liaison 
counselor (see attachment B). That counselor will then refer the 
veteran to the appropriate rehabilitation counselor and notify the VA-
VRE counselor concurrently (see attachment D).
    ADRS counselors will determine ADRS eligibility and specific 
rehabilitation needs for each veteran referred by VA-VRE staff.

    <bullet> If a veteran, who is referred to ADRS for services by a 
source other than VRE, has a VA compensable service connected 
disability and is eligible for ADRS services, that veteran will be 
referred by the ADRS counselor to the VA-VRE program. ADRS staff will 
make the referral, utilizing the formatted referral letter (see 
attachment E), submitting that letter to the Montgomery VA-VRE office. 
It will be the veteran's responsibility to complete VA Form 28-1900 
which is available on-line or in print.
    <bullet> If found entitled to services by VA-VRE, the ADRS 
rehabilitation plan will be shared with the appropriate VA-VRE 
counselor.

Information Sharing
    With a signed release from the veteran, available records and other 
information will be shared between ADRS and VA-VRE without cost and in 
a timely manner. Any information shared will be shared in compliance 
with HIPPA rules.
    When VA-VRE is referring a veteran to ADRS for services, the 
following referral packet of information will be shared:

    <bullet> Current contact information (see attachment C)
    <bullet> Current medical and psychological records
    <bullet> Copy of the rehabilitation plan, if available
    <bullet> Education and work history information
    <bullet> Referral cover letter (see attachment C)

Developing Shared Plans
    The development of the ADRS rehabilitation plan and the VA-VRE 
rehabilitation plan will, to the greatest extent possible, be 
complimentary so as to avoid duplication of services and to streamline 
the rehabilitation process for the veteran.

VA-VRE Services
    VA-VRE will pay or arrange for all required tuition, fees, books, 
supplies, tools, equipment, subsistence allowance, and provide medical 
care and treatment in accordance with current VA regulations for all 
veterans determined entitled to VA-VRE services.
Training
    As needed, VA-VRE can authorize training such as on-the-job 
training, non-paid work experience, apprenticeship, and educational 
training (for example, certificate or college training) in preparation 
for suitable entry level employment. Coordination between the VA-VRE 
counselor and the ADRS counselor is required when developing training 
plans.
    VA-VRE will pay the vendor directly for all required tuition, fees, 
books, supplies and needed tools and equipment.

Medical
    ADRS is not responsible for providing medical services for veterans 
eligible for VA-VRE programs. If such medical services are required, 
the ADRS counselor will advise the VA-VRE counselor for referral 
assistance to a VA medical facility for treatment. However, ADRS may 
provide medical services to determine and expedite eligibility or to 
allow the veteran to participate in the rehabilitation program.

Maintenance and Transportation
    VA-VRE will pay a subsistence maintenance allowance to veterans in 
training according to applicable VA-VRE schedules.
    VA-VRE generally cannot pay for transportation costs. If 
transportation services are needed by a VA-VRE/ADRS shared case and 
cannot be paid by VA-VRE, the VA-VRE counselor and ADRS counselor 
should discuss the need and ADRS may provide the service in accordance 
with ADRS policies.

Assistive Technology
    In accordance with VA-VRE/ADRS individualized plans, the VA-VRE 
counselor will purchase, as needed for rehabilitation and employment 
purposes and in accordance with VA policies and procedures, appropriate 
assistive technology to accommodate the veteran after evaluation and 
identification of the assistive technology that will address specific 
needs for rehabilitation and employment in accordance with appropriate 
policies and procedures.

ADRS Services
    Under this memorandum of agreement, the primary but not the only, 
services from ADRS for disabled veterans, as set forth by VA-VRE are 
focused on counseling and guidance, disability-related education and 
follow-along, suitable employment, job-site or job task accommodation 
or modification and/or evaluations, job retention assistance and/or 
return-to-work intervention (i.e. the ADRS RAVE program).
    In addition, the case management and service delivery activities of 
the ADRS counselor will include, but not be limited to, the following:

    <bullet> The ADRS counselor will notify the VA-VRE counselor if the 
veteran fails to keep appointments and/or is otherwise uncooperative.
    <bullet> The ADRS counselor will provide the VA-VRE counselor with 
copies of case notes in accordance with approved plan, as needed, for 
shared cases.
    <bullet> When either agency closes a shared case, each counselor 
will notify the counselor of the other agency.
Assistive Technology
    When VA-VRE is unable to purchase the needed assistive technology 
for vocational rehabilitation and employment, ADRS may make the 
purchase in accordance with appropriate policies and procedures.

Return to Work Cases
    ADRS will apply best practices procedures from their RAVE 
(Retaining a Valued Employee) program for all services rendered to 
veterans who are in a ``return-to-work'' situation.

Coordination of Employment Activities
    ADRS and VA-VRE staff making contact with businesses on behalf of 
the veterans who are served as shared cases will coordinate their 
activities so as to encourage collaboration and avoid duplication of 
services. Each agency will respect the existing proprietary 
relationships between that agency and current employer accounts, 
working through the designated ``account representative'' of the agency 
that has an active working relationship with the employer. The lead 
business contact for local employer development and placement will be 
the ADRS Employer Development Coordinator (EDC).
Joint Activities
    With a focus on collaboration and use of similar benefits, ADRS and 
VA-VRE will jointly initiate the following:

    <bullet> Staff in-service training focused on an overview of the 
MOA and review of internal ``best practices'' for shared cases
    <bullet> Routine review of the service provision process and 
employment outcomes for shared cases
    <bullet> Troubleshooting to streamline services and to focus on 
continuous improvement
    <bullet> Tracking and sharing outcome data.
                                 ______
                                 
   Questions for the Record Submitted by Hon. Daniel K. Akaka to Ms. 
    Dorcas R. Hardy, Former Chair, VA Vocational Rehabilitation and 
                         Employment Task Force

    Commissioner Hardy, I first want to thank you for your very helpful 
and thoughtful testimony. I do want to clarify one issue.
    Under VA's rehabilitation program, an individual is eligible for 
payment of tuition, fees, books, equipment and all other costs 
associated with a program of education paid for. Plus, the individual 
receives a monthly stipend amount of $520.74 for full-time training. 
Additional amounts are paid if the individual has dependents. Under the 
GI Bill, individuals enrolled on a full-time basis receive a monthly 
stipend of $1,101 a month and nothing more. There is no payment of 
tuition or fees or books or equipment. Nor do rates increase if the 
veteran has dependents.
    Question. Does this cause you to re-evaluate your answer?
    Response. Currently, the VR&E education benefit appears to be more 
generous than the GI Bill. (This may change with new discussions by 
Congress to significantly expand the GI Bill.) More than 75% of VR&E 
program participants proceed through a rehabilitation program that 
includes a goal of a college degree, unfortunately, often taking as 
long as 10 years to complete their education. VR&E Rehabilitation 
counselors spend a great deal of administrative time tracking the 
intricacies of the allowable costs for the education program: tuition, 
books, fees, etc. I believe that education benefits for all veterans 
should be administered by one program or entity, as simply as possible. 
For disabled veterans who are eligible for VR&E, they could be 
automatically eligible for GI Bill participation, under the same rules 
as all veterans, adding a voucher for any required equipment/technology 
due to their disabilities. The VR&E counselors could focus on the 
counseling and employment needs of the veteran, not the complex and 
inefficient administrative paperwork associated with education 
programs, which can more effectively be completed by the GI Bill 
program. A portion of program savings could be used by VR&E to fund 
additional counselors; savings could also be shifted to the GI Bill 
program. (The Committee may first want to consider conducting a brief 
analysis of the current ``students'' in each program, including all the 
costs incurred during a 1-year time frame.)

    Chairman Akaka. Thank you very much, Commissioner. Without 
question, your statement reveals your background, your 
experience, and your work in the area of veterans.
    Commissioner Hardy, as the task force Chair, you added a 
special, let me say, final word to the report laying out your 
perceived challenges for the VR&E program and challenges also 
for the future. I think it quite safe to say that the future is 
now. You noted that the task force rejected the idea of moving 
the VR&E independent living program to VHA at that time. Could 
you please share your thoughts as to whether or not that idea 
needs to be reevaluated at this time?
    Ms. Hardy. First of all, Mr. Chairman, I would say that 
continuous improvement or continuous evaluation in all of our 
Federal programs is a good management technique, so any 
analysis probably should be looked at again four years or five 
years later. But, the reason we agreed on that was because we 
thought the VR&E program needed to be more focused on how they 
handled independent living--which they do very well--and who 
they select for independent living, before something was 
transferred.
    In other words, they've got the independent living 
perspective--independent living veterans on this side: in the 
polytrauma; in the SCI; in the TBI centers--where they do an 
outstanding job. Then, they transition over here to the 
independent--actually living with their disabilities, some 
extremely impaired--that coordination is not probably as good 
as it should be just because it is a huge bureaucracy. But with 
the recovery coordinators coming on from VA and the other folks 
at VHA, I think that system can work.
    But then, there is another piece here. If you assume they 
have as many, I think it is 36 months, something like that, 30 
months in the IL VR&E position and then they have got to get 
into some employment, if not full employment, some economic 
participation in our society to whatever extent that person--it 
may not be a wage that is going to replace any benefits, but it 
is participation in society. So there are almost three pieces 
in this transition.
    If you moved and did some more evaluation, thought it 
should be done, you move the IL piece from VR over to here, you 
are going to have to have some significant training of VA. 
Either move those people, some people, or better train VHA, 
because their focus is medical with some independent living 
skills. So you could combine those, but I am still trying to 
move somebody through independent living if at all possible so 
that they get that vocational side.
    Chairman Akaka. At this time, traumatic brain injuries and 
PTSD have become signature injuries of the current conflicts. 
What could VA do to ensure that veterans suffering from these 
injuries get what they need to live independently and reenter 
the workforce?
    Ms. Hardy. I think I would suggest--remember, I haven't 
done an in-depth study last week, but based on what I recall 
and the little that I still know is--a better coordination with 
what I would call the CWT program. I think it is a special 
program that works with the severely impaired over at VHA, and 
so that integration has got to be a lot stronger, because that 
is where many of the PTSD and TBI veterans are able to learn 
new skills, participate in internships, participate to some 
extent in a workforce-like setting, supported work employment, 
as well.
    Chairman Akaka. The statistics you cite in your testimony 
on the number of programs for individuals with disabilities, I 
would say are staggering.
    Ms. Hardy. True.
    Chairman Akaka. Particularly disturbing is the very small 
portion that is devoted to meeting employment needs. It puts 
into perspective that the issues confronting veterans, VA, and 
this Committee, are far from unique. Disability adjudication 
and support processes in public programs clearly cross many 
lines. The question is, how do you believe this Committee and 
VA could best contribute to efforts to implement a modern 
disability rehabilitation and employment system?
    Ms. Hardy. I have thought about that a lot, Mr. Chairman, 
and I do not yet have a perfect answer. The integration is 
extremely important, and integration with what I call, ``the 
greater world of disability,'' whether it is through Social 
Security or whether it is through chronic disease leading to 
disabilities as one ages, or young folks, whatever.
    I am hopeful that these few new VA recovery coordinators we 
are trying to work across the DOD and VA lines could 
contribute, at least on the part of the veteran, for the 
veteran, to what we are all trying to get to: that there is one 
person throughout their lifetime that they can turn to who 
knows everything about where to get all these services that the 
American public is trying to provide to people.
    I would hope that you would remember often that there is a 
tremendous support system: in the private sector; through 
nonprofit organizations; and the business community, that 
really wants to help. And we need to be able to integrate, not 
just laterally, if you will, but up and down the system, 
throughout our society. People want veterans to participate 
with everybody else and want to give them the best supports 
they can. So all of that needs to be part of a better system.
    Chairman Akaka. Well, I really appreciate your thoughts 
about this and continue to look at improving what we are doing. 
Your discussion of the need for incorporating a Functional 
Capacity Evaluation into VA's disability structure, for me, is 
very interesting. Could you explain in a bit more detail how 
you envision this testing becoming an integral part of the 
disability determination process?
    Ms. Hardy. Functional Capacity Evaluation (or assessment) 
can be used to match an individual with the laid-out skills in 
a particular job, and the ideal situation, it seems to me, 
would be to perform an FCE test on a person entering into the 
military system; so, before you become part of our outstanding 
military, you would have an FCE test that would give you a 
baseline. Once you change significant assignments, you might 
want to do another test--during your military service. But, 
most importantly, if you expected to move on to other work 
after the military, you would also be tested once again. It 
would give you a base; it would give you a progress report, so 
to speak; and you could use that assessment to match with the 
skills that are needed to do a particular job.
    Now, I am not talking about just manual labor or anything 
else. One of the things that an FCE does is to rate your 
ability to sit, stand, push, pull, whatever--all of the 
functions that we all do. It is not a difficult test and it is 
scientifically valid for most of our physical functions, not 
yet rating our cognitive functions, and it can be used in 
assessment.
    If you don't have that baseline, if we started tomorrow--
obviously you could start right at the disability adjudication 
process--either part of the integrated process you all are 
trying to set up at the DOD with VA, or as they move into a 
process of assessment before a VA disability compensation exam.
    Chairman Akaka. Well, I want to thank you so much for your 
responses. It has been valuable to this Committee. Let me ask 
you my last question. Was there anything you heard from this 
morning's witnesses which you would like to respond to?
    Ms. Hardy. I would just like to say that the VR&E program 
is trying and I think it has an excellent field and central 
staff. I do strongly believe there has got to be a greater 
sense of urgency. They are not moving as quickly as I would 
like to see them, and I think there has got to be a vision of 
where they want to go. It may get to a point where you want to 
separate the vocational rehabilitation part of it from the 
actual employment, and you may think that one needs to be 
contracted out at some point if we are not making better 
progress.
    Chairman Akaka. Well, again, thank you so much for your 
valuable thoughts. Let me ask Senator Webb if you have any 
questions at this time.
    Senator Webb. Thank you, Mr. Chairman. Having just arrived, 
I think it would probably be impolite to ask a bunch of 
questions. I have looked over your testimony, however, and I am 
sitting here as someone who was a recipient of vocational 
rehabilitation after I was ``medicalled'' out of the Marine 
Corps. It is a wonderful program. I think it is one of the 
great success stories overall when you look back on it, and we 
are going to do everything we can to make sure it remains 
successful. Thank you for all of your help and also for your 
testimony.
    Ms. Hardy. Thank you.
    Chairman Akaka. Again, thank you. Your responses have been 
valuable. We look forward to working with you, also, for the 
future of our veterans' needs. We need to do this together.
    Ms. Hardy. Thank you, Mr. Chairman.
    Chairman Akaka. Thank you.
    For our final panel, we have four witnesses. We have John 
Lancaster, the Executive Director of the National Council on 
Independent Living. We also have Douglas Carmon, Assistant Vice 
President of Military and Veterans Initiatives for Easter 
Seals. We have Richard Daley, Associate Legislative Director 
for PVA, who is accompanied by Theresa Boyd, their Vocational 
Rehabilitation Consultant. And, we have Linda Winslow, 
Executive Director for the National Rehabilitation Association, 
who is accompanied by James Rothrock, Commissioner of the 
Virginia Department of Rehabilitative Services.
    Thank you so much, all of you, for being here today. Let us 
begin the statements with Mr. Lancaster.

   STATEMENT OF JOHN LANCASTER, EXECUTIVE DIRECTOR, NATIONAL 
                 COUNCIL ON INDEPENDENT LIVING

    Mr. Lancaster. Thank you, Chairman. Chairman Akaka, Senator 
Webb, and other folks here, thank you for the opportunity to 
comment on the VA's Vocational Rehabilitation and Employment 
Program. I am John Lancaster and I serve as the Executive 
Director of the National Council on Independent Living.
    I would be remiss, Mr. Chairman, if I didn't acknowledge my 
old good friend and colleague, Mr. Bill Brew, your Staff 
Director. We were colleagues at the University of Notre Dame 
and served together in the Naval ROTC program there, from which 
we both got our commissions. So, I commend you on a great 
choice for Staff Director.
    I got my disability back on May 5, 1968, serving, as 
Senator Webb did, in the U.S. Marine Corps. I sustained a 
Spinal Cord Injury. And I must say that the VA has provided me, 
over the years, with a lot of necessary supports--financial 
security, health care, and vocational rehabilitation. I was 
able to go back to law school and earn a law degree at my 
university thanks to the support of the VA vocational 
rehabilitation system.
    But, as an individual with a disability, I also know that 
the VA does--the system does--not always empower or reintegrate 
veterans with disabilities back into the community in the way 
that it ought and could. I believe we have heard a lot today 
from the Honorable Dorcas Hardy, from yourself, and also from 
Senator Tester, about the need to improve the VA's independent 
living services. Well, as the Executive Director of the 
National Council on Independent Living, I can tell you, we have 
a government-funded program that is here waiting to be of 
assistance to veterans, and indeed, many of our Centers for 
Independent Living around the country are already serving 
veterans.
    The National Council on Independent Living is the oldest 
national cross-disability grassroots organization run by and 
for people with disabilities. As a membership organization, we 
advance independent living and the rights of people with 
disabilities through consumer-driven advocacy. This federally-
funded system, funded through the Department of Education 
through its Rehabilitation Services Administration, has 336 
federally-funded Centers for Independent Living all around the 
country and another 100 or so centers that, while they don't 
get a direct Federal grant, are getting some monies, generally 
through their State Vocational Rehabilitation Service, to 
provide independent living services.
    There is literally an Independent Living Center serving 
people with severe disabilities in every Congressional district 
in this country except five, and we will get coverage in those 
five sooner or later with your help.
    What do these centers do? These centers are run and 
operated by people with disabilities themselves. They serve all 
disabilities--mental health disabilities such as PTSD--physical 
disabilities such as Spinal Cord Injury, and Traumatic Brain 
Injury. They serve people with sensory disabilities--blindness, 
deafness--and there are quite a significant number of veterans 
returning from these current conflicts with those disabilities, 
as well. They serve folks with developmental disabilities that 
might experience mental retardation, cerebral palsy, spina 
bifida, many other developmental disabilities. They serve all 
folks with disabilities.
    What they offer are four core services. Number one, 
independent living skills training--not only the type of skills 
training we heard mentioned earlier--how to manage for yourself 
in your own apartment or home--but further than that, how to 
navigate your community; how to get reengaged with services. 
For example, how do I access my local mass transit system if I 
am a wheelchair user? Is there any fare benefit for someone 
with a disability? How do I access the maze of the public 
housing system if I need housing support? How do I interconnect 
with all the employment services out there, the one-stop 
systems, the various other government programs that are 
offering employment assistance to people? So they train folks 
on all of these things. So, independent living skills training 
is the first service that they all provide.
    Second, they are all providing peer support: ongoing 
mentoring with someone with a serious disability who is 
successfully reintegrated into the community and is working 
hard; working with someone on a one-on-one basis; mentoring; 
coaching; working with another person with a severe disability 
who is still learning how to cope, if you want to use that 
word; how to manage their lives in their community.
    Third, they are all providing information and referral on 
services: from Veterans Affairs services to the services that 
might be generic in a community to people with disabilities, 
their families, or anybody in the public who might have a 
question. Maybe it is, ``How do I adapt my home so that it is 
accessible to my physical disability?'' It can be any of a 
number of things.
    And fourth, and maybe most importantly, they work with 
people to provide advocacy services: both individual advocacy, 
representing an individual with a severe disability that might 
be being denied benefits for, say, the Social Security 
Administration or from a local housing authority; or in a job 
with some potential employment. So, they provide that level of 
support for someone who is unable to advocate on behalf of 
themselves; and secondly, they are all doing systems advocacy 
in their community to change the environment, if you will, the 
whole atmosphere of the community so that it is more inclusive 
of people with disabilities and more accessible to people with 
disabilities.
    We do much more, these Centers for Independent Living. CILs 
are providing assistance in obtaining and increasing housing in 
the communities. Many are doing home modifications. Many, 
almost all of them on one level or another, are accessing 
people with personal care attendant services that may need 
them. Maybe they are a quadriplegic. Maybe they are somebody 
with a Traumatic Brain Injury and they need cueing or other 
supports. So, they will make those connections. Some CILs offer 
personal care attendant programs. Many are doing employment 
services and much, much more.
    The core belief of our movement is to empower the 
individual so that they are taking control of their own lives, 
and that they are directing the services that are being 
delivered themselves. It is an empowerment model. It is a 
support model that enables the individual to reengage.
    This program has been funded through the Rehabilitation 
Services Administration since 1978 and it has grown over the 
years and it has improved. We are serving in excess of 300,000 
people with severe disabilities on an annual basis. We are 
preventing over 2,800 institutional placements in nursing homes 
in any given year and we are keeping 30,000 to 40,000 people 
from ever having to go to nursing homes on an annual basis, as 
well. The nursing home lobby doesn't like us and we are proud 
of that.
    We work with people with severe disabilities of all ages, 
whether they are children, whether they are working age adults, 
or whether they are older adults. We recently developed a 
Veterans task force and they conducted a survey of our 
membership on the relationship between Centers for Independent 
Living and the veterans they serve. The results showed that 
CILs are, indeed, working with veterans to obtain housing, 
assisting them in navigating the VA system, helping them 
connect with employment services, providing information and 
referral, and all the various things that I mentioned earlier.
    Unfortunately, these centers, when they receive a referral 
from the VA, the consumer is typically in crisis mode months or 
years after returning home. One clear conclusion that came as a 
direct result of the survey we did with our centers is the need 
for a formal connection between Centers for Independent Living 
and the Veterans Administration. We have a great system that 
already exists. It hasn't served a lot of veterans, but we are 
ready and willing to do so. We would like to do so--provide 
some resources to do training, to plant some people in the 
centers, and frankly, to do some training at the VA on what we 
have to offer. I think these would be the type of connections 
that we would need to make. We stand ready to serve and to make 
any difference that we can.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Lancaster follows:]

      Prepared Statement of John Lancaster, Executive Director of 
               the National Council on Independent Living

    Chairman Akaka, Ranking Member Burr and distinguished Members of 
the Senate Veterans' Affairs Committee, thank you for this opportunity 
to comment on VA's Vocational Rehabilitation and Employment Program. My 
name is John Lancaster and I serve as the Executive Director of the 
National Council on Independent Living.
    The National Council on Independent Living (NCIL) is the oldest 
national cross-disability, grassroots organization run by and for 
people with disabilities. As a membership organization, we advance 
independent living and the rights of people with disabilities through 
consumer-driven advocacy.
    Centers for Independent Living (CILs) serve our Nation in all but 
five Congressional Districts. These centers proudly serve veterans and 
more than 300,000 people with disabilities each year. They are serving 
an increasing number of newly injured and aging veterans. CILs are non-
residential, cross-disability advocacy organizations offering core 
services of independent living skills training, peer support, 
individual and systems advocacy, and information and referral.
    The core belief of Independent Living, which NCIL and all Centers 
for Independent Living subscribe to, is that all people have the right 
to decide how to live, work, and participate in their communities, and 
that consumer-directed and community-based services are essential to 
integration and full participation of people with disabilities in all 
aspects of society.
    The reports of the President's Commission on Care for America's 
Returning Wounded Warriors, as well as the VA's Vocational 
Rehabilitation and Employment Service Task Force, support this 
fundamental Independent Living principle and agree on the need to 
create more IL programs, which increase access to community-based 
services. Unfortunately, our government provides money for 
institutional services, but refuses to fund the same services in a 
community-based setting, even when the cost is significantly less.
    NCIL has long worked to garner the supports and services that 
people with disabilities need to achieve community integration and 
economic self-sufficiency. In 2006, the NCIL Board of Directors adopted 
the proposal, Being American: The Way Out of Poverty as our employment 
policy and we continue to work with the World Institute on Disability 
in seeking consumer and stakeholder input on this collaborative and 
progressive solution.
    NCIL's Veterans' Task Force recently conducted a survey on the 
relationship between Centers for Independent Living and the veterans 
they serve. Results showed Centers are indeed working with Veterans to 
obtain housing, assisting in navigation of the VA system, and providing 
information and referral. Unfortunately, when Centers for Independent 
Living receive a referral from the VA, the consumer is typically in 
crisis mode, months or years after returning home. One clear conclusion 
that came as a direct result of the survey is the need for a formal 
connection between Centers for Independent Living and the Veterans 
Administration.
    The Vocational Rehabilitation and Employment Service Task Force 
Report questions the limited capacity of the Veterans' Administration 
to manage this heavy and unique task alone. Essential services for 
veterans provided by CILs include: benefits counseling, which assists 
veterans in applying for and maintaining veteran benefits and SSDI; 
transition and reintegration into the workforce; and information on 
accessible housing and transportation.
    The reports of the Veterans' Disability Benefits Commission, the 
President's Commission on Care for America's Returning Wounded 
Warriors, and the VA's Vocational Rehabilitation and Employment Service 
Task Force all agree that improvement of these specific services for 
veterans is essential to integration and full participation of people 
with disabilities in all aspects of society. Regrettably, veterans tell 
us they feel VA programs are woefully inadequate, and Centers report 
the inefficiency of some VA programs on local, State, and Federal 
levels and an unwillingness to collaborate with CILs.
    Fortunately, Centers for Independent Living welcome a formal 
relationship with the VA to assist veterans and their families. 
However, CIL funding has been cut three consecutive years. With 
additional funding, CILs can use their expertise and existing services 
to help improve VA programs, as well as, expand capacity for providing 
veterans essential and timely services. Centers also request more funds 
be spent on consumer-directed, community-based services than for 
providing services in an institutional setting.
    NCIL also encourages all Veteran Affairs programs to reach out to 
each and every local Center for Independent Living; and our Veterans' 
Task Force invites the VA to discuss means of collaboration, concerns 
and ideas for improving communication and efficiency.
    This partnership would benefit our veterans and our Nation. 
Together we will create an atmosphere that honors and serves our 
Nation's veterans.

    Thank you for your time and attention to this critical issue.

    Chairman Akaka. Thank you very much, Mr. Lancaster.
    Now we will hear from Mr. Carmon.

   STATEMENT OF DOUGLAS B. CARMON, ASSISTANT VICE PRESIDENT, 
     MILITARY AND VETERANS INITIATIVES, EASTER SEALS, INC.

    Mr. Carmon. Chairman Akaka and Senator Webb, on behalf of 
Easter Seals, I want to thank you for the opportunity to be 
here today to comment on the challenges to and strategies for 
improving the rehabilitation and employment of veterans with 
service-connected disabilities. My name is Doug Carmon and I am 
Easter Seals' Assistant Vice President for Military and 
Veterans Initiatives and I am a service-connected disabled 
veteran. Today, I will summarize our views and ask that you 
accept our full statement for the record.
    My 11 years of active duty service were cut short by a 
series of injuries that forced me to be medically discharged in 
2001. The transition to civilian life was extremely difficult 
for my family and me. It is my hope that this hearing will help 
the Committee identify and take steps to eliminate barriers 
that are still preventing thousands of veterans with 
disabilities from getting on with their lives.
    For nearly 90 years, Easter Seals has provided services 
that help people with disabilities and their families lead 
better lives. Last year we served more than 1.5 million 
children and adults through a national network of 79 affiliate 
organizations and headquarter initiatives. Easter Seals has a 
long history of serving veterans through national, State, and 
local collaborations. We provide a broad range of community-
based services and supports around accessibility: adult day 
services, camping and recreation, child care, job training and 
employment, medical rehabilitation, mental health, respite and 
caregiver supports. In fact, the military and veterans' 
initiatives that I oversee specifically targets veterans with 
disabilities and their families and is one of four pillars of 
Easter Seals' Vision for 2010 that are core to our mission and 
priorities.
    I would like to now focus the remainder of my comments on 
four specific recommendations pertaining to the VR&E program 
and VA overall.
    First, Easter Seals recommends that VR&E amend its approach 
to outsourced contracting. In 2007, VR&E issued its revised 
National Acquisition Strategy, or NAS, that outlined 
competitive procedures for private organizations like Easter 
Seals to follow to be on an approved vendor list. However, 
organization of NAS regions, application structure, multiple 
delays in its release, and now a delay in announcing the 
selection of approved vendors have caused significant 
frustration among community-based organizations. Easter Seals 
strongly encourages the VA to adopt qualification methods like 
those used by Federal and State VR systems to guide the 
outsourcing of services.
    Second, Easter Seals recommends that the VA, through VR&E, 
provide more focus on transition points that arise when a 
veteran moves through the reintegration process due to 
disability. For a veteran facing this life-altering situation, 
not finding and accessing appropriate supports often leads to 
unemployment, financial ruin, dismantled families, and 
homelessness. Support should be made available not only during 
discharge, but continuously throughout rehabilitation, gainful 
employment, and remain a resource to respond to the delayed 
onset of medical conditions such as PTSD and TBI. Easter Seals 
recommends that VR&E establish a reintegration coordinator in 
the civilian sector similar to the recovery coordinator 
outlined in the Dole-Shalala report. This individual would 
promote successful community reintegration of service-connected 
disabled veterans.
    Third, Easter Seals recommends that the VA take steps to 
increase access to and availability of services. Significant 
challenges arise for veterans when faced with a discharge based 
on disability. Additionally, a large percentage of our nation's 
24 million veterans live in rural communities where VA services 
are only available through significant travel. Easter Seals 
urges the VA to assure access to VR&E services to all veterans 
who apply for assistance within their first 24 months post-
discharge. Additionally, the VA should create and fund 
partnerships with community-based organizations like Easter 
Seals to expand services where VA resources are not easily 
accessible or simply nonexistent.
    Finally, Easter Seals is concerned about the insular 
culture often found within the VA. As veterans move from one 
phase of service to another, they frequently experience 
needless delays, duplication of efforts, and much frustration. 
Many simply get lost within the system and never achieve their 
desired outcomes. Externally, the VA's self-contained culture 
impedes VR&E from effectively supplementing its capacity. 
Easter Seals recommends a systemic cultural change that enables 
veterans to access community-based services in coordination 
with VA case managers and service providers.
    The VA has much to gain by embracing community-based 
organizations, as they hold the infrastructure to help meet 
this urgent need and further supplement, not supplant, the 
efforts of the VA. Easter Seals is poised to significantly 
expand assistance to veterans with disabilities and their 
families.
    Thank you again for the opportunity to address this 
committee today and for all that you do for our Nation's 
veterans.
    [The prepared statement of Mr. Carmon follows:]

 Prepared Statement of Douglas B. Carmon, Assistant Vice President for 
         Military and Veterans Initiatives, Easter Seals, Inc.

    Chairman Akaka, Ranking Member Burr, and Members of the Committee, 
on behalf of Easter Seals, I thank you for the opportunity to come 
before you today and provide our view on issues relating to the 
Department of Veterans Affairs' Vocational Rehabilitation and 
Employment Program. My name is Doug Carmon and I am Easter Seals' 
Assistant Vice President for Military and Veterans Initiatives, a 
veteran with eleven years of active duty service in the U.S. Air Force, 
and a service-connected disabled veteran.

                                  NEED

    The crisis facing our nation in meeting the physical and mental 
health needs of the 1.6 million members of the armed forces who served 
in Iraq and Afghanistan is overwhelming and continues to grow. 
Thousands of injured servicemembers are returning home to communities 
nationwide with hopes of transitioning to a successful civilian life. 
While a broad spectrum of public benefits and private resources exist 
across the country, many servicemembers and veterans with disabilities 
are experiencing unnecessary barriers to accessing health care, job 
training and employment, housing, recreation and transportation as they 
transition back into their civilian communities. Many of these 
communities are simply not equipped to respond appropriately to this 
population's unique needs, nor are they aware of how to best coordinate 
with military and veterans' systems in the process. These barriers 
often limit the ability of servicemembers' and their families to live, 
learn, work, and play as full participants in civilian community life.
    In the September 2007 Government Accountability Office report 
Disabled Veteran's Employment: Additional Planning, Monitoring and Data 
Collection Efforts Would Improve Assistance (GAO-07-1020), the 
Department of Veterans' Affairs Vocational Rehabilitation & Employment 
Program (VR&E), was found to be in the process of rolling out its new 
Five-Track Employment Process system of service provision. While the 
system was not fully implemented at the time of the report, GAO did 
note progress in the efforts of VR&E to meet the needs of a new group 
of veterans. The report also notes that VA staff ``expressed concerns 
about whether employment programs for disabled veterans . . . are 
prepared to meet the needs of participants returning from recent 
conflicts in Iraq and Afghanistan, who are surviving with serious 
injuries that may have been fatal in past conflicts, such as those 
associated with Traumatic Brain Injury.'' This observation warrants 
concern as Post Traumatic Stress Disorder (PTSD) and Traumatic Brain 
Injury (TBI) are among the leading medical conditions facing our 
returning heroes. Statistics show that one-in-three Iraq veterans and 
one-in-nine Afghanistan veterans will suffer from a mental health 
problem as a result of their service. Additionally, one in every nine 
American soldiers deployed to Iraq suffers a Traumatic Brain Injury. 
According to Dr. Evan Kanter, a staff physician for the VA, who wrote 
in a November 2007 study by Physicians for Social Responsibility, 
titled ``Shock and Awe Hits Home,'' that ``as many as 30 percent of 
injured soldiers have suffered some degree of Traumatic Brain Injury.'' 
These combat injuries significantly complicate a veteran's ability to 
successfully transition from active duty rehabilitation to civilian 
life. This is especially true regarding the ability to secure gainful 
employment as there are some 700,000 unemployed veterans in any given 
month according to the Department of Labor and cited in GAO report, 
GAO-06-176. Moreover, unlike injuries to a soldier's limbs, injuries to 
soldier's brain are often difficult to diagnose and treat in a timely 
manner.
    The GAO commends the VA for its efforts to prepare to meet these 
demands. However, concerns were noted about assuring that all veterans 
have ``equal access'' when wide geographic territories defined a 
service catchment area. Concern was also expressed about the efficacy 
of several service approaches that appeared to build infrastructure, 
but did not provide direct service.
    Issues of access to and availability of fundamental services and 
supports are, unfortunately, a common part of daily experiences for an 
individual living with a disability in our country. It is reasonable, 
then, to conclude that such challenges will be a part of life for a 
veteran with a service-connected disability. Easter Seals believes that 
these barriers need not be a part of life for these veterans--or for 
the broad population of individuals with disabilities. We are committed 
to creating and implementing solutions to these challenges in work and 
in life, so that all veterans with disabilities have the opportunity to 
lead full and productive lives.

                        EASTER SEALS BACKGROUND

    For almost 90 years, Easter Seals has been providing and advocating 
for services that change the lives of those living with disabilities 
and their families. Through our network of 79 affiliate organizations, 
we are the nation's largest provider of disability-related services to 
individuals with disabilities and their families--touching the lives of 
more than 1.5 million people annually. We have a long history of 
helping veterans with disabilities through job training and employment 
opportunities, adult day services, medical rehabilitation, home 
modifications for accessibility needs, and recreation. Easter Seals is 
positioned to offer military and veterans systems of care with viable 
options to support and augment current transition and reintegration 
efforts. Additionally, Easter Seals has former servicemembers in 
leadership positions to guide program development and to train staff on 
how to be attuned to military and veteran cultural issues. In fact, 
Easter Seals has made Military and Veterans Initiatives a foundational 
pillar of Vision 2010, which is the guiding mission for the 
organization's current work and resource allocation priorities. (See 
Attachment A)
    The vision of our Military and Veterans Initiative is that Easter 
Seals is a recognized and trusted partner with the Departments of 
Defense and Veterans Affairs, and is a significant source of essential 
information, services and support for America's military 
servicemembers, veterans with disabilities, and their families.

          EASTER SEALS CURRENT SERVICE CAPACITY AND EXPERIENCE

    Currently, Easter Seals provides a broad range of community-based 
services and supports--job training and employment, child care, adult 
day services, medical rehabilitation, mental health services, 
transportation, camping & recreation, respite and caregiver services, 
and accessibility solutions and technology for home, work, and 
independent living--to military servicemembers, veterans with 
disabilities, and their families in civilian programs throughout the 
Nation. A summary of a few of these activities follows. (See Attachment 
B)

Job Training & Employment
    Historically, Easter Seals has had considerable experience with the 
VA in providing employment-related services to veterans with 
disabilities. Our affiliate in Hartford, CT, provided vocational 
evaluations and assessments to veterans with disabilities. Easter Seals 
in Middle Georgia provides direct work experience for veterans with 
disabilities. On the national level, Easter Seals is piloting projects 
that facilitate employment through company-sponsored training. With 
Easter Seals, corporate sponsors also are exploring strategies to hire 
veterans with disabilities throughout their organizations nationwide. 
In addition, Easter Seals is developing an educational curriculum to 
train employers on best practices for understanding and accommodating 
veterans with disabilities, especially those with PTSD, TBI, and 
amputations that are trying to reenter the workforce.

Adult Day Services
    Several Easter Seals affiliates have contracts with the VA to 
provide adult day services to older veterans and are exploring 
potential opportunities for veterans with disabilities, specifically 
for younger veterans with significant injuries. Easter Seals Greater 
Washington-Baltimore Region is about to open a new intergenerational 
facility that will deliver comprehensive services in Silver Spring, MD, 
approximately one mile from Walter Reed Medical Center. Plans call for 
the center to have resources for veterans and their families to support 
them during their time in Washington, DC, and in transition to their 
respective home towns across the country.

Connect to Community
    A significant disconnect in the continuum of care exists between 
active duty recovery at military treatment facilities and post-
discharge reintegration to civilian life and life with a disability for 
servicemembers with disabilities and their families in communities 
nationwide. The recent report issued by the President's Commission on 
Care for America's Returning Wounded Warriors supports the 
implementation of a comprehensive ``Recovery Plan'' that will help 
servicemembers obtain essential services promptly and in the most 
appropriate care facilities in the Departments of Defense and Veterans 
Affairs, and civilian settings. Easter Seals is responding to the 
Commission's call to action for civilian settings through a ``Connect 
to Community'' model.
    Connect to Community is a dynamic national initiative that will 
support successful community reintegration of America's wounded 
servicemembers and veterans with disabilities and their families. A 
two-tiered approach fosters systems change throughout the country to 
rally and support communities and regions in responding to the needs of 
this deserving population, while specifically establishing points of 
contact that will coordinate and provide services and supports to 
families. Connect to Community will leverage, integrate, and build 
community capacity through Federal, State, and local public and private 
resources to meet specific needs for information, assistance, and 
essential services during the Seamless Transition phase and beyond from 
active duty discharge to civilian status and success community 
integration. (See Attachment C)
president's commission on care for america's returning wounded warriors
    An area that you requested Easter Seals' perspective on is 
regarding the recommendations coming out of the President's Commission 
on Care for America's Returning Wounded Warriors. While a number of the 
action steps outlined within each recommendation are focused on efforts 
within the Departments of Defense and Veterans Affairs, a number of 
these recommendations hold interesting opportunities for organizations 
like ours to work alongside these important systems to meet the needs 
of those returning home that have been incapacitated in some way as a 
result of military service.
    The first recommendation creates a comprehensive recovery plan and 
aligns with Easter Seals' philosophy of service delivery to the 
individual. Having a ``Recovery Coordinator'' to provide umbrella-like 
oversight or brokering is not unlike a case management approach that 
our affiliates employ when providing medical rehabilitation services in 
our service model. This approach enables a professional with specific 
skill sets and expertise to facilitate a client's movement through a 
fragmented, often insular system when he or she may not have the 
knowledge or the capacity to make that journey successfully alone. 
Easter Seals believes that the Commission's recommendation does not 
extend to what is arguably the most critical phase of recovery--the 
full reintegration into the servicemember's home community. 
Servicemembers returning to their home communities still need these 
types of supports to successfully transition back into civilian life, 
as we have seen in our Easter Seals New Hampshire's Veterans Count 
program. Veterans Count is an innovative state-wide initiative that 
engages area systems of care and service providers to meet the 
comprehensive needs of this population through convening, 
communication, and resource sharing. This community support model is 
funded in part by the Department of Defense and National Guard as a 
demonstration project, and is considered a best-practices model to 
successfully reintegrate servicemembers into civilian community life. 
In considering strategies related to this recommendation, we believe 
that community-based transition and long-term reintegration supports 
warrant inclusion in this approach.
    Easter Seals believes that community-based organizations like ours 
offer an important and invaluable resource in responding to the third 
recommendation--providing treatment and support for servicemembers 
dealing with PTSD and TBI. Our affiliate network has experience in 
providing mental health services as well as TBI therapies, as do a 
number of other national and local organizations--but, sadly, they are 
not utilized by the VA to meet the growing demand for these types of 
services. We want to be able to offer these services to supplement what 
the VA offers to our nation's veterans. Our national network provides 
access to rural communities that often are home to many veterans who 
forgo treatment because the VA care facility is too far away from home. 
For example, we have recently expanded our efforts on a newly launched 
nationwide Veterans with Traumatic Brain Injury Project to improve 
access to services for veterans, no matter where they live. The project 
is a collaborative initiative, privately funded and coordinated by 
Easter Seals' headquarters that provides computer-based cognitive 
rehabilitation and supports to veterans of Iraq and Afghanistan with 
symptoms, or a diagnosis, of mild to moderate TBI. We are offering a 
remote access home-based participation model nationwide using an online 
service delivery vehicle to make treatment available in the veteran's 
very own home, in addition to a number of affiliates that are operating 
a center-based program. (See Attachment D)
    With the increasing numbers of servicemembers returning with PTSD, 
the Commission report points to a challenge facing the VA in meeting 
the mental health needs of its constituency due to shortages of mental 
health professionals. Why, then, not leverage all available resources 
and work in partnership with organizations like Easter Seals to expand 
the VA's capacity to meet this growing and compelling need? Easter 
Seals Michigan has a contract with the State to provide mental health 
services to eligible public populations, which also includes veterans. 
With increasing awareness of the need to address issues relating to 
PTSD, Easter Seals Michigan is enhancing its programs to meet this 
growing need.
    Finally, our nearly 90 years of providing services to adults and 
children with disabilities has more than confirmed the need to 
recognize that the individual receiving our services is more often than 
not a part of some broader family system. The Commission's 
recommendation to strengthen family supports recognizes this truth. 
Providing services that support families learning to live with and 
support a servicemember facing newly acquired disabilities is critical 
to the servicemember's successful recovery. Easter Seals has done this 
through an innovative programming approach in recreational settings. 
Easter Seals has significant expertise in providing camping and 
recreation services, and are tailoring these accessible programs and 
facilities for servicemembers, veterans with disabilities, and their 
families. For example, Easter Seals affiliates in Virginia, Delaware, 
Nebraska, and Iowa will host a camp experience for children of deployed 
parents this summer in partnership with the National Military Family 
Association's Operation Purple program that provided over 40 weeks of 
camps at 34 different locations in 26 states last year. These free 
summer camps offer families support in managing the heavy emotional and 
psychological burden that falls on the sons and daughters of 
servicemembers and provide a nurturing environment to learn coping 
skills, make new friends, and experiencing life lessons with peers. For 
the past 2 years Easter Seals Alabama has hosted approximately 25 
veterans with disabilities at Lake Martin for Operation Adventure, a 
sports program put on by the Lakeshore Foundation at Easter Seals Camp 
ASCCA. The program provides therapeutic recreational therapy to 
increase confidence, self-esteem, wellness, and skill building. These 
programs are especially valuable for facilitating health, function, and 
well-being during times of recovery, adjustments to newly acquired 
disabilities, and strengthening families.
    Additionally, as one of the nation's leaders in providing respite 
care for families that face the challenges of supporting a member with 
a disability, we see first hand how important this time is for recovery 
for those involved in providing support each day. Increasing access to 
respite services for family members is an important piece of the 
reintegration puzzle that so many of our nation's military families are 
struggling to put together.

            VETERANS' DISABILITY BENEFITS COMMISSION REPORT

    In the executive summary, the Commission identified eight basic 
principles that should guide the future development of VA benefits for 
veterans and their families and while we agree with all eight, five 
closely align with Easter Seals' core principles and experience, as 
reflected in the objectives of our Military and Veterans Initiative.

    2. The goal of disability benefits should be rehabilitation and 
    reintegration into civilian life to the maximum extent possible and 
    the preservation of the veterans' dignity.
    4. Benefits and services should be provided that collectively 
    compensate for the consequence of service-connected disability on 
    the average impairment of earnings capacity, the ability to engage 
    in usual life activities, and quality of life.
    6. Benefits should include access to a full range of health care 
    provided at no cost to service-disabled veterans.
    7. Funding and resources to adequately meet the needs of service-
    disabled veterans and their families must be fully provided while 
    being aware of the burden on current and future generations.
    8. Benefits to our nation's service-disabled veterans must be 
    delivered in a consistent, fair, equitable, and timely manner.

    The Commission specifically states that ``the goal of disability 
benefits, as expressed in guiding principle 2, is not being met . . . 
VR&E is not accomplishing its primary goal.'' A veteran's ``seamless 
transition'' is intrinsic to the effective application of these key 
principles in order to truly promote and set the stage for successful 
community reintegration, especially with disability. Community-based 
organizations offer the infrastructure nationwide to be an extension of 
the VA's disability services network and work collectively to help 
achieve this goal.

       PERSONAL VR&E AND SERVICE-CONNECTED DISABILITY EXPERIENCE

    I am charged with establishing and expanding Easter Seals' 
services, resources, and outreach to servicemembers, veterans with 
disabilities, and their families. I also have a very personal stake in 
the benefits that are afforded to veterans today and in the future. In 
1989, I joined the Air Force as a medical service specialist. I was 
experiencing a successful and promising military career of eleven years 
of active duty service. Several injuries toward the end of my career 
made it difficult for me to perform my duties on a daily basis, and I 
found myself in front of a medical evaluation board in 2000. Several 
months later, in early January 2001, I was notified that I would 
receive an involuntary medical separation discharge on February 24, 
2001. I had less than 2 months to get things in order to transition to 
a whole new life--much different than what my family and I had embraced 
over the past decade.
    I was discharged with a DOD medical evaluation board disability 
rating of 10 percent. Several of the active duty doctors following my 
care felt the rating was much too low for my condition. They expressed 
concern that by rating me below 30 percent, I would be discharged 
instead of medically retired, which the latter would have provided me 
and my family access to an array of DOD funded benefits. I was told by 
active duty staff handling my discharge that I should not worry about 
my DOD rating and file for a disability rating with the VA as soon as I 
was discharged. And that I would most assuredly receive a higher, more 
appropriate rating from the VA. I received my active service severance 
pay in my final March paycheck and filed for VA disability some 6 weeks 
later in April.
    All of a sudden pay stopped, health care stopped, work stopped. I 
was not prepared for this swift of a transition from the security 
provided while on active duty. My wife, two daughters, and I went 
through numerous hardships--financial, emotional, and physical. It was 
a painful and difficult transition from athletic and active duty to 
injured and active duty to, finally, life as a veteran with a 
disability. We struggled to survive.
    Nine months after being discharged I crossed paths with someone who 
recommended that I contact the local VA VR&E program. I met with a 
counselor who evaluated my situation, which required special approval 
because of my 10 percent DOD disability rating. Once I was allowed to 
enter the program, I began to find direction and set educational goals. 
My counselor and I put together an education plan for me to achieve an 
undergraduate degree, and I attended the University of Maryland 
University College. The VR&E program was likely noted during the 
Transition Assistance Program (TAP) briefing I received just before I 
was discharged, but the volume of information provided in such a brief 
time was overwhelming and of diminished value. Then, 13 long months 
after filing for VA disability, I received my initial rating of 70 
percent. I received a monthly stipend from VR&E for attending school 
full time and combined with my VA disability pay and family support we 
were able to just barely get by.
    I found the VR&E program to be quite helpful, once I became aware 
that it was a resource to me. It would have been helpful as a 
servicemember discharged with a disability to have been required to 
meet with a VR&E counselor as part of the Seamless Transition program 
at specified intervals post discharge--3, 6, and 12 months--to assess 
my situation. Since I received severance pay when I was discharged, a 
large portion of my VA disability pay was deducted in order to repay 
the severance pay I received at discharge from the Department of 
Defense before I was eligible to receive my entire compensation. This 
repayment caused undue financial hardship on me and my family, as we 
were already struggling to survive on extremely limited funds, least of 
all, the 13 months I waited for an initial rating. This repayment 
should have, at a minimum, been delayed until I was out of the VR&E 
program and employed, and some type of VA disability compensation 
should have ``kicked in'' 3 months after discharge if my official VA 
rating was still pending.
    Over time, my quality of life dramatically deteriorated from my 
service-connected disabilities and even today, I am challenged by 
constant pain, sleepless nights, decreased physical dexterity, 
emotional loss, plus continual family readjustments and strain. The 
problems I faced during my transition were compounded by the increased 
physical and mental energies required to problem-solve solutions, as 
multiple internal and external systems were constantly in play. I only 
hope for my veteran comrades that personal struggles, such as mine or 
worse, will be addressed by the recommendations and guiding principles 
in Veterans' Disability Benefits Commission's report.

                      SUGGESTED IMPROVEMENT AREAS

    1. National Acquisition Strategy: One area of great concern for the 
past 2 years has been the VA's redevelopment of its National 
Acquisition Strategy (NAS). The NAS outlines the procedure that 
private, non-military entities, like Easter Seals, had to follow to be 
included on an approved vendor list. This vendor list would, in turn, 
be used by local VR&E program staff to identify which organizations 
have received approval from the VA as sub-contractors for relevant VR&E 
services. We support the idea that VR&E have a list of vendors that 
have met certain qualifications of quality and service capacity and NAS 
was intended to accomplish this end. However, the structure of the 
application, the multiple delays of the application release, the rapid 
response expectation--and now, the delayed release of award for 
approved vendors on the NAS list--have all resulted in significant 
frustration for community-based organizations like ours that want to be 
involved in providing the much needed services to veterans as they seek 
new employment, but are blocked by bureaucratic processes.
    Regarding the NAS itself, applicants were to respond only if they 
could provide a broad range of vocationally related services across a 
large geographic region. This prerequisite, though most likely intended 
to reduce the administrative burden involved with managing multiple 
contracts, resulted in application criteria which very few entities--or 
even consortiums of organizations--could meet. While a number of our 
affiliates were very interested in working with VR&E locally as they 
had done in the past, only one grouping in the Northeast were able to 
successfully apply.
    Equally troubling was the estimate of expected expenditures on 
contracting outlined in NAS. The VR&E program, as stated in the NAS, 
will only be contracting out for $6.5 million dollars of services in FY 
2008. While that number in and of itself may seem large, VR&E intends 
for that amount to suffice to provide for all needed contracted 
services in the entire 26 global regions included in its purview. This 
minimal expenditure, unfortunately, represents an opportunity lost for 
VR&E and falls significantly short of what is truly needed to 
adequately serve America's returning heroes. Hundreds of organizations 
just like ours will be blocked from working hand-in-hand with local VA 
workforce programs to get these deserving service men and women back to 
work. Again, it is not our intention to replace the work of VR&E; we 
want to expand its capacity through a pre-existing, proven system that 
wants to be involved.
    Recommendation: Congress must increase funding that reflects the 
level of need for today's veterans and their families; VR&E must use 
parallel qualification systems, such as those in the public vocational 
rehabilitation system to guide the outsourcing process to engage 
community-based nonprofit organizations.
    2. Transition Point Facilitation: The stress of managing a newly-
acquired disability can be as, or sometimes even more, debilitating 
than the acquired disability itself. For a veteran facing this life 
altering circumstance, supports should be made available as soon as 
possible. These supports should not only begin during a servicemember's 
demobilization, but continue through his or her rehabilitation, 
discharge, through finding gainful employment, and remain a viable 
resource to respond to the delayed onset of symptoms such as those 
exhibited in PTSD and TBI. These transition points represent an 
opportunity for positive or for negative outcomes. If effective 
supports and coordination are in place, the veteran stands a much 
greater chance to successfully reintegrate ``seamlessly'' into their 
chosen home community. If they are not, however, the veteran likely 
falls through the cracks to unemployment, financial ruin, dismantled 
families, and homelessness, unaware of resources no matter how well 
intentioned those resources might be. The veteran specific job labs 
reported on by the GAO last fall (GAO-07-1020) are the perfect 
example--an important resource that was minimally utilized because 
veterans were unaware of their existence. The attempt to re-enter the 
workforce is a pivotal transition point during community reintegration 
and would be more effective with someone with a diverse skill set and 
knowledge whose job was to work through this process alongside the 
veteran with a disability. Someone who is also coordinating issues such 
as housing needs, transportation, child care, and others so that they 
get the ``bigger'' picture of what the transitioning veteran is 
experiencing.
    Recommendation: VR&E or a designated Reintegration Coordinator must 
follow up with every veteran and their family at 3, 6, and 12 month 
intervals post discharge. This follow up creates an opportunity for 
service gaps to be identified and resolved using a proactive approach 
versus reactive. Further, it enables latent symptoms of TBI and/or PTSD 
to be assessed and treated should they arise sometime after discharge. 
The VA should work to create partnerships with community based 
organizations to expand its service capacity to regions where VA 
resources are not easily accessible or non-existent.
    3. Accessibility and availability of service: A number of 
significant challenges arise for veterans when they are faced with a 
discharge based on disability. They are confronted with delays 
resulting from backlogs for initial VA disability claims processing. 
Fear of not returning home immediately after deployment if the 
servicemember marks positive on the post deployment health assessment 
is now a documented reality. Servicemembers must deal with potentially 
being discharged with a denial of disability rating with delayed onset 
of symptoms such as those exhibited in PTSD and TBI. Additionally, a 
large percentage of our nation's twenty-four million veterans live in 
rural communities, where VA services are available only through 
significant travel by the veteran. This lack of availability compounds 
disincentives to seek and receive rehabilitative services.
    Recommendation: All veterans must have access to VR&E services and 
assistance during the first 24 months post discharge. This is the most 
vulnerable time for the veteran; VR&E must establish partnerships with 
community based organizations to expand services to regions where VA 
resources are not easily accessible.
    4. Insular Culture: Many of the systems and departments providing 
services to veterans within the VA operate in a very insular manner. 
Specific functions are carried out in silos and stop short of 
shepherding the veteran to much needed additional resources during 
their community-based transition, continued recovery and 
rehabilitation. In addition, regional Veterans Integrated Service 
Network (VISN) staff reflect this insular operational methodology in 
attitudes concerning the use and value of utilizing local non-military 
resources to meet the needs. One significant outcome of this cultural 
insularity is lost opportunity, for the VA to meet its objectives and, 
sadly, for the veteran who either gets lost in the system or cannot 
access the full array of available services in his or her community. 
More often than not, the experience of our Las Vegas affiliate that I 
referenced earlier reflects our affiliates' experience in attempting to 
partner with the local VA--initial resistance and then inability to 
execute.
    Recommendations: The VA must encourage key decision makers in each 
VISN to embrace collaborative relationships to meet the needs of 
veterans within their service delivery region. As outlined in the 
President's Commission on Care for America's Returning Wounded Warriors 
report, ``Recovery Coordinator's'' will help injured servicemembers 
navigate the various array of services and supports they require during 
rehabilitation. Easter Seals offers the continuation of this approach 
when the veteran transitions to his or her home community. In 
partnership with community based organizations, establish a 
``Reintegration Coordinator'' that parallels the work provided by the 
``Recovery Coordinator,'' but within veteran communities nationwide. 
Additionally, Easter Seals would recommend systemic cultural change 
that encourages veterans to access community based services in 
cooperation with VA case managers and service providers.

                                SUMMARY

    America's warriors do what they are told to do without question in 
service to their country. Now, all Americans must rise together to 
fulfill our promise to care for those who have borne the battle and 
sacrificed so much, by assuring that our veterans have access to the 
services they need, wherever they live. Being a veteran who has first-
hand experience navigating the VA's extensive systems and a member of 
one of the nation's largest nonprofit health care organization, I can 
say with unwavering confidence that the VA has much to gain by 
embracing community-based organizations, like Easter Seals, in 
collaborative relationships that compliment the current array of 
Federal and state benefits to our struggling veterans. It is these 
community-based organizations that hold the infrastructure to help meet 
this urgent need and should be viewed as an ally to further supplement, 
and not supplant, the efforts of the VA. Easter Seals is poised to 
substantially expand assistance to servicemembers and veterans with 
disabilities and their families. We have proven service solutions in 
place or within easy reach to address these immediate and long-term 
needs. The central challenge facing us in bringing needed information, 
services and supports to this population is the limited extent, to 
date, on the part of the Departments of Defense and Veterans Affairs to 
partner and outsource at substantial levels with private, nonprofit 
service providers to seed and sustain financial resources to conduct 
pilot projects and replicate effective models of service delivery 
nationwide that promote success in attaining individual and family 
goals and full community participation.

    Thank you again for the opportunity to address this Committee and 
for all that you do for our nation's veterans. I would be pleased to 
respond to any questions that you may have.

Attachments:
    [The named attachments (A-D) were not received by the Committee, 
and may be obtained from Easter Seals, Inc.]

A: Easter Seals History and Background
B: Easter Seals Services for Military and Veterans' Communities 
        Affected by Disabilities
C: Easter Seals Military and Veterans Initiative
D: Easter Seals Veterans with Traumatic Brain Injury Project

                                 ______
                                 
Responses to Written Questions Submitted by Hon. Daniel K. Akaka to Mr. 
 Douglas B. Carmon, Assistant Vice President for Military and Veterans 
                    Initiatives, Easter Seals, Inc.

    Question 1. If you could change one thing about the VR&E program, 
what would it be and why?
    Response. VR&E should significantly alter its approach to service 
delivery by actively utilizing the vast array of civilian community-
based supports and services available to assist veterans with 
disabilities to reengage in today's labor force. VR&E is facing a 
continually growing demand for its services and must expand its 
capacity to meet this demand--a need which the civilian sector, 
particularly the community-based non-profit community, should play an 
important role in addressing.
    In order to leverage civilian resources available to veterans with 
disabilities as they seek to enter the civilian workforce, VR&E should 
alter its vendor approval process currently known as the National 
Acquisition Strategy (NAS). The NAS requires an overly complicated and 
burdensome application process for vendor approval, requiring an 
expectation of service that far exceeds industry standards for 
determining creditability in providing vocational rehabilitation 
services. VR&E should adopt similar processes to the public vocational 
rehabilitation system, which typically utilizes private, third party 
accreditation to ensure quality service provision.
    The program would gain even greater efficiencies if it would simply 
accept private service providers that were approved by their respective 
state's vocational rehabilitation agency as qualified providers 
eligible to contract with VR&E This approach would leverage already 
existing quality assurance systems, reduce VR&E administrative burden 
significantly, and simplify the application process for private 
entities to serve veterans with disabilities by aligning the 
requirements to contract with state vocational rehabilitation agencies 
and VR&E
    Question 2. Your personal story is one that is quite compelling. As 
you were going through the process of being discharged, rehabilitating, 
and reintegrating back into civilian life, did you experience gaps in 
services? If so, what impact did they have on your progress?
    Response. I was notified in January 2001 that in 6 weeks I would be 
medically separated from active duty service because of my injury with 
a 10 percent disability rating. Suddenly I was faced with an array of 
challenges that were overwhelming to say the least--newly-acquired 
disability, income, health care, employment, personal and family well-
being.
    I received such an enormous amount of information in a short period 
of time during the 3-day Transition Assistance Program (TAP) that much 
of it was simply unusable at that time. The only thing I took away from 
the TAP briefing was to file for VA disability compensation, which I 
did in April 2001. My family and I struggled to survive as I could not 
find employment and my disability created many new functional obstacles 
that were extremely difficult to manage.
    All of these struggles throughout active duty rehabilitation, 
discharge, and community integration as a veteran with a newly-acquired 
disability significantly diminished my ability to navigate and utilize 
a variety of systems and resources that would have allowed me to more 
effectively provide as a father, husband, and community member.
    I believe a two-part solution for me and thousands of others like 
me, would be, first, to provide follow-up at regularly scheduled 
intervals post discharge to ``check on'' families to assess whether 
they need additional supports or guidance during their Seamless 
Transition from active duty to veteran status. Follow-ups would ideally 
be scheduled at the following milestones: 3 months, 6 months, 12 
months, and 2-year timeframes. The longitudinal approach to follow up 
would be even more important to today's veteran, given the often 
delayed onset of symptoms for certain medical conditions like Post 
Traumatic Stress Disorder (PTSD) or Traumatic Brain Injury (TBI).
    The second part of the solution would be to access a specific 
entity or individual with extensive knowledge of available community 
resources. This function would take a proactive approach in contacting 
the veteran family, assessing needs, and providing appropriate problem-
solving solutions and referrals.
    Another area of great concern is the extended length of time it 
takes to move through the VA's disability rating process. It took 13 
months for me to get my initial VA disability rating of 70 percent, and 
another 5 years to go through the formal appeal process and receive a 
90 percent VA disability rating. I was denied access to much-needed 
benefits and resources because the Department of Defense gave me a 
lowly 10 percent disability rating, forcing me out of active duty 
service with nothing more than a check, instead of medically retiring 
me with Federal benefits.
    If a designated person or organization would have followed-up with 
me and my family post-discharge to assess our situation and explore 
potential untapped resources, a great deal of hardship and anguish 
could have been alleviated. If I were to have been medically retired 
from active duty instead of medically separated, I would have gained 
access to more appropriate benefits like health care and immediate 
retirement pay. If the VA disability ratings process did not take 
months and even years to award truly appropriate percentages, then we 
may have been able to eliminate or avoid much of the stress and anguish 
my family and I were forced to endure on our own.

    Question 3. In your written statement you referenced an Easter 
Seals' project to provide treatment for veterans suffering from 
Traumatic Brain Injury. I want to hear more--how it was conceived and 
where do you see it going? If you could also discuss some of the 
challenges you've dealt with in implementing the project and the way in 
which you have surmounted them.
    Response. In January 2007, Mr. Ernie Ludy watched the Bob Woodruff 
documentary and became aware of the struggles of returning Iraq and 
Afghanistan veterans with TBI as they returned to civilian communities 
and were not able to find appropriate supports and services to meet 
their continuing rehabilitation needs. Mr. Ludy approached the VA with 
a $100,000 gift to initiate a TBI intervention program, but his offer 
was not embraced. So, he turned to Easter Seals in late spring of 2007 
after learning that we had been investigating a number of strategies to 
respond to the needs of veterans as communities were increasingly 
looking to our affiliates--looking for guidance and assistance in 
serving this population. One of those significant needs was managing 
TBI. The idea that Mr. Ludy brought to us was one that fit perfectly 
into our vision for how Easter Seals could respond to this need.
    Easter Seals, with a generous $100,000 grant from the Ludy Family 
Foundation, launched the Easter Seals' Veterans with TBI Project on 
July 4, 2007, in four affiliate markets. With an additional $50,000 
grant from the W.K. Kellogg Foundation, Easter Seals implemented a 
nationwide remote access service delivery component. The Veterans with 
TBI Project helps U.S. servicemembers returning from deployment to Iraq 
or Afghanistan that may have sustained TBI by providing computer-based 
cognitive rehabilitation and training through the Brain Fitness Program 
(BFP) developed by Posit Science. The BFP is a non-invasive computer-
based software program that improves cognitive function. In published 
studies concerning older adults, the BFP has been shown to improve 
memory by an average of 10 years, and the gains generalize to untrained 
tasks.
    Easter Seals' Veterans with TBI Project includes both center-based 
and remote access participation and support for servicemembers and 
veterans, plus opportunities for referral to community resources as 
needed. It allows participants to be served from nearly any Internet-
capable computer nationwide. The BFP is comprised of 40 1-hour sessions 
that can be completed in as few as 8 weeks and is offered free of 
charge to eligible servicemembers and veterans. Participants complete a 
40-hour computer-based program and are evaluated after completing the 
program to assess the effects of the cognitive rehabilitation provided. 
Those participating in the pilot receive a modest stipend and 
reimbursement for program-related expenses. In addition, veterans in 
the program and their families are provided with additional supportive 
services, as needed, through Easter Seals affiliate participating in 
the project.
    As previously noted, the project allows for both center-based and 
remote access participation. This dual service approach resulted from 
important learning about our initial implementation strategy. When we 
began the project in July 2007, the service scope was restricted to 
four geographically defined markets--Hartford, CT; Dallas and Ft. 
Worth, TX; and Sacramento, CA. After extensive market and outreach 
efforts through both veteran and civilian channels, we experienced a 
lower than expected take up rate for veterans' involvement in the 
project. After researching why this was the case, we learned that 
veterans were less likely to come to a facility to participate for a 
number of reasons, including stigma attached to a TBI diagnosis, 
reluctance to self-identify as needing TBI support, and many are simply 
undiagnosed or unaware they have TBI. We also learned that today's 
veteran is very engaged in online activity, participating in blogs and 
other Web-social networking structures.
    So, in January of this year we expanded the project's scope by 
offering the Brain Fitness Program remotely via the Internet, with 
participants receiving support via a remote case manager based in 
Easter Seals headquarters in Chicago, IL. This approach allows the 
veteran to participate in the project in the comfort and security of 
his or her own home and through a medium that they are more familiar 
using. As a result we have observed participation rates increase 
significantly over the past 7 weeks.
    Our vision is to elevate this project to a full research 
demonstration program to evaluate the efficacy of the Brain Fitness 
Program across a much larger population of veterans suffering with mild 
to moderate TBI. Posit Science, in partnership with Easter Seals, was 
asked to submit a research proposal to the Department of Defense on 
servicemembers returning from Iraq and Afghanistan with TBI. 
Notification from DOD as to the status of funding for this research is 
pending.
    Question 4. One of the issues you highlighted in your testimony was 
the need to make sure that someone was watching out for the needs of a 
veteran at all times. You mentioned in your written testimony an 
initiative called ``Connect to Community'' which is exploring this 
approach. Can you describe how this initiative works and how VA could 
be involved?
    Response. The Easter Seals Community Reintegration Demonstration 
Project, referred to as ``Connect to Community'' in Easter Seals' 
written statement, aims to provide multi-year transition support to 
servicemembers and veterans with disabilities and their families as 
they leave Department of Veterans Affairs' rehabilitation centers and 
return to their home communities. Built to augment existing resources, 
this 3-year demonstration program aims to reduce gaps in the transition 
process that relate to services, community resources, and individual 
and family circumstances.
    After nearly 5 years of combat engagement in Iraq and Afghanistan, 
the Nation is welcoming back many troops who have experienced combat-
related injuries and permanent disabilities. The systems to assist with 
transitioning active duty servicemembers with disabilities back into 
civilian communities have been stressed, underfunded, and face a 
plethora of organizational barriers, as documented by the President's 
Commission on Care for America's Returning Wounded Warriors in their 
final report Serve, Support, Simplify: Report of the President's 
Commission on Care for America's Returning Wounded Warriors, July 2007.
    Specifically, the Commission's first recommendation was to 
``immediately create comprehensive recovery plans to provide the right 
care and support at the right time in the right place,'' through the 
creation of a new staff role--Recovery Coordinator. Their goal is to 
``ensure an efficient, effective and smooth rehabilitation and 
transition back to military duty or civilian life; establish a single 
point of contact for patients and families; and eliminate delays and 
gaps in treatment and services.'' Easter Seals believes that 
recommendations from this report, while on target, do not go far enough 
to ensure complete community reintegration. A complementary civilian 
strategy is needed to marshal community-based resources to achieve this 
vision of reintegration.
    With a nearly ninety-year history of providing services and 
supports to individuals with disabilities in communities across the 
United States, Easter Seals has much to contribute to our brave service 
men and women returning with newly-acquired disabilities. As a result, 
Easter Seals has proactively proposed an effective system of transition 
supports for servicemembers and veterans with disabilities that works 
as a community-based extension of VA-based support initiatives. Our 
concept supports and supplements the recommended framework of the 
Commission's report, and compliments the Departments of Defense and 
Veterans Affairs' Recovery Coordinator staff as the community-based 
representative. Easter Seals' organizational expertise is grounded in 
community-based solutions for people with disabilities, delivering 
exceptional services in the very communities that these servicemembers 
call home. Veterans with disabilities are returning to civilian 
communities nationwide in large numbers, leaving their active duty 
status and lifestyle behind them. Having Easter Seals as a key 
facilitator in supporting their transition process ensures this 
successful transition.
    The demonstration will:

    1. Connect directly with servicemembers and veterans with 
disabilities and their families that are receiving rehabilitation 
services in Polytrauma Centers that are planning to return to their 
home communities, in collaboration with Recovery Coordinators;
    2. Provide servicemembers and veterans with disabilities and their 
families with effective and sustained transition planning and support 
before and throughout community reintegration;
    3. Provide families of veterans with disabilities with a 
centralized helpful and responsive place within the community that they 
can turn to for information, resources, and support; and
    4. Create effective and collaborative relationships that augment 
existing supports and services provided by military and veteran systems 
of care, military and veterans' service organizations, and other 
related organizations serving military servicemembers and veterans with 
disabilities and their families with community-based disability related 
organizations.

    Operations (to be coordinated by Easter Seals Headquarters, located 
in Washington, DC) will have the following structure: Community 
Reintegration Coordinators (CRCs); Regional Resource Coordinators 
(RRCs); and Local Resource Specialists (LRSs). CRCs will be stationed 
at/near the four VA Polytrauma Centers: Palo Alto, Minneapolis, Tampa, 
and Richmond. Additional sites are Walter Reed Army Medical Center in 
Washington, DC and the Center for the Intrepid in San Antonio, TX. 
These CRCs, in close collaboration with Recovery Coordinators, will 
work directly with servicemembers with disabilities that are receiving 
rehabilitation services that are planning to be discharged/retired from 
service and reintegrating back to civilian communities and their 
families. CRCs will provide an assessment of stabilization needs for 
each servicemember and their family, and create a reintegration plan to 
facilitate a truly seamless transition.
    RRCs will be based with the CRCs to coordinate and supervise the 
local resource specialists. They will be responsible for developing 
state and regional relationships and information resources. LRSs will 
facilitate individualized community transition activities to support 
each veteran and their family as they adjust to civilian life, 
particularly life with a disability, within their home community.
    The project anticipates and will evaluate the following outcomes:

    <bullet> A significant reduction in gaps in transitional supports 
for servicemembers and veterans with disabilities and their families as 
they reintegrate to civilian communities nationwide;
    <bullet> Servicemembers and veterans with disabilities and their 
families transitioning to civilian communities receive sustained 
effective support before, throughout, and until full community 
reintegration is achieved;
    <bullet> Veterans with disabilities and their families have a 
meaningful resource of community-based options, information, and 
referrals to use in adjusting successfully to civilian lives, and life 
with a disability;
    <bullet> Creation of effective and collaborative relationships that 
augmented existing supports and services provided by military and 
veterans systems of care, military and veterans service organizations, 
and other related organizations serving servicemembers and veterans 
with disabilities and their families; and
    <bullet> Increased awareness of issues facing servicemember and 
veterans with disabilities and their families within local communities.

    Question 5. Mr. Carmon, I want to compliment your organization for 
recognizing the recommendations of the Dole-Shalala Commission as an 
opportunity to step forward as a partner to work alongside DOD and VA 
to meet the needs of those returning home with disabilities. You have 
taken the position that the recommendation to incorporate a ``Recovery 
Coordinator'' into the service model does not go far enough. You argue 
that it does not extend to the most critical phase of recovery--the 
full reintegration into the servicemember's home community. Could you 
provide more details on ``Veterans Count,'' the demonstration program 
being conducted in New Hampshire? What involvement, if any, does VA 
have in this initiative?
    Response. Easter Seals New Hampshire's collaborative initiative 
Veterans Count, strives to find solutions to health and social service 
gaps that exist for veterans and their families throughout New 
Hampshire. Veterans Count has a vision of developing and creating an 
integrated system that links National Guard and Reserve personnel with 
the Department of Health and Human Services and other key community 
service agencies to find solutions to meet their unmet care needs 
before they become critical.
    Veterans Count is a collaboration including Easter Seals, New 
Hampshire National Guard, and New Hampshire Department of Health and 
Human Services. This partnership works to ensure veterans and their 
families receive exceptional services maximizing their quality of life 
in recognition of their service and sacrifice for the community. The 
approach is unique because it works in partnership with Federal, State 
and local resources to connect veterans and their families to services 
that meet their medical, social, emotional and financial needs. Family-
focused solutions are developed to address the unique struggles of 
military families during deployment and upon returning home.
    Four primary areas of concern for participants and their families 
have emerged through implementing the project:

    <bullet> Disability Issues: Due to advances in both combat 
technology and medical technology, many of these individuals return to 
civilian life with complex disability issues, including brain injuries, 
amputations, severe psychological trauma;
    <bullet> Employment Issues: Members of the Guard and Reserve have 
returned to civilian employment only to find that they have been 
reassigned by their employer to lower positions, or they have lost 
compensation and benefits, or they have been fired;
    <bullet> Social Attitudes: Individuals who have been engaged in the 
military feel a stronger sense of responsibility to serve their 
country. Ironically, the attitude that helps them endure the 
difficulties of war becomes a social barrier in civilian life that 
prevents them from asking for the health care and welfare services they 
need; and
    <bullet> Family Issues: Families with a parent or spouse serving in 
Iraq or Afghanistan struggle with a set of unique problems resulting 
from frequent and lengthy deployments. Spouses who are left behind, 
especially those in the Guard and Reserve who remain in their 
communities, do not have the support network that is available to 
families living on military installations. As a result, these families 
are isolated and experience greater stress.

    In response to these issues, Veterans Count has developed a number 
of intervention and assistance strategies. By connecting participants 
with community-based resources, the project case managers assist 
veterans with a broad range of support in the civilian community 
including accessing: disability compensation, vocational 
rehabilitation, special education, health plans for low-income 
children, subsidized child care, assistance with scholarships and 
financial aid for school or training programs and many other services. 
The program also offers family support sessions, providing counseling 
to spouses of all military personnel, active duty or reserve, giving 
them a place to share the experiences of being a military spouse and to 
receive support regarding children, finances, deployment, school, work 
and more. Additionally, Easter Seals provides direct services in the 
areas of medical rehabilitation, vocational services, childcare and 
transportation for program participants.
    Our New Hampshire affiliate is able to bring the resources of 
Easter Seals to help participants and their families access benefits 
and services received to solve potential issues brought on by the 
emotional and physical hardships associated with military service. 
Through Veterans Count, Easter Seals is working to ensure no one falls 
through the cracks by cutting through red tape, filling gaps in 
services and delivering solutions locally, promptly and efficiently.

    Chairman Akaka. Thank you very much, Mr. Carmon, for your 
statement.
    Mr. Daley?

  STATEMENT OF RICHARD DALEY, ASSOCIATE LEGISLATIVE DIRECTOR, 
PARALYZED VETERANS OF AMERICA; ACCOMPANIED BY THERESA BOYD, PVA 
              VOCATIONAL REHABILITATION CONSULTANT

    Mr. Daley. Chairman Akaka, Senator Webb, on behalf of the 
Paralyzed Veterans of America, I would like to thank you for 
the opportunity to testify today on the Department of Veterans 
Affairs Vocational Rehabilitation and Employment Program.
    PVA believes that the VR&E program is one of the most 
critical programs the VA administers in assisting veterans with 
disabilities to successfully transition to civilian life. The 
primary mission of the VR&E program is to provide veterans with 
service-connected disabilities all the necessary services and 
assistance to achieve maximum independence in daily living, 
and, to the maximum extent feasible, to become employable and 
maintain suitable employment.
    In fiscal year 2007, VR&E made progress in carrying out its 
mission. VR&E reported a rehabilitation rate of 73 percent for 
both veterans determined to have employment handicaps as well 
as veterans determined to have serious employment handicaps. In 
2007, 11,008 veterans achieved their rehabilitation goals 
through this program.
    Progress has also been made in standardizing the Disabled 
Transition Assistance Program so that the servicemember exiting 
the military service receives the same clear and accurate 
information on VA benefits.
    The Independent Living Program is a VR&E program that 
focuses on providing services to veterans with severe 
disabilities. VR&E has made improvements in the program by 
hiring a national independent living coordinator and 
establishing standards of practice in delivery of independent 
living services. However, VR&E is still forced to abide by an 
arbitrary cap of 2,500 new cases each year. While VR&E may not 
reach that cap every year, there are years that it does. In 
those years, say in the late summer or early fall, veterans 
with severe disabilities who have been determined to be 
eligible or entitled to VR&E programs have had to wait until 
October to receive the full services.
    PVA strongly opposes placing a cap on independent living 
cases. With the removal of the independent living cap and 
greater focus on serving veterans with severe disabilities, PVA 
recommends that VR&E be given additional professional full-time 
employee slots for independent living specialist counselors.
    PVA believes in the importance of introducing the idea of 
employment setting in the vocational setting early on in the 
medical rehabilitation process. We are hopeful that including 
discussions of employment expectations along with the medical 
rehabilitation goals, veterans will be more likely to choose to 
return to employment sooner.
    Following this concept, PVA designed a new vocational 
rehabilitation program to address these needs. The goal of the 
program is to provide vocational rehabilitation services under 
a PVA-corporate partnership that augments the existing 
vocational programs. PVA formed a partnership with the VA and 
Health Net Federal Services, the government operations division 
of Health Net, Incorporated.
    We opened our first rehabilitation office in the spinal 
cord injured center of the VA Medical Center in Richmond, 
Virginia, in July of 2007. The workload in our pilot office has 
grown rapidly and our PVA rehabilitation counselor in Richmond 
is currently carrying a caseload of 73 veterans. The counselor 
selected for the position is Mr. Rich Schiessler, a Vietnam 
veteran with more than 17 years of experience as a vocational 
counselor. Mr. Schiessler's hard work, along with the 
cooperative spirit and work of the VA personnel, has already 
resulted in the employment of seven veterans with Spinal Cord 
Injury.
    To highlight one case, Mr. Schiessler met a spinal cord 
injured veteran who had a long history of unemployment. The 
counselor was able to find the veteran a part-time job that 
would allow him to ease back into the workforce. Within a short 
period of time, the veteran was successful and he wanted to 
seek full-time work. He currently enjoys his position working 
for the Governor of Virginia and he reports that he often works 
more than 40 hours each week. Mr. Schiessler reports that he 
has not yet experienced a veteran who has refused vocational 
rehabilitation services.
    With the success of our rapidly growing caseload in 
Richmond, Virginia, PVA plans to open a second vocational 
rehabilitation office in Minneapolis with the corporate 
sponsorship of TriWest, a contractor to the Department of 
Defense. We are confident that our continuing efforts in this 
pilot initiative, as well as continuing efforts of our VA 
partners, will result in the 85 percent unemployment rate of 
PVA members becoming a sad statistic of the past.
    Chairman Akaka, Senator Webb, PVA supports the Committee's 
efforts to review and enhance the existing vocational 
rehabilitation programs of the Department of Veterans Affairs 
for current, as well as, future veterans of this nation.
    This concludes my statement. I would be happy to answer any 
questions you may have.
    [The prepared statement of Mr. Daley follows:]

 Prepared Statement of Richard Daley, Associate Legislation Director, 
                     Paralyzed Veterans of America

    Chairman Akaka, Ranking Member Burr, and Members of the Committee, 
on behalf of Paralyzed Veterans of America (PVA) I would like to thank 
you for the opportunity to testify today on the Department of Veterans 
Affairs (VA) Vocational Rehabilitation and Employment (VR&E) Program. 
PVA believes the VR&E Program is one of the most critical programs VA 
administers in assisting veterans with disabilities to successfully 
transition to civilian life.
    The primary mission of the VR&E program is to provide veterans with 
service-connected disabilities all the necessary services and 
assistance to achieve maximum independence in daily living and to the 
maximum extent feasible, to become employable and to obtain and 
maintain suitable employment. In fiscal year 2007, VR&E made progress 
in carrying out its mission. VR&E reported a rehabilitation rate of 73 
percent for both veterans determined to have employment handicaps as 
well as veterans determined to have serious employment handicaps. In FY 
2007, 11,008 veterans achieved their rehabilitation goals through the 
program. Progress has also been made in standardizing the Disabled 
Transition Assistance Program (DTAP) so that servicemembers exiting 
military service receive the same clear and accurate information on VA 
benefits.
    VR&E appears to be on target in implementing the Five-Track 
employment model, which should help standardize orientation activities 
and put greater emphasis on the employment component of the program. 
VR&E's internet-based employment services resource, www.vetsuccess.gov, 
with its self-service capability is intended to be a useful employment 
readiness tool that is easily accessible to veterans seeking jobs.
    While VR&E was successful working with newly-disabled veterans in 
2007, PVA believes more demands will be placed on its workload in 2008. 
As the war continues in Iraq and Afghanistan more and more 
servicemembers will return home with life-altering disabilities. It is 
our Nation's obligation to provide the very best VR&E services for 
those veterans with severe disabilities.
    The Independent Living (IL) Program is a VR&E program that focuses 
on providing services to those veterans with severe disabilities. VR&E 
has made improvements to the program by hiring a national IL 
coordinator and establishing standards of practice in the delivery of 
IL services. However, VR&E is still forced to abide by an arbitrary cap 
of 2,500 new cases each year. The consequence of this cap is that as 
VR&E approaches the cap limit each year, they must slow down or delay 
delivery of independent living services for new cases until the start 
of the next fiscal year. While VR&E may not reach that cap every year, 
there are years that it does. In those years in the mid-to-late summer, 
veterans with severe disabilities who have been determined ``eligible'' 
and entitled to the VR&E program have had to wait until October to 
receive full services. PVA strongly opposes placing a cap on 
Independent Living cases. The continuation of our military efforts 
associated with Operation Iraqi Freedom and Operation Enduring Freedom 
will, unfortunately, result in greater numbers of servicemembers who 
sustain serious injuries and who will need these services. With the 
removal of the IL cap and greater focus on serving veterans with severe 
disabilities, PVA recommends that VR&E be given additional professional 
full-time employee slots for IL specialist counselors. These 
experienced counselors should be fully devoted to delivering services 
to those individuals that are determined to have serious employment 
handicaps.
    PVA also believes that VR&E needs to focus more time and attention 
on those veterans who, after achieving their independent living goals, 
are ready to consider placement in suitable employment.
    Recently PVA has directed some of its organizational effort to 
assist veterans with severe disabilities to achieve employment goals. 
After considering the employment possibilities of severely injured 
veterans and realizing the deficit in existing programs, PVA made the 
decision to focus efforts on an initiative to improve the employment 
rate of its members. PVA has a goal to ensure that all veterans with 
Spinal Cord Injury or disease are given equitable employment 
opportunities. PVA believes in the importance of introducing the idea 
of employment and setting vocational goals early on in the medical 
rehabilitation process.
    We are hopeful that by including discussions of employment 
expectations along with achievement of medical rehabilitation goals, 
veterans will be more likely to choose to return to employment sooner. 
As such, PVA designed a new vocational rehabilitation program to 
address these ideas. The concept of the program is to provide 
vocational rehabilitation services under a PVA-corporate partnership 
that augments the many existing vocational programs. PVA believes the 
veterans with spinal chord injury (SCI) disability should be introduced 
to vocational rehabilitation counselors specializing in SCI disability 
that are able to provide extensive vocational-oriented services early 
in the medical rehabilitation process. If these counselors can devote 
more time and are able to continue to provide services as needed, the 
productivity and employment rates for this group of veterans will 
improve.
    PVA formed a partnership with the VA and Health Net Federal 
Services, the government operations division of Health Net, Inc. We 
opened our first vocational rehabilitation office in the SCI Center of 
the VA Medical Center in Richmond, VA in July 2007. The workload in our 
pilot office has grown rapidly and our PVA vocational rehabilitation 
counselor in Richmond is currently carrying a caseload of 73 veterans.
    The counselor selected for this position, Rick Schiessler, a 
Vietnam veteran with more than 17 years of experience as a vocational 
counselor, has established excellent relationships with the Veterans 
Health Administration (VHA), Veterans Benefits Administration (VBA), 
and, especially, VR&E personnel located in Richmond. Mr. Schiessler's 
hard work, along with the cooperative spirit and work of VA personnel 
has already resulted in the employment of seven veterans with SCI 
disability. To highlight one case, Mr. Schiessler met with an 
individual who had a long history of unemployment. The counselor was 
able to find this veteran a part-time job that would allow him to ease 
back into the workforce. Within a short period of time this veteran 
successfully adjusted to working part-time, and requested full-time 
employment. He currently enjoys his new position working in the office 
of the Governor of Virginia and he reports that he often works more 
than 40 hours each week.
    Mr. Schiessler reports that he has not yet experienced any veteran 
who has refused vocational rehabilitation services.
    With the success of our rapidly growing caseload in Richmond, PVA 
plans to open a second vocational rehabilitation office in Minneapolis 
with the corporate sponsorship of TriWest Healthcare Alliance, a 
contractor to the Department of Defense. The success of this expansion 
will depend on a productive relationship established with the VHA and 
VR&E. We are confident that our continuing efforts in this ``pilot'' 
initiative, as well as the continuing efforts of our VA partners, will 
result in the 85 percent unemployment rate among PVA members becoming a 
sad statistic of the past.
    PVA remains concerned that the current large caseloads and ever-
increasing data entry demands may be affecting the VR&E counselors' 
ability to deliver effective and timely services. For this reason, PVA 
supports VR&E initiatives such as process consolidation, if it results 
in VR&E counselors having more time to engage in face-to-face 
counseling activities and offers more extensive case management 
services.
    Chairman Akaka, Ranking Member Burr, Members of the Committee, 
Paralyzed Veterans of America supports this Committee's effort to 
review and enhance the existing vocational rehabilitation programs of 
the Department of Veterans Affairs for the current, and future veterans 
of this Nation.

    This concludes my statement. I would be happy to answer questions 
you may have.

    Chairman Akaka. Thank you very much, Mr. Daley.
    I want to tell you that all of your full statements will be 
included in the record.
    And now we will hear from Ms. Winslow.

   STATEMENT OF LINDA WINSLOW, EXECUTIVE DIRECTOR, NATIONAL 
  REHABILITATION ASSOCIATION; ACCOMPANIED BY JAMES ROTHROCK, 
  COMMISSIONER, VIRGINIA DEPARTMENT OF REHABILITATIVE SERVICES

    Ms. Winslow. Thank you. Mr. Chairman, Senator Webb, thank 
you for inviting me to be here with you today. I am Linda 
Winslow. I am from North Carolina. I am the Executive Director 
of the National Rehabilitation Association. We are one of the 
strongest supporters of the public vocational rehabilitation 
program. I am pleased to have with me today Jim Rothrock, who 
is Commissioner of Virginia Rehabilitative Services and he will 
speak to you momentarily.
    National Rehabilitation Association members are qualified 
rehabilitation counselors, independent living specialists, 
mental health specialists, and many others. Our members are the 
qualified professionals who interact daily face-to-face with 
persons with disabilities, developing individualized plans of 
action designed to facilitate and expedite the individual's 
return to work and independence.
    Let me share a story about a veteran. Matt is a veteran 
from Washington State who has quadriplegia and Traumatic Brain 
Injury. Matt spent seven months in a trauma hospital and now 
receives outpatient support from the VA hospital in Seattle. He 
wasn't expected to live after his injury and certainly was not 
expected to return to work. But now, despite the dire medical 
predictions, Matt is a single parent raising a ten-year-old 
daughter. He has returned to school, owns a home, and lives 
independently. Two months ago, Matt reentered the workforce on 
a part-time basis and plans to return to work full-time when 
his daughter is older.
    What was the difference for Matt and his family? It was a 
coordinated team approach between the VA and the public VR 
program that supported Matt's vision of independence. He 
receives support from a variety of programs through public VR, 
including independent living, advocacy, and the services of 
qualified rehabilitation staff. The services were coordinated. 
His family was involved. Matt attained his goals and is now 
working toward a future career.
    Matt's case clearly demonstrates the coordinated system 
approach is a proven model of success and he will be able to 
receive follow-up services even after he returns to work 
through the VR program.
    Veterans continue to receive benefit from the team approach 
between VR and VA, with VR providing many gap-filling services 
that positively impact the veteran's rehabilitation and 
subsequent employment. These services include connection to 
business partnerships using the network of business consultants 
from the 80 public VR programs. These VR specialists work 
closely with businesses using rehabilitation engineers and 
assistive technology specialists to accommodate individuals in 
the workforce. They bring expertise in return-to-work 
strategies for service men and women who are newly disabled and 
who seek to return to jobs they held before being called to 
active duty or to new jobs using the skills they gained in 
their military service.
    We have much to do to serve our wounded warriors and we are 
very happy to help.
    Let me introduce Jim, who will mention the Memorandum of 
Understanding.
    [The prepared statement of Ms. Winslow follows:]

   Prepared Statement of Linda Winslow, Executive Director, National 
 Rehabilitation Association and James Rothrock, Commissioner, Virginia 
                 Department of Rehabilitative Services

    Chairman Akaka, Ranking Member Burr and Members of the Veterans' 
Affairs Committee, thank you for inviting me to testify before you 
today on the Public Vocational Rehabilitation (VR) Program, a State/
Federal/Public/Private Partnership that has been and continues to be 
one of the most effective career-producing, independence-inducing 
programs in the history of the workforce world.
    My name is Linda Winslow and I am proud to serve as the Executive 
Director of the National Rehabilitation Association, a public, not-for-
profit, nonpartisan national organization founded in 1925, and is one 
of the longest serving and strongest supporters of the Vocational 
Rehabilitation Program, a program which over its almost 90-year 
history, has assisted millions of eligible individuals with 
disabilities maintain or regain economic and personal independence.
    I am pleased to be here today with Jim Rothrock who serves as 
Commissioner of the Virginia Department of Rehabilitative Services, 
whose Department works with our wounded warriors through a Memorandum 
of Understanding (MOU) with the Department of Veterans Affairs.
    The National Rehabilitation Association has a diverse membership 
including qualified rehabilitation counselors and associated qualified 
rehabilitation personnel representing the public and private sectors, 
veterans, independent living specialists, OTs, PTs, Speech Therapists, 
mental health specialists, private providers of rehabilitation, 
rehabilitation counseling educators and programs, special education 
professionals and many others.
    In response to the Committee's question as to whether the 
Vocational Rehabilitation Program can assist veterans with disabilities 
return to economic and personal independence, the answer is a 
resounding YES.
    The Rehabilitation Act of 1973, as amended, Title I of which is 
commonly known as the VR Program, was originally authorized as the 
Smith-Fess Act, Public Law 236, signed by President Woodrow Wilson on 
June 2, 1920. The Act was designed to return injured workers, including 
veterans of WWI, to suitable remunerative employment. Over the last 87 
years, the Act has responded to public input and the changing needs of 
society. VR now includes services to a wide range of individuals, 
including but not limited to, individuals with physical, mental and 
sensory disabilities and intellectual and developmental disabilities. 
This range includes individuals with Traumatic Brain Injury (TBI) and 
Post Traumatic Stress Disorder (PTSD) which has taken a toll on so many 
of our wounded warriors and their families.
    We would like to take this opportunity to share one of the many 
stories about a veteran with disabilities and a family perspective.
    Matt is a disabled veteran from Washington State. He is a person 
with quadriplegia who also has a Traumatic Brain Injury. Matt spent 
seven months in a trauma hospital and now receives outpatient support 
from the VA Hospital in Seattle. Matt was not expected to live after 
the injury and he was certainly not expected to return to work, be an 
active father or contributing member of his community. Despite the dire 
medical predictions: Matt is a single parent raising his 10-year-old 
daughter; he has returned to school; owns a home; and lives 
independently in the community. Two months ago Matt re-entered the 
workforce on a part-time basis and plans to return to work full-time 
when his daughter is older.
    What was the difference for Matt and his family? It was the 
combination of a great team of caregivers, actively involved family 
members, and a coordinated team approach between the VA system and the 
Public VR Program that supported Matt's vision of independence. Family 
members were actively involved and advocated to bring in experts across 
systems that supported Matt's success. Matt has received support from a 
variety of programs funded under the Rehabilitation Act, including the 
Public VR Program, independent living supports, advocacy services and 
the support of qualified staff trained in programs under the 
Rehabilitation Act such as the specialists in neuropsychological 
evaluation and TBI. The systems were coordinated, the family was 
involved and Matt attained his goals and is working toward a future 
career. Matt is contributing to our country through his payment of 
taxes, his role as a father, son, brother and Matt is supporting 
success for other veterans and their families. As Matt's case clearly 
demonstrates, a coordinated system approach is a proven model of 
success for the individual and for America.
    The hallmark of the Vocational Rehabilitation Program has always 
been the qualified rehabilitation counselor and associated qualified 
rehabilitation personnel, many of whom hold Master's degrees in 
rehabilitation counseling, rehabilitation engineering and associated 
disciplines. The VR Program serves a wide range of individuals with 
disabilities through the network of 80 State VR Agencies and 
partnerships with community rehabilitation programs (CRPs), and other 
private providers. The VR Program serves over one million eligible 
individuals with disabilities per year through comprehensive, multi-
faceted, individualized employment plans, placing more than 200,000 
eligible individuals with disabilities, including individuals with 
significant disabilities, into competitive employment each year.
    The VR Program is accountable, bipartisan, comprehensive and cost-
effective and has the documentation to support this claim. The return 
on investment of the VR Program is impressive.
    Many of the State VR Agencies, including Virginia, have a 
Memorandum of Understanding (MOU) with the Department of Veterans 
Affairs, as well as joint cases.
    Veterans continue to benefit from the jointly served cases between 
VR and the Department of Veterans Affairs, with VR providing many 
``gap-filling'' services that positively impact the veteran's 
rehabilitation and subsequent employment or return to work. These 
services include strong connections to business partnerships.
    The National Employment Team (NET) is a network of business 
relations consultants from the 80 Public VR Agencies. The NET is 
actively working with the employment specialists in the Veteran 
programs to support business partners in meeting their employment needs 
by hiring and retaining qualified individuals with disabilities, 
including veterans. These VR specialists work closely with business, 
rehabilitation engineers and assistive technology specialists to 
accommodate individuals in the workplace. They bring expertise in 
return-to-work strategies for service men and women, National Guard and 
Reservists who are newly-disabled and returning to previous jobs that 
they held before being called to active duty.
    Moreover, the Rehabilitation Services Administration (RSA), which 
administers the VR Program, is presently sponsoring an Institute on 
Rehabilitation Issues (IRI) and will publish a ``guidebook'' on how to 
enhance services to veterans with disabilities by strengthening the 
working relationship between Vocational Rehabilitation, VA-VRE and DOL-
VETS. The publication draft will be ready for critique and review in 
May at the National IRI Conference, which takes place in Washington, 
DC.
    In developing the content for one of the chapters focusing on the 
``customer's opinion'' a great deal of information has been gleaned 
from disabled veterans around the need for increased collaboration, 
more rapid access to medical information needed for return to work, 
more comprehensive vocational, rather than medical assessments only, 
improved job matching and follow-through, improved outreach to family 
members who may be the first to spot residuals from PTSD or TBI, as it 
impacts the success or failure of the veteran who has returned to work, 
and much more.
    The Vocational Rehabilitation Program is an accountable, 
bipartisan, comprehensive, and cost-effective program of supports and 
services to eligible individuals with disabilities, which includes: 
career counseling; development; training; and, ultimately, employment 
that leads to economic and personal independence.
    Presently, there are 41 State VR Agencies on an Order of Selection, 
which means that if the VR Agency projects that there will not be 
enough resources to serve all eligible individuals with disabilities, 
then those with the most significant disabilities will be served first.
    Moreover, in some States there are waiting lists for the excellent 
services and supports that the VR Program provides to eligible 
individuals with disabilities who want to achieve or re-achieve the 
American Dream.
    The State VR Agencies and the qualified rehabilitation counselors 
and personnel they employ are some of the best in our country.
    Our wounded warriors deserve no less than the best. We can help. We 
want to do more, but we will need additional resources in order for us 
to serve those most in need, including those who sacrificed so much for 
us to be here today.
    Thank you, Mr. Chairman and Committee Members for this opportunity 
to assist our country's wounded warriors achieve or re-achieve economic 
and personal independence.
    State VR Director Rothrock and I look forward to working closely 
with you over the next several months to ensure that every 
servicemember receives the quality training, services and supports 
offered by qualified rehabilitation counselors in the Public VR Program 
through increased collaboration with the Department of Veterans 
Affairs.

    We will be glad to answer any questions that you may have.

    Mr. Rothrock. Good morning, Senator Akaka----
    Chairman Akaka. Good morning, Mr. Rothrock.
    Mr. Rothrock. And a specific hello to our friend Jim Webb. 
You make all Virginians proud and I am certainly glad that I 
was privileged to vote for you and hope that I can do it many, 
many, many, many more times.
    [Laughter.]
    Senator Webb. Tell him he can take all the time he likes.
    [Laughter.]
    Mr. Rothrock. Can I get out my flip chart? Okay. Again, I 
am Jim Rothrock and I am the Commissioner of the Virginia 
Department of Rehabilitative Services. For the last six years, 
I have had the pleasure and honor to work with Governor Warner 
and now current Governor Tim Kaine regarding vocational 
rehabilitation services to our veterans.
    Today, I would like to discuss with you two major topics: 
One, a Memorandum of Understanding we have with our State 
agency cohort, the Department of Veterans Services in Virginia, 
and an overview of the current services that we in Virginia 
provide to veterans.
    Although I will be speaking only about Virginia, I think it 
is important to note that as there are 80 other agencies around 
the U.S. funded with Federal-State funds on an 80/20, roughly 
stated, matching basis, these services that we provide in 
Virginia are likely occurring at some level in most States, if 
not all other States.
    After being reappointed to my position in 2006 by Governor 
Kaine, one of the first actions I did was to contact my 
colleague, Vince Burgess, at the State Department of Veterans 
Services to establish a Memorandum of Understanding. This first 
MOU acknowledges our efforts to develop staff training programs 
for DRS and DVS employees, a referral process between our two 
agencies, and to identify a role for Woodrow Wilson 
Rehabilitation Center, the first comprehensive rehabilitation 
center in the U.S. There are eight similar programs across the 
Nation that could have a major role in our veterans' services.
    In Virginia, we are engaged and closer to being ready to 
serve those wounded warriors who we know will be looking to us 
in the Commonwealth for services. Now, an overview of those 
veterans that my agency served last year.
    Our VR program, focuses on work, and Commissioner Hardy 
noted the importance of work; and I would just ditto that. It 
is critical that we look not at just benefits, but allowing all 
disabled individuals, particularly those who are veterans, to 
see the value and be able to reenter work after they are fully 
integrated into our society.
    Our VR program serves 25,000 people each year, and a review 
of recent data showed that we served 676 veterans last year--
414 of these individuals were between 45 and 64 years old. We 
are not seeing many young veterans. We are seeing those that 
have come back and have been in society and unfortunately have 
not been successful in their reintegration. This is spoken to 
by the fact that 61 percent of the people that we serve have as 
a disability either psycho-social or mental disabilities, and 
these disability categories include substance abuse, Post 
Traumatic Stress Disorder, and the TBI that you mentioned.
    Over the past years, we have successfully assisted more 
than half of these individuals to find stable employment, but 
could be even more successful, I feel, if our services were 
offered before they had sunken so deeply into substance abuse, 
depression, or had their lives sidetracked by Traumatic Brain 
Injury.
    What we are asking today is for you to consider ways that 
we can support early intervention services to assure that we 
can collaborate to make sure that the talents of our veterans 
are fully maximized and they are welcomed into society. 
However, we VR agencies across the U.S., like so many other 
agencies, are looking at orders of selection where we are not 
serving all of our eligible individuals and would look to you 
to make sure that we can continue to fund these programs that 
can take individuals and help them successfully transition from 
the service back into society. After a review of the current 
President's budget, I would just like to note that we saw what 
looks like a very significant cut in our program, the first in 
history, and I would just encourage you that now is not the 
time to cut these important programs that can help all disabled 
individuals, but particularly, now is the time to help all 
disabled veterans also.
    Thank you very much for the opportunity to be with you 
today.
    [The prepared statement of Mr. Rothrock follows:]

 Prepared Statement of Jim Rothrock, Commissioner, Virginia Department 
                       of Rehabilitative Services

    Good morning Senator Akaka and distinguished Members of the Senate 
Veterans Affairs Committee. And if I may, a personal greeting to my own 
Senator, Jim Webb. You have shown such leadership in these matters and 
make all of us proud to be Virginians.
    My name is Jim Rothrock and I am the Commissioner of the Virginia 
Department of Rehabilitative Services. For the past six years I have 
had the good fortune of working with Governor Warner and our current 
Governor, Tim Kaine, on rehab issues but have been placing more and 
more importance on serving veterans.
    My relationship with the VR program spans almost 40 years as I have 
gone from a client to a counselor, to an administrator, and now Chief 
Executive Officer of this important program for Virginians with 
disabilities. I should also note that I am a long-time member of the 
National Rehabilitation Association and feel this is a special honor to 
represent them and our State/Public Vocational Rehabilitation Program 
(VR).
    Virginia's VR program serves approximately 25,000 individuals each 
year. More than 4,200 of those served enter competitive employment and 
either begin or continue, what we hope, are satisfying careers. Our 
Commonwealth offers 15 million dollars to match an additional 57 
million from Congress each year for our VR program. I should note that 
since July of 2004, we have been in an ``Order of Selection''--similar 
to almost half the VR programs in the U.S. and therein acknowledge that 
we cannot serve all of those that come to us for VR services.
    But, today it is my pleasure to share with you an overview of some 
of the things that we have developed over the last few years to serve 
those who have given so much to our country--our veterans with 
disabilities. After being reappointed to my position in 2006, one of my 
first actions was to contact my colleague, Vince Burgess at the 
Virginia Department of Veterans Services to establish a Memorandum of 
Understanding. This first MOU acknowledges our efforts to better 
understand and build collaboration between our two agencies assuring 
that veterans seeking vocational rehabilitation and other disability 
services are served appropriately.
    Subsequent to that, Governor Kaine issued Executive Order 19 that 
directed all State agencies to partner with our Department of Veterans 
Services. Mr. Burgess and I have continued to seek ways for our 
agencies, and our well-qualified staffs, to work together on common 
goals. Recently, we began an effort to coordinate employment services 
for all veterans including those that have disabilities. The task 
force--comprised of representatives from private industry, community 
colleges in Virginia, other state agencies, and veterans' 
representatives--is working to assure that veterans that are looking 
for work can be employed, regardless of any barriers they may have.
    The opportunity to come and meet with you today gives me a brief 
but welcome respite from our own State General Assembly's actions which 
are almost as rigorous as those that require your attention at your 
level. Several of Governor Kaine's agencies are working with members of 
our General Assembly to fashion new programming to respond to veterans' 
issues. Of particular importance to this effort is legislation 
introduced in both chambers which will direct my agency, the Department 
of Veterans Services, and the Department of Mental Health, Mental 
Retardation and Substance Abuse Services, to work together to assure 
that services are available to individuals with substance abuse 
problems, mental health needs, and the signature disability of our 
current conflicts--Traumatic Brain Injury.
    Virginia is fortunate to have a network of brain injury service 
providers which has evolved over the last decade, supported with State 
funds that will coordinate with local and State entities to provide the 
unique services required by those with Traumatic Brain Injury. 
Significant other services we hope to offer can be found at our Woodrow 
Wilson Rehabilitation Center, which was our Nation's first 
comprehensive rehabilitation center founded in 1947. It is important to 
note that this first rehab center was housed in what had been a 
veterans' center, and we pride ourselves in our ability to offer life 
transforming services to disabled individuals. Our Center has developed 
an extensive range of expertise in brain injury programming and, 
particularly, we feel that our Center staff and services can be 
effective in assessing the level of brain injury in some of our 
returning wounded warriors. We have been discussing with our State VA 
hospitals, for the past year or so, referral and vendor relationships 
that will assure a smooth transition for any disabled veterans who may 
require our comprehensive rehabilitation services.
    As you are also aware, Richmond is the home of the Hunter Holmes 
McGuire VA Medical Center, which houses one of four polytrauma units in 
the VA system. Currently our agency is in discussion with the Physical 
and Medical Rehabilitation staff at the hospital and with medical staff 
from the Medical College of Virginia to identify additional levels of 
cooperation. We are hopeful that some of the proposals that we have 
submitted to the Federal Government will be funded and we can continue 
to develop specific actions and programs that will be of aid to our 
wounded warriors. We feel that our discussions will focus on the 
importance of work for our returning veterans. It has been our 
experience that veterans are often so focused on receiving their well-
deserved benefits that they miss the opportunity to better prepare 
themselves for work. Coordinating medical and physical rehabilitation 
efforts with vocational training places our potential programming in 
what, we think, is a unique work-oriented niche. We surely do not 
anticipate that any vets would lose any of their deserved benefits; 
however, we will be focusing on the importance of work and how 
vocational and avocational activities can ensure that their futures are 
well-rounded.
    The vocational rehabilitation systems across the U.S. offer many 
services that can compliment VA and Department of Defense services, and 
we have several examples that I would like to share with you in my 
discussion. Our Vocational Rehabilitation Program, as noted earlier, 
serves approximately 25,000 people each year. A review of our client 
information noted that, currently, we are only serving approximately 
700 individuals with some record of military service. Interestingly, 
most are between 45 and 64 and have some form of psychosocial 
impairments, which include substance abuse. Several of our counselors 
are assigned to VA hospitals to provide vocational rehabilitation to 
eligible clients. One of the major problems we have seen is that when 
we do receive veterans from our hospitals in Salem, Hampton, or 
Richmond, the veterans that are referred leave our system when they 
transition home. In the future we hope to assure that these individuals 
are transitioning home more effectively--particularly those who have 
substance abuse as a major disabling condition, or present themselves 
as homeless. We all know too well the problems that we have heard about 
homelessness and substance abuse among veterans.
    One of the more successful initiatives in Virginia has been the 
award of $200,000 of Workforce Investment Act funds to TecAccess. As 
many of you may know, TecAccess is a woman-owned, small business with a 
home base in Richmond, which provides services to both public and 
private companies on web and information technology access. The unique 
characteristic of TecAccess has always been their reliance on qualified 
employees with disabilities and with this $200,000 of WIA funding, they 
have been able to train 15 veterans with disabilities; and, as of this 
date, one-half are already successfully working in the IT industry. Our 
VR program has been of critical importance to these veterans. Our 
ability to work to assure that their homes and work sites are made 
accessible has been a critical element in the success of this WIA 
initiative. We just recently learned that the Virginia Business 
Magazine has named TecAccess as its ``small business of the year'' and 
much of this honor is due to their ability to offer career 
opportunities to some of our disabled veterans.
    Another excellent resource that the VR system offers in Virginia is 
the Commonwealth Workforce Networks. Each month our VR staff that 
coordinate activities with businesses convene monthly meetings in 17 
areas of the State to bring businesses together with those who work 
with individuals with barriers to employment. These networks greatly 
increase the likelihood that the supply of qualified individuals with 
disabilities is appropriately matched with the demands of Virginia 
businesses.
    Much of the above progress has been made with State funds and may 
be unique to our Commonwealth. I would encourage you to evaluate how 
the vocational rehabilitation which serves our entire Nation could be 
resourced to serve not only those disabled Americans who come to them, 
but all the disabled veterans who may benefit from their services. The 
VR system across the Nation has a well-developed network of assistive 
technology and rehab engineering, business development, and core 
rehabilitation counseling services that will compliment the services of 
the Federal veterans programs that you are all well aware of.

    Thank you for the opportunity to share my thoughts with you, and, 
moreover, thank you for your leadership to our Nation.

    Chairman Akaka. Thank you very much, Mr. Rothrock.
    Mr. Lancaster, with regard to your organization's need for 
a formal connection between the Centers for Independent Living 
and VA, my question to you is how do you see this relationship 
working?
    Mr. Lancaster. Well, personally, Senator, I think what 
could really be a good match would be: rather than the VA doing 
independent living services themselves in-house, to hand those 
over to the federally-funded system that is out there to do the 
exact same services, which has been around since 1978. We have 
the know-how. We are operating, like I said, all over the 
country. I think we are well-positioned to take on this sort of 
task and to reintegrate people in a really full way back into 
their communities so that they are not just able to participate 
in their own apartment and their own home--although that is 
essential, because if you can't do that, you are certainly not 
going to get out and about in the community--but to be able to 
make sure that they can navigate all aspects of their community 
and to truly make a difference in their communities.
    Veterans didn't sign up to serve this country to come home 
and sit back and not participate nor continue their service and 
their leadership to their communities and their Nation. So, I 
think we sit in a unique position to do that. I think it could 
be done through some protocols or Memorandums of Understanding 
that could actually establish a hand-off, if you will, from the 
medical rehabilitation and that sort of thing, for those who 
need independent living services, to centers in the geographic 
area of the veteran's home; and to develop, in conjunction with 
the VA, and most importantly the veteran him or herself, an 
independent living plan. Then, to proceed in making sure that 
the goals that the veteran with counseling has established are 
eventually met by conducting and fulfilling the plan.
    Chairman Akaka. Thank you very much.
    Mr. Carmon, in your written statement, you referenced an 
Easter Seals project to provide treatment for veterans 
suffering from Traumatic Brain Injury. I want to hear a little 
bit more about that--how it was conceived and where do you see 
it going. If you could also discuss some of the challenges you 
have dealt with in implementing the project and the way in 
which you have surmounted those challenges, please.
    Mr. Carmon. Yes, sir. Thank you, Chairman Akaka. Our 
Veterans with Traumatic Brain Injury Program is a pilot 
project. The CEO and founder of the Ludy Family Foundation 
about a year ago approached the VA, as he had watched the 
documentary put on by Bob Woodruff about TBI. He was very 
touched by how veterans were returning from Iraq and 
Afghanistan, then would go to the polytrauma centers and 
receive the Cadillac of care. But, then what happened, as shown 
in that documentary, was that when veterans were going back and 
reintegrating into home communities, that their rehabilitation 
was actually reversing. They had regressed in their 
rehabilitation, because there weren't effective supports 
available to servicemembers once they got out--away from the 
foci of where the polytrauma centers were providing those 
services.
    So, the CEO and Chairman of the Ludy Family Foundation went 
to the VA. He approached them and spoke with them about 
offering them $100,000 to start a TBI project, and was told, 
essentially, that they just really did not know how to respond 
to that. Mr. Ludy then approached Easter Seals and we were able 
to, from experience that we have--a number of our Easter Seals 
affiliates across the Nation are providing TBI services to 
individuals--so we have the experience and knowledge to do 
that. So, we worked with the Posit Science Corporation out of 
California, who has a cognitive rehabilitation program that was 
released in 2005--it is very cutting-edge. In a collaboration 
between Posit Science, Easter Seals, and the Ludy Family 
Foundation, on the Fourth of July last year we launched the 
Veterans with TBI Project.
    This project is a pilot project and it was launched in four 
affiliate markets in California, Texas, and Connecticut. We are 
really looking at taking the cognitive rehabilitation program 
and providing rehabilitation to servicemembers free of charge 
to help them with mild to moderate Traumatic Brain Injury. As 
we moved forward with the project over the last number of 
months, we have looked to partner with the VA and other 
organizations as far as enhancing recruitment and reaching out. 
A couple of the challenges we came up against was that when we 
used kind of a top-down approach, we really found some 
resistance. There really wasn't a lot of interest. But, when we 
went from the bottom-up, we found that a lot of clinicians that 
were involved directly with providing services to veterans, 
were very interested and were providing referrals to our 
program.
    It was a bit disheartening not to be really embraced from 
the top down. And, as we continue to move forward, we also had 
identified, through speaking directly with veterans, that a 
number of them are just not self-identifying that they have 
mild or moderate Traumatic Brain Injury. So, I am really 
hopeful that as we continue to move forward and the Department 
of Defense--as part of the demobilization of units that have 
been deployed--when they are doing the mandatory screening, 
that individuals will be identified; and that we can create--
using what I mentioned earlier in my statement about community-
based organizations--partnership with the VA.
    We really want to be that extension and work with the VA to 
really reach out to individuals with mild to moderate TBI to 
help them recover and reintegrate into the communities, because 
it is during that time, that two-year window, that I know from 
my first-hand experience, that if you don't get in there with 
early intervention, it is very easy to fall through the cracks 
and really spiral out of control. Then you are taking more of a 
reactive stance instead of proactive.
    And as we move forward with our TBI project, when we 
attended a veterans' forum up in Connecticut and a couple of 
individuals, a couple of soldiers who returned from Iraq and 
Afghanistan were self-diagnosed TBI--had TBI. They said, 
specifically, that there were two reasons why they wanted to 
engage in the program, but they would not. That was because: 
they were in fear of their disability rating being affected; 
and also, they were afraid that when they demobilized, that on 
the survey they marked ``no nightmares,'' none of that stuff--
none of the symptoms associated with TBI--they were afraid that 
the VA or DOD would come after them if they came out and said 
that they did exhibit that. They were told that when they 
demobilized, that if they marked ``yes'' to any of the answers, 
that they could count on not being able to go back home for at 
least two weeks, in order to receive a full workup and 
referral.
    So, there are kind of a couple systems there that are in 
play: the larger system of identifying it; and then, on an 
individual basis, the individuals that are not wanting to self-
identify for fear of losing access to benefits that they find 
crucial in their transition and reintegration into their 
communities.
    As we have moved forward with the TBI project, one of the 
strategies that we engaged just last week--we rolled out a 
nationwide home-based component to the TBI project and we have 
already seen some very moderate success with that. In only a 
week's time, we've enrolled almost ten individuals into that 
program. The ideology behind that is: an individual doesn't 
have to go to a Vet Center and, essentially, self-identify; 
they can be in the security of their own home as they go 
forward. The W.K. Kellogg Foundation helped us launch that 
second component, so now we have two systems in play with our 
TBI project. We really want to embrace the VA to become a 
referral source and work with us in providing cognitive 
rehabilitation to the servicemembers.
    Chairman Akaka. Thank you, Mr. Carmon.
    I have questions, but let me yield to Senator Webb for his 
questions.
    Senator Webb. Thank you, Mr. Chairman.
    Jim Rothrock, always good to see you again and we very much 
value the work that you have been doing in Virginia for all our 
veterans down there.
    Mr. Rothrock. Thank you.
    Senator Webb. We appreciate you coming today.
    Mr. Lancaster, Mr. Carmon, thanks very much for your 
service, and those others of you who have served.
    With respect to the PVA, I would say that since I started 
working in this area in the late 1970s, PVA and DAV have always 
been out on the forefront when it comes to trying to develop 
forward-looking programs for those who have been seriously 
disabled, and I really appreciate your testimony.
    I have also been able to spend time down at the Richmond 
facility. They are doing great work down there. It was really 
inspiring to go out and talk to a lot of the veterans.
    I have one question that I would like to kind of pose to 
those of you who would care to give a reaction, given the 
limits of time. There have been some suggestions that in the 
vocational rehabilitation area, that caseworkers might be 
selecting individuals who are not as severely disabled, 
granting them the educational benefits they desire under 
vocational rehabilitation and leaving more disabled veterans 
out of the process, presumably for statistical reasons or 
something.
    I find that quite puzzling, I have to say. I know when I 
was going through vocational rehabilitation, the other 
individual who was with our counselor in the law school program 
was an Army helicopter pilot who had taken a 51-caliber machine 
gun round that had knocked both his eyes out. He was almost 
completely blind, a very, very bright guy. He certainly got the 
full attention and assistance of the people inside the Veterans 
Administration.
    I know that we have a challenge with seriously disabled 
people when it comes to the reentry process. There is no 
question about that. But logic would say that the more 
seriously disabled someone is, the more difficult the challenge 
is going to be to get them into the process. I would hate to 
think that there is some sort of an assumption going on inside 
the system that is saying we are looking at statistics rather 
than taking care of the people who are more seriously disabled. 
Do any of you all have a reaction to that?
    Ms. Boyd. Senator, I think I can respond for PVA. My 
background is that I worked for 20 years in the VR&E program 
for VA. I do not agree with that statement. In fact, VA is held 
strictly accountable. They have to report on their serious 
employment handicap rate, which is how many veterans with 
serious employment handicaps get rehabilitated each year, and I 
have never known any rehabilitation counselor in the system 
that would turn away a veteran with a serious employment 
handicap and not serve them just for the sake of getting higher 
numbers.
    Mr. Rothrock. Senator Webb, one of the things that I 
think--and my comment is parallel to that and not on the point, 
and I apologize--but, I think one of the problems is that we 
are seeing young men and women whose disability does not 
necessarily present itself that well, not at that time.
    I met a young man yesterday, in fact, at a brain injury 
rally we had at our General Assembly in Richmond and he was 
discharged in 2004 from the military. He was a decorated 
soldier, had served his country very well. Unfortunately, he 
had suffered a brain injury--the Traumatic Brain Injury that 
you mentioned, Mr. Chairman--and he did not even know he was 
disabled. He was so glad to get out. It was not the time for 
him to go on and on and on about some of the problems that he 
might be having, because he wanted to get home.
    When he got back to Gretna, Virginia, that is when the 
problems started happening. He had been released from all 
connectivity to the VA system and he was now finding himself on 
his own. At that time, he had a hard time reconnecting with the 
VA system and, in fact, had to go to the polytrauma unit in 
Richmond, at Maguire, to get the type of care he needed. So, I 
think that is another problem that is really affecting us. It 
is because so many of these folks don't know or don't accept or 
don't self-disclose the fact that, ``yes, something is wrong 
with me. I don't know what it is, but I want to go home.''
    Senator Webb. Well, that is a very valid concern, 
particularly when you look at the divide between the time an 
individual leaves active duty service and the period where they 
may decide that they want help from the Department of Veterans 
Affairs. I think Mr. Lancaster may have some thoughts on this, 
as well.
    But, I know when we were first looking at the notion of 
PTSD back in the late 1970s--actually, the DAV was the first 
entity in this country that started to focus on it. They had a 
project, I think it was called the Forgotten Warrior Project 
that they financed independently that later became sort of 
assimilated inside what the VA was doing. One of the things 
that we saw was that PTSD was latent, and so, when you are 
taking a survey when you are leaving active duty and you check 
all these boxes, it might be 10 years later, or 20 years later. 
There were, like, cycles. When I looked at the people I served 
with, where the problem would manifest itself or submerge; it 
presents a lot greater challenge for people working on the 
veterans' side to help them connect that to their experience.
    Mr. Lancaster, you have some thoughts on that in the Marine 
Corps, as well.
    Mr. Lancaster. Yes, Senator. A similar experience to what 
you are talking about is mine. The other thing that this recent 
survey that I referenced in my testimony--that we did of our 
Centers for Independent Living--we found that the largest 
number of veterans, by category, that our centers were seeing 
were actually veterans of the Vietnam era, and that they were 
often ones with psychiatric disabilities, latent PTSD, as well 
as physical disabilities, and often coming in with problems 
that they hadn't experienced when they were younger, and that 
are now showing up later in life, often related to housing, 
community integration, growing isolation, and things like that. 
So it is hard to gauge, but I suspect that if trends sort of 
continue with the increased prevelance of PTSD and Traumatic 
Brain Injuries, that there are liable to be a lot of latent 
problems that crop up with veterans from these current 
conflicts, down the road.
    Senator Webb. And the concern that we have is, the box is 
not going to be checked, as Mr. Carmon also was saying.
    Mr. Lancaster. Exactly. Right.
    Senator Webb. Thank you very much. Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Webb.
    Mr. Daley, PVA's pilot program at the Richmond VA Medical 
Center, I find is very impressive. Can you explain how PVA was 
able to do something that VA could not do alone?
    Mr. Daley. Mr. Chairman, may I defer to my expert in this? 
She helped me prepare the testimony and she is very 
knowledgeable on the subject, so I think it would serve the 
Committee better if she would explain about the project. We are 
very proud of the project; that is number one. We will soon 
have number two going. We have three and four in the planning 
stages and I understand we have plans for five and six--all 
depending on funding from private sources, which is still not 
in place at this time. We are out there looking right now. So 
let me have Ms. Boyd explain the project.
    Chairman Akaka. Ms. Theresa Boyd?
    Ms. Boyd. Thank you, Senator. There are a couple of aspects 
to the program that I think are worth noting, and I think help 
with the success that we have been able to achieve so far. 
First of all, our counselor in Richmond is a specialty 
counselor, well schooled in SCI disability. So, he is very 
focused. That is our target population, so, we have a specialty 
counselor.
    In addition to that, we take a multi-system approach, which 
you have heard almost everybody at the table today speak about. 
We make use of all the existing systems, and I will even point 
out I am very happy to see Commissioner Rothrock here. He has 
been very, very supportive of our program in Richmond and has 
supplied a counselor that we work with on non-service-connected 
cases of veterans. We have been very, very successful. So we 
have that linkage. Our counselor in Richmond has been very, 
very effective in establishing linkages with VHA and getting 
the medical referrals while they are still in the SCI center 
receiving medical treatment; so, we can start early discussing 
vocational options and goals, as the veterans are achieving 
their medical rehabilitation goals.
    We also then work with VA. VR&E has been very supportive. 
If we have the service-connected disabled veteran, we can bring 
them in and coordinate services with them. If they are non-
service-connected, then we turn to the Virginia Department of 
Rehabilitative Services to work with us, and other community-
based organizations. So, we really do take that multi-system 
approach, as well, our corporate sponsors also want to employ 
these veterans. Not only will they give us the funding to open 
an office, but they are interested in becoming an employment of 
first choice, as well.
    And, of course, our counselor has been very effective 
establishing relationships with employers. He has probably met 
with hundreds of employers, and so we have a pool of employers 
ready and willing to hire our veterans as they are ready.
    We also can tap into PVA's extensive national network of 
its National Service Field Officers; so that is an already-
established network that we can tap into.
    And finally, perhaps very importantly, is the fact that we 
are not a rule-based system and we are not a heavily process-
laden system. Our counselor can move very quickly. We have very 
few rules, and the rules that we do have are simple and just 
follow good rehab methodology. And so, we don't, unlike the 
government programs, don't have a lot of statute that we have 
to follow that might make our process lengthy, especially the 
up-front eligibility and entitlement determination process. We 
don't have that. There is really no application process. If you 
are a disabled veteran with a Spinal Cord Injury and you are 
interested in work, we can move very quickly to work with you.
    Chairman Akaka. Thank you. Mr. Lancaster, you noted in your 
testimony the unwillingness by VA to collaborate with your 
centers. Can you pinpoint some specific examples for the 
record?
    Mr. Lancaster. Well, I would have to go back and review the 
survey to give you the actual names of the centers. But, there 
are several centers that have approached VA benefits 
counselors, and also the hospitals, about these plans. It is 
kind of a non-receptivity in terms of referral and willingness 
to engage around issues of both specific veterans and veterans 
in general.
    It is happening kind of at the local level where, often, a 
call related to a particular veteran might be initiated by one 
of our peer counselors or independent living skills trainers 
back to the VA, and not receive good communication, 
coordination, et cetera.
    Chairman Akaka. Well, thank you very much, Mr. Lancaster. I 
also want to tell you that we may have other questions that we 
will submit for the record.
    I want to thank all of our witnesses for appearing today. 
Without question, we really appreciate your responses. As you 
know, we are trying to work this together, this second in a 
series that we are looking at to try to bring in the community 
services, as well. You have certainly been helping our veterans 
and we are looking for better ways of doing that.
    We have heard some excellent suggestions today from you on 
how to better serve our disabled veterans, as well. This will 
help the Committee and we appreciate all of this. So, thank you 
very much for appearing today.
    The hearing is adjourned.
    [Whereupon, at 11:22 a.m., the committee was adjourned.]

</pre></body></html>
